<html>
<title> - LEGISLATIVE HEARING ON H.R. 3094, TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT TO TRANSFER TO STATES THE AUTHORITY TO MANAGE RED SNAPPER FISHERIES IN THE GULF OF MEXICO, ``GULF STATES RED SNAPPER MANAGEMENT AUTHORITY ACT''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






    H.R. 3094, ``GULF STATES RED SNAPPER MANAGEMENT AUTHORITY ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 22, 2015

                               __________

                           Serial No. 114-22

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-311 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
          
          
          
          
          
          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       JOHN FLEMING, LA, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Robert J. Wittman, VA                Jim Costa, CA
Tom McClintock, CA                   Ruben Gallego, AZ
Cynthia M. Lummis, WY                Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Gregorio Kilili Camacho Sablan, 
Paul A. Gosar, AZ                        CNMI
Doug LaMalfa, CA                     Raul Ruiz, CA
Jeff Denham, CA                      Alan S. Lowenthal, CA
Garret Graves, LA                    Norma J. Torres, CA
Dan Newhouse, WA                     Debbie Dingell, MI
Thomas MacArthur, NJ                 Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio






















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 22, 2015.......................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     6
        Prepared statement of....................................     7
    Graves, Hon. Garret, a Representative in Congress from the 
      State of Louisiana.........................................     7
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Barham, Robert, Secretary, Department of Wildlife and 
      Fisheries, State of Louisiana, Baton Rouge, Louisiana......    10
        Prepared statement of....................................    11
    Bittermann, Haley, Corporate Executive Chef and Director of 
      Operations, Ralph Brennan Restaurant Group, New Orleans, 
      Louisiana..................................................    60
        Prepared statement of....................................    61
        Questions submitted for the record.......................    64
    Cresson, David, Executive Director/CEO, Coastal Conservation 
      Association, Baton Rouge, Louisiana........................    66
        Prepared statement of....................................    67
    DeLaCruz, Jason, President and COO, Wild Seafood Company, 
      East Madeira Beach, Florida................................    54
        Prepared statement of....................................    55
        Questions submitted for the record.......................    57
    Horton, Christopher M., Fisheries Program Director, 
      Congressional Sportsmen's Foundation, Bismarck, Arkansas...    37
        Prepared statement of....................................    38
        Questions submitted for the record.......................    40
    Jarvis, Gary, Owner, Back Down 2 Charter Fishing, Destin, 
      Florida....................................................    43
        Prepared statement of....................................    44
    Risenhoover, Alan, Director, Office of Sustainable Fisheries, 
      NOAA National Marine Fisheries Service, Silver Spring, 
      Maryland...................................................    12
        Prepared statement of....................................    14
    Wiley, Nick, Executive Director, Florida Fish and Wildlife 
      Conservation Commission, Tallahassee, Florida..............    18
        Prepared statement of....................................    20
    Zales, Robert F., President, National Association of 
      Charterboat Operators, Hurley, Mississippi.................    47
        Prepared statement of....................................    49
        Questions submitted for the record.......................    53

Additional Materials Submitted for the Record:
    Barham, Robert, Secretary, State of Louisiana, Department of 
      Wildlife and Fisheries, August 7, 2015 Letter submitted for 
      the record in support of H.R. 3094.........................    81
    Fishing Community Coalition, October 16, 2015 Letter 
      submitted for the record in opposition to H.R. 3094........    84
    Friedkin, T. Dan, Chairman, Texas Parks and Wildlife, October 
      20, 2015 Letter submitted for the record in support of H.R. 
      3094.......................................................    83
    Group of Commercial and Charter Fishermen, October 20, 2015 
      Letter submitted for the record in opposition to H.R. 3094.    88
    Group of Commercial Fishing Organizations and Seafood 
      Suppliers, Letter submitted for the record in opposition to 
      H.R. 3094..................................................    90
    Gulf of Mexico Reef Fish Shareholders' Alliance, October 19, 
      2015 Letter submitted for the record in opposition to H.R. 
      3094.......................................................    85
    Guy, N. Gunter Jr., Commissioner, State of Alabama, 
      Department of Conservation and Natural Resources, September 
      23, 2015 Letter submitted for the record in support of H.R. 
      3094.......................................................    80
    Miller, Jamie M., Executive Director, State of Mississippi, 
      Mississippi Department of Marine Resources, September 24, 
      2015 Letter submitted for the record in support of H.R. 
      3094.......................................................    82
    Wiley, Nick, Executive Director, Florida Fish and Wildlife 
      Conservation Commission, August 6, 2015 Letter submitted 
      for the record in support of H.R. 3094.....................    81
 
LEGISLATIVE HEARING ON H.R. 3094, TO AMEND THE MAGNUSON-STEVENS FISHERY 
CONSERVATION AND MANAGEMENT ACT TO TRANSFER TO STATES THE AUTHORITY TO 
 MANAGE RED SNAPPER FISHERIES IN THE GULF OF MEXICO, ``GULF STATES RED 
                   SNAPPER MANAGEMENT AUTHORITY ACT''

                              ----------                              


                       Thursday, October 22, 2015

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Gosar, LaMalfa, Graves, 
Newhouse, Bishop; Huffman, Bordallo, Lowenthal, and Torres.
    Also present: Representative Scott.
    Dr. Fleming. The Subcommittee on Water, Power and Oceans 
will come to order.
    The subcommittee meets today to hear testimony on H.R. 
3094. Opening statements at today's hearing are limited to the 
Chairman, the Ranking Minority Member, the Vice Chair, and a 
designee of the Ranking Member. The bill's sponsor will also 
have an opportunity to provide an opening statement on his 
bill. This will allow us to hear from our witnesses sooner.
    Parenthetically, we expect votes in about an hour, so we 
will probably have to recess for one vote series, and then we 
will continue the hearing.
    At this time, I yield myself some time for an opening 
statement.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Today, the subcommittee will conduct a hearing 
on H.R. 3094, the ``Gulf States Red Snapper Management 
Authority Act.'' Since our hearing in December 2014, while 
there have been several major developments related to the 
policies governing the fishery, not much has changed in terms 
of outcome. The Gulf of Mexico red snapper fishery is still a 
mess. The status quo is unsustainable, which leads us to the 
bill before us.
    Let's start by looking at a bit of context. The red snapper 
fishery is a key economic driver for many Gulf communities. 
Private anglers contribute to a growing support industry that 
includes everything from boat building to tackle shops. The 
charter for-hire boats make use of that economic infrastructure 
as well, but also bring in tourism dollars. Finally, commercial 
fishermen deliver their product throughout the Nation, and also 
contribute to tourism, as award-winning chefs use commercially 
caught fish in culinary masterpieces.
    Leaving aside the economic benefits, these are large, 
beautiful, and tasty fish that are prized by fishermen and 
consumers alike. Anyone who has been on the water, or even just 
witnessed the impressive catches in photographs, can understand 
the allure of catching red snapper.
    This fishery once supported a 180-day recreational season. 
Despite rebuilding success, recreational seasons have been 
drastically shortened over time. Even after quotas were 
adjusted upwards to account for a larger-than-expected stock 
assessment, private anglers got only a 10-day season in Federal 
waters for 2015. These shortened seasons have real consequences 
in the economies of coastal parishes and counties.
    I understand the ongoing and increasing frustrations of the 
recreational fishing community. We have held hearings in this 
committee on how NOAA counts fish where they do not live, and 
neglects where they do. We have also looked at some of the 
state data collection programs, like LA Creel, and how they are 
superior to NOAA's data collection; but NOAA does not 
incorporate the data from their states.
    This is a controversial topic, with the recreational, 
charter, and commercial sectors all competing for a share of a 
growing, but still rebuilding, resource. We will hear from all 
of those interests today, and I am glad to have that dialog.
    I am hopeful that we can continue that dialog to find a 
solution that everyone can live with. It is critical that we 
ensure plenty of fish for future generations, and that we are 
exercising responsible stewardship over the resource.
    H.R. 3094 would transfer management of the red snapper 
fisheries from the Gulf of Mexico Fishery Management Council to 
a newly created Gulf States Red Snapper Management Authority. 
The bill's sponsor pointed to the Atlantic Striped Bass 
Conservation Act and the Dungeness Crab Management Act as 
precedents, and I look forward to examining the similarities 
and the differences with those management schemes.
    The states have made a lot of progress in shaping this plan 
since the hearing last year. But there are a few outstanding 
questions: how will Federal enforcement work in these newly 
designated state waters for a state-managed plan, how will 
disputes between the states be settled, and how can all of 
Louisiana's economic and cultural interests best be protected.
    While we hope to find answers to these questions today and 
in the coming weeks, it is still clear that something has to 
change to allow the recreational community better access to 
this important resource.
    I want to thank all the witnesses for coming to testify and 
share their expertise and passion on this issue. I hope that we 
can have a productive dialog that leads to a solution.
    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Good morning. Today, the subcommittee will conduct a hearing on 
H.R. 3094, the ``Gulf States Red Snapper Management Authority Act.''
    Since our hearing in December of 2014, while there have been 
several major developments related to the policies governing the 
fishery, not much has changed in terms of outcome. The Gulf of Mexico 
red snapper fishery is still a mess. The status quo is unsustainable, 
which leads us to the bill before us.
    Let's start by looking at a bit of context.
    The red snapper fishery is a key economic driver for many Gulf 
communities. Private anglers contribute to a growing support industry 
that includes everything from boat building to tackle shops. The 
charter-for-hire boats make use of that economic infrastructure as 
well, but also bring in tourism dollars. Finally, commercial fishermen 
deliver their product throughout the Nation, and also contribute to 
tourism as award winning chefs use commercially caught fish in culinary 
masterpieces.
    Leaving aside the economic benefits, these are large, beautiful, 
and tasty fish that are prized by fishermen and consumers alike. Anyone 
who has been on the water or even just witnessed the impressive catches 
in photographs can understand the allure of catching red snapper.
    This fishery once supported a 180-day recreational season. Despite 
rebuilding success, recreational seasons have been drastically 
shortened over time. Even after quotas were adjusted upwards to account 
for a larger-than-expected stock assessment, private anglers got only a 
10-day season in Federal waters for 2015. These shortened seasons have 
real consequences in the economies of coastal parishes and counties.
    I understand the ongoing and increasing frustrations of the 
recreational fishing community. We've held hearings in this committee 
on how NOAA count fish where they don't live and neglect where they do. 
We've also looked at some of the state data collection programs, like 
LA Creel and how they are superior to NOAA's data collection, but NOAA 
does not incorporate the data from the states.
    This is a controversial topic, with the recreational, charter, and 
commercial sectors all competing for a share of a growing--but still 
rebuilding--resource. We will hear from all of those interests today, 
and I'm glad to have that dialog. I'm hopeful that we can continue that 
dialog to find a solution that everyone can live with.
    H.R. 3094 would transfer management of the red snapper fisheries 
from the Gulf of Mexico Fishery Management Council to a newly created 
Gulf States Red Snapper Management Authority. The bill's sponsor has 
pointed to the Atlantic Striped Bass Conservation Act and the Dungeness 
Crab Management Act as precedents, and I look forward to examining the 
similarities and differences with those management schemes.
    The states have made a lot of progress in shaping this plan since 
the hearing last year. But there are a few outstanding questions, such 
as how Federal enforcement will work in state waters for a state 
managed plan, how disputes between the states will be settled, and how 
all of Louisiana's economic and cultural interests can best be 
protected.
    While we hope to find answers to these questions today and in the 
coming weeks, it is still clear that something has to change to allow 
the recreational community better access to this important resource.
    I want to thank all the witnesses for coming to testify and share 
their expertise and passion on this issue. I hope that we can have a 
productive dialog that leads to solutions.

                                 ______
                                 

    Dr. Fleming. The Chairman now recognizes the Ranking 
Member, Mr. Huffman, for his opening statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you and good afternoon, Mr. Chairman.
    In terms of complexity, divisiveness, and potentially 
contentiousness, the issue of managing Gulf of Mexico red 
snapper must be second only to California water in terms of 
tough issues that come before this committee. So I understand 
what Congressman Graves is up against, and I applaud him for 
taking on such a politically challenging problem.
    I also appreciate his willingness to come to me before the 
hearing to discuss his legislation and offer to work across the 
aisle to address concerns that I and many other Democrats on 
our staff have about this bill.
    Based on some of the provisions in the bill, and also a 
very strong opposition that the recreational charter captains, 
commercial fishermen, seafood processors, and restaurant 
industry have voiced about H.R. 3094, it is clear to me this 
bill, in its current form, is not ready to proceed.
    However, I do think an honest and open dialog makes it more 
likely that we could reach a bill that could be broadly 
supported down the road. I intend to work with Mr. Graves, if 
he is up for that, to see if a more careful, consensus-based 
approach could achieve the Magnuson Act's goal of fully 
rebuilding these stocks and preventing overfishing, while also 
addressing Mr. Graves' concern about providing more flexibility 
and management authority to the Gulf states.
    This may seem like a hyper-regional issue. But, in fact, 
the red snapper debate has implications that reach far beyond 
the Gulf of Mexico to consumers all over the United States: 
anyone who enjoys wild, sustainable Gulf seafood.
    Just as importantly, it raises questions about whether we 
should throw back the effective, scientifically sound, and 
regionally-based system of fisheries management established 
under the Magnuson Act, or keep it, and allow it to continue 
rebuilding fisheries like the red snapper, which have been 
decimated by overfishing in the past.
    Some have argued that, since we recently passed legislation 
to permanently remove the West Coast Dungeness crab fishery 
from Federal management, that it is only fair to do the same 
for red snapper. I just want to speak directly to that, because 
the truth is red snapper and Dungeness crab are really apples 
and oranges when we talk about these management choices.
    Even when you put aside the significant disparities in the 
stock health between these two species, fishing pressure, user 
conflict, the history of management, it is impossible to ignore 
the fact that the Tri-State Dungeness Crab Management Agreement 
is the result of years of negotiation that took place with all 
fishery stakeholders at the table.
    Further, in the case of Dungeness crab, the Pacific Fishery 
Management Council can still step in at any point and establish 
a fishery management plan that would supersede the plan put 
forward by the states, if it elected to do so. So, there are 
very important distinctions between these two species and the 
management choices we face, and also between what has been 
proposed with the Tri-State Commission on Dungeness Crab and 
what is being proposed in the current draft of H.R. 3094.
    This is a bill that was not developed with input from all 
fishing sectors that have an interest in red snapper. It is not 
supported by commercial and charter fleets, that account for 
more than two-thirds of red snapper harvests. These fleets, and 
the other tourism and seafood industry businesses that they 
support, depend on healthy stocks and stable, predictable 
management. Right now, they have both; but it is difficult to 
see how they would have either under a state plan that lacks 
safeguards to prevent overfishing, and could allow massive 
resource reallocation.
    I believe there is a path that would lead to increased 
state autonomy in managing the recreational side of the red 
snapper fishery. I think that is possible. But the path should 
not be one that picks winners and losers, and stacks the deck 
against people who make their living on the water and who have 
taken significant steps toward making their fishing operations 
sustainable and accountable.
    Instead, it ought to incorporate the views of private boat 
anglers, charter boat captains, commercial fishermen, seafood 
processors, the restaurant and tourism industries, and the 
conservation community. I look forward to hearing from some of 
those voices today; and I view this hearing as the beginning, 
hopefully, of a discussion on how we allow greater access to 
the red snapper fishery, while ensuring that this important, 
and still overfished, stock continues to rebuild.
    I am also aware that the Gulf Council is beginning similar 
discussions, and is considering using its authority under the 
Magnuson Act to develop a regional management plan for red 
snapper. I hope that Mr. Risenhoover can give us an update on 
the status of that process, as well as other Council actions 
that address this issue. I thank you for the time, and yield 
back, Mr. Chairman.
    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    On the list of topics that most members of this committee are not 
particularly excited to discuss, Gulf of Mexico red snapper has to be 
near the top--perhaps second only to California water. So I understand 
what Congressman Graves is up against, and I applaud him for taking on 
such a politically challenging problem.
    I also appreciate his willingness to come to me before the hearing 
to discuss his legislation and offer to work across the aisle to 
address our concerns. The strong opposition that recreational charter 
captains, commercial fishermen, seafood processors, and the restaurant 
industry have voiced to H.R. 3094 signals to me that this bill in its 
current form is not the solution, but an open and honest dialog makes 
it more likely that we can reach one down the road.
    While this may seem like a hyper-regional issue, the red snapper 
debate actually has implications that reach far beyond the Gulf of 
Mexico to consumers throughout the United States who enjoy wild, 
sustainable Gulf seafood. Just as importantly, it raises questions 
about whether we should throw back the effective, scientifically sound, 
and regionally-based system of fisheries management established under 
the Magnuson-Stevens Act, or keep it, and allow it to continue 
rebuilding fisheries like red snapper which have been decimated by 
overfishing in the past.
    Some have argued that since we recently passed legislation to 
permanently remove the West Coast Dungeness crab fishery from Federal 
management, it is only fair to do the same for red snapper. But red 
snapper and Dungeness crab are a lot like apples and oranges: you can 
eat both, but they are very different. Even when you put aside the 
significant disparities in stock health, fishing pressure, and user 
conflict, it is impossible to ignore the fact that the Tri-State 
Dungeness Crab Management Agreement is the result of years of 
negotiations that took place with all fishery stakeholders at the 
table. Further, in the case of Dungeness crab, the Pacific Fishery 
Management Council can step in at any point and establish a Fishery 
Management Plan that would supersede the plan put forth by the states, 
if it elects to do so.
    The current draft of H.R. 3094, on the other hand, was not 
developed with input from all fishing sectors with an interest in red 
snapper, and is not supported by commercial and charter fleets that 
account for more than two-thirds of red snapper harvest. These fleets, 
and the other tourism and seafood industry businesses they support, 
depend on healthy stocks and stable, predictable management. Right now 
they have both, but it is difficult to see how they would have either 
under a state plan lacking safeguards to prevent overfishing and 
massive resource reallocation.
    I believe that a path to increased state autonomy in managing the 
recreational side of the red snapper fishery is possible. But that path 
should not be one that picks winners and losers, and stacks the deck 
against people who make their living on the water and who have taken 
significant steps toward making their fishing operations sustainable 
and accountable. Instead, it should incorporate the views of private 
boat anglers, charter boat captains, commercial fishermen, seafood 
processors, the restaurant and tourism industries, and the conservation 
community.
    I look forward to hearing from some of those voices today, and I 
view this hearing as the beginning of a discussion on how we allow 
greater access to the red snapper fishery while ensuring that this 
important--and still overfished--stock continues to rebuild. I am also 
aware that the Gulf of Mexico Fishery Management Council is beginning 
similar discussions, and considering using the authority it already has 
under the Magnuson Act to develop a regional management plan for red 
snapper. I hope Mr. Risenhoover can give us an update on the status of 
that process, as well as on other Council actions to address this 
issue.

    I yield back.

                                 ______
                                 

    Dr. Fleming. The gentleman yields back. I thank the Ranking 
Member.
    At this time I would like to ask unanimous consent that Mr. 
Scott sit in with us today.
    [No response.]
    Dr. Fleming. Hearing no objection, so ordered.
    The Chairman now yields to the Vice Chair, Dr. Gosar, for 
his statement.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Mr. Chairman; and thank you for 
holding today's hearing.
    Although Arizona is not known as being the fishing capital 
of the world----
    [Laughter.]
    Dr. Gosar [continuing]. We do have world-class fisheries, 
thanks to hatcheries and cold water stored behind our dams. 
Arizona also has an excellent Department of Game and Fish to 
manage those fisheries and wildlife for current and future 
generations of sportsmen and women.
    State and local expertise is paramount when it comes to 
understanding how management of our resources impacts those on 
the ground or in the water. Generally, these management 
entities are closer to those affected, understand the 
resources, and can make real-time, informed decisions better 
than a Federal desk jockey.
    Today's legislation is based on the premise of state 
expertise and management. The fisheries managers in these five 
Gulf states have a firsthand understanding of the red snapper 
resource, and are asking to take over what is now a Federal 
responsibility. I generally support this concept, and voted for 
it earlier this year, as a way to move a resolution forward. 
But there are still some questions.
    For example: why should Arizonans continue to pay for a 
management scheme that would be turned over to the states? In 
addition, 22 congressional districts line the Gulf Coast, but 
we need to ensure that the remaining 413 other congressional 
districts who rely on Gulf seafood availability are not 
negatively impacted by this bill.
    These are just some of the questions that I hope are 
answered today and in the forthcoming weeks. I look forward to 
working with my colleagues on this well-intentioned proposal, 
and I yield back the balance of my time, Mr. Chairman. Thank 
you.
    [The prepared statement of Dr. Gosar follows:]
Prepared Statement of the Hon. Paul Gosar, Vice-Chair, Subcommittee on 
                        Water, Power and Oceans
    Thank you for holding today's hearing.
    Although Arizona is not known as being the fishing capital of the 
world, we do have world class trout fisheries thanks to hatcheries and 
the cold water stored behind our dams. Arizona also has an excellent 
Department of Game and Fish to manage these fisheries and wildlife for 
current and future generations of sportsmen and women.
    State and local expertise is paramount when it comes to 
understanding how management of our resources impacts those on the 
ground or in the water. Generally, these management entities are closer 
to those affected, understand the resources and can make real-time and 
informed decisions better than a Federal desk jockey.
    Today's legislation is based on the premise of state expertise and 
management. The fisheries managers in the five Gulf states have a 
firsthand understanding of the red snapper resource and are asking to 
take over what is now a Federal responsibility.
    I generally support this concept and voted for it earlier this year 
as a way to move a resolution forward, but there are still some 
questions. For example, why should Arizonans continue to pay for a 
management scheme which would be turned over to the states? In 
addition, 22 congressional districts line the Gulf Coast, but we need 
to ensure that the remaining 413 other congressional districts who rely 
on Gulf seafood availability are not negatively impacted by this bill.
    These are questions that I hope are answered today and in the 
forthcoming weeks. I look forward to working with my colleagues on this 
well-intentioned proposal and yield back my time.

                                 ______
                                 

    Dr. Fleming. The gentleman yields back.
    The Chair now recognizes the bill's sponsor, Mr. Graves, 
for his statement.

   STATEMENT OF THE HON. GARRET GRAVES, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Graves. Thank you, Mr. Chairman. I really want to get 
into the hearing, but will just briefly say that when I was 
growing up, access to the red snapper fishery was significantly 
different than it is today. I think both of you indicated in 
your opening statements that you recognize that there are 
problems with the current management regime.
    Again, growing up, you virtually had access, from a 
recreational perspective, to the red snapper fishery year-
round; whereas, as I think most of you know, last year it was 
relegated to 9 days; this year, relegated to 10 days of access.
    There are fundamental problems with the current management 
regime, access, and the prevention of folks to access the 
fishery, but, importantly, to ensure that the access on both 
the commercial and also on the charter side is based upon 
proper management.
    Louisiana is known as a sportsman's paradise. There is no 
one here who, I think, has a desire to have the Gulf of Mexico 
red snapper, or anything else, be overfished. There have been 
suggestions that the bill is designed to work in the favor of 
the recreational industry to the detriment of the commercial 
side, or charter, or otherwise. It is simply not true.
    As a matter of fact, Mr. Huffman--and I want to thank you 
for your opening comments--I want it to be known that I 
repeatedly reached out to folks on the other side of this and 
asked for their input in the bill, as we were drafting it, and 
received nothing.
    I also think it is important to make note, and want to be 
fair, that Stan Harris of the Louisiana Restaurant Association 
has been in touch with me, as well as some folks in the 
recreational industry, within the last few months. There have 
been, from what I appreciate, to be some constructive dialog; 
but I think it is important to note that we did reach out and 
tried to find some type of middle ground.
    There have been suggestions, again, that the bill is going 
to work to the detriment of the commercial side. I am not sure 
where that is coming from. As a matter of fact, there were 
safeguards only put in on the commercial side. If they are not 
the right safeguards, then perhaps the industry engaging could 
have provided us and informed us of some ideas that would have 
been more helpful, as opposed to me sitting in a vacuum, trying 
to come up with good ideas, trying to protect the industry.
    There have been suggestions that the management regime 
contemplated in the bill would only work to reduce the 
commercial side. I also want to be clear there. There is 
absolutely nothing in the bill that suggests that. Just as the 
access for any side could potentially be managed down, based 
upon the informational science, it could also go up.
    The problem that we see right now is that the science is 
far less than accurate. As the Chairman noted, the LA Creel 
study that Secretary Barham and his folks have been working on, 
has much better science, as was acknowledged in previous 
hearings in this committee, than any other science that the 
Feds are putting together.
    There was a study that was recently released that indicated 
that 82 percent of private boat owners in the Gulf of Mexico 
support the idea of state-based management, and 72 percent of 
the federally-licensed charter boat captains also support that. 
I want to be clear on that, because there has been a lot of 
distorted information which I cannot wait to set the record 
straight here today. Seventy-two percent of the federally-
licensed charter boat captains, according to this survey, also 
support state-based management.
    Last, I will say this. The five Gulf of Mexico states agree 
upon very little. We could not even sit Secretary Wiley and 
Secretary Barham next to each other.
    [Laughter.]
    Mr. Graves. But the five Gulf states came together, 
recognizing there was a problem here. They came together and 
proposed a solution. It has been out there since March. I have 
not seen--again, this has been out there since March. Our bill 
was first being discussed prior to that. I have not seen any 
alternative put forth that would recommend a better approach, 
while everyone here recognizes that there are fundamental 
problems with the management structure.
    So, I look forward to setting the record straight, Mr. 
Chairman, on a number of these issues as we go forward, and 
very much look forward to engaging some of the witnesses.
    I need to introduce--I don't know if I should--can I 
introduce Secretary Barham now, or should I wait?
    Dr. Fleming. Sure, go ahead.
    Mr. Graves. OK. I just want to make note that Secretary 
Barham and I had the chance to work together for a number of 
years. He is a fantastic man, although you will note from his 
accent that he is actually a Yankee from north Louisiana.
    [Laughter.]
    Mr. Graves. Mr. Chairman, I would urge that you consider, 
once you hear this man speak----
    Dr. Fleming. Coming from north Louisiana, I take issue with 
that.
    [Laughter.]
    Mr. Graves. So there are a couple of you all here. Once you 
hear him speak, though, I think that perhaps you should 
reconsider the 5-minute rule, and instead allow people to speak 
based upon the number of words they can get out, because 
Secretary Barham takes about three times as long to say things 
as other people. So, I think you might want to consider raising 
his time to 15 minutes, as opposed to the 5.
    But a fantastic man, and looking very forward to all of 
your testimony. Thank you.
    Dr. Fleming. The gentleman yields back. And at this time 
the Chair would like to introduce our first panel of witnesses.
    Mr. Robert Barham, Secretary, Louisiana Department of 
Wildlife and Fisheries from Baton Rouge; Mr. Alan Risenhoover--
did I say that correctly?--Director of the Office of 
Sustainable Fisheries for NOAA from Silver Spring, Maryland; 
Mr. Nick Wiley, Executive Director of the Florida Fish and 
Wildlife Conservation Commission from Tallahassee, Florida.
    Let me remind witnesses that, under our Committee Rules, 
you must limit your statements to 5 minutes. The light system, 
which I think most of you are familiar with, is that you will 
be under a green light for 4 minutes. For the last minute, you 
will be under a yellow light, the caution light. When it hits 
red, we ask you to quickly conclude. I promise you every word 
in your statement, even if it has 10,000 words, will be entered 
into the record. So we will get everything that you have to 
tell us today.
    The Chair now recognizes Mr. Barham, Secretary, Louisiana 
Department of Wildlife and Fisheries, to testify for 5 minutes, 
sir.
    Mr. Barham, do you have your microphone on? Is it on?
    Mr. Barham. Yes.
    Dr. Fleming. Be sure it is pulled closer to you. Yes, there 
you go. It is hard to hear you if your mouth is not close to 
the tip of the microphone----
    Mr. Barham. OK.
    Dr. Fleming. Very good. Much better.

 STATEMENT OF ROBERT BARHAM, SECRETARY, DEPARTMENT OF WILDLIFE 
   AND FISHERIES, STATE OF LOUISIANA, BATON ROUGE, LOUISIANA

    Mr. Barham. Mr. Chairman, it is an honor for me to be here, 
and I will try to talk more rapidly. My colleague, Nick Wiley, 
from Florida, is here, and we are in support of H.R. 3094. Nick 
is not sitting beside me because he is mad at me. He has not 
gotten over the Florida game with LSU last weekend, and he 
wants to sit as far away as he can.
    [Laughter.]
    Mr. Barham. Mr. Chairman, we are here because we can do a 
better job. The fisheries management by the Federal Government 
is not a good one, especially as it relates to red snapper in 
the Gulf. It has been stated as to fishing days, we have been 
cut down now to 10 days. That is really, Mr. Chairman, a 
ridiculous proposal.
    In assessing a resource like the snapper, it is about 
having the correct numbers, and they are just not getting those 
numbers. They do not have a protocol and a system where they 
are properly assessing the population in the Gulf or the 
locations of those populations. These are not migratory fish, 
they are territorial fish. We know where they are.
    We put in, as they mentioned, the LA Creel program, where 
we scan the state and pick out all the big docks where 
recreational fishermen come in, and we literally send 
biologists to every one of them during the snapper season to 
count the fish.
    We also pull the bone behind the brain of a fish, where we 
can age those fish. The Feds are not doing that, so we have 
information not only as to population, but weights, sizes, and 
numbers.
    We are certainly more responsive to changes in that 
population, and would react quicker than the Federal 
Government. The Gulf Council meets five times a year. Our 
Commission meets every month. And I would have the authority 
within 72 hours to close a fishery, and it would be in our 
interest. We are not about to damage those fish.
    I would like to make a point in response to the Congressman 
who said that the charter-for-hire folks are against this. That 
is not so in Louisiana. We polled every one of our charter 
captains and got a response from nearly two-thirds of them. Of 
those that responded, over 70 percent are in favor. They know 
we will do a better job in Louisiana.
    So, as we look at it, we also are and want to be aware of 
the opposition. I think the opposition is fearful of any 
change. It would be counterproductive for me to damage one 
sector of my fisheries in Louisiana in favor of another one. 
Commercial fishing in Louisiana is a huge industry, and a very 
successful one.
    Louisiana is second only to Alaska in the production of 
commercial fish. Of the 1.4 billion pounds of commercial fish 
produced in the Gulf, Louisiana produces over a billion pounds 
of that 1.4 billion. We have over 30,000 jobs of people who 
depend on the commercial industry. If I did something to damage 
that industry, I would be gone very quickly. It is never my 
intention. I think the commercial folks will be better off if I 
am doing the assessment, because we will do a better job of 
telling what those stocks are.
    We will move forward with managing the fisheries. We will 
provide the information. Again, I would say to you that we will 
do a better job. I am available for any questions that you 
might have today.
    I would add one comment to the Congressman from Arizona. I 
appreciate what you say about Arizona being nervous about 
sending their money to Louisiana. If that turns out to be the 
stumbling block to this bill passing, do not send me a dime. 
Just give me the authority to manage those fisheries. I will do 
a better job.
    [The prepared statement of Mr. Barham follows:]
Prepared Statement of Robert Barham, Secretary, Louisiana Department of 
                         Wildlife and Fisheries
    Thank you, Mr. Chairman, for the opportunity to speak on behalf of 
Louisiana's fishing community before the U.S. House of Representatives' 
Committee on Natural Resources, Subcommittee on Water, Power and Oceans 
to present information on H.R. 3094, the Gulf States Red Snapper 
Management Authority Act.
    Red snapper is an iconic American fish--it is well-known and 
appreciated by both residents and visitors of Louisiana and the other 
Gulf states, whether it is on a diner's plate at one of our fine 
restaurants or on the end of an angler's line. Both commercial and 
recreational fisheries for red snapper are extremely important to our 
economy and way of life. We should take great care in managing these 
fisheries for the benefit of all users. We should strive to have sound 
data to guide our management decisions and seek out solutions to ensure 
our fisheries are ecologically and economically sustainable.
    As such, we are especially troubled with the current management of 
Gulf red snapper, namely management of the recreational fishery, as it 
continues to face challenges due to inadequate data and an inflexible, 
unresponsive management framework. H.R. 3094 would address these 
challenges. Along with our colleagues in Texas, Mississippi, Alabama, 
and Florida, the Louisiana Department of Wildlife and Fisheries (LDWF) 
is confident the five Gulf states have the necessary tools to provide 
the data needed to better manage Gulf red snapper fisheries. We are 
able to be more receptive and responsive to the wants and needs of all 
of our constituents while still addressing Gulf-wide conservation 
goals.
    There are several misconceptions about the intentions and impacts 
of H.R. 3094 that I would like to address. First of all, H.R. 3094 is 
by no means an attempt to change or eliminate the commercial red 
snapper fishery in the Gulf in favor of the recreational fishery. 
Again, both commercial and recreational fisheries are vital to the 
Gulf's economy and way of life. Together, the Gulf states' commercial 
fisheries are the 2nd largest and 2nd most valuable fisheries in the 
United States after Alaska, producing nearly 1.4 billion pounds and 
$746 million of seafood and supporting more than 75,000 jobs in 2012. 
Of this, Louisiana accounts for nearly 1 billion pounds and $300 
million of seafood. Our commercial fisheries are the 2nd largest and 
4th most valuable in the United States and support more than 30,000 
jobs. More than 3 million recreational fishermen fish in the Gulf every 
year, providing a multi-billion dollar economic impact. In Louisiana 
alone, close to 900,000 recreational fishermen fish our waters, with a 
couple billion dollar economic impact. (All data is NOAA Fisheries 2012 
data, the most recent year for which both landings and economic data 
are available.)
    The primary purpose of H.R. 3094 is to fix how the recreational red 
snapper fishery is managed. The current ``one-size-fits-all'' 
management approach works fairly well for the commercial fishery but is 
impractical for the diverse recreational fishery. The goal of H.R. 3094 
is to ensure fair and equitable access to the red snapper resource and 
create a management system that is responsive to all stakeholders, both 
commercial and recreational. H.R. 3094 would improve access for the 
recreational fishery while preserving a viable commercial fishery. In 
fact, H.R. 3094 locks in the current commercial management system, 
leaves the commercial quota unchanged for at least 3 years, and 
requires the Gulf of Mexico Fishery Management Council (Gulf Council) 
to approve any significant reduction to the commercial quota 
thereafter.
    The state-based management of Federal species proposed by H.R. 3094 
is not unprecedented under the Magnuson-Stevens Fishery Conservation 
and Management Act (MSA). Similar management structures have already 
been implemented to varying degrees in fisheries from the East Coast to 
Alaska. H.R. 3094 would require the Gulf states' fishery management 
plans to be as consistent with the MSA's standards and requirements as 
possible. In fact, H.R. 3094 has the same goals as Federal management, 
but the means to reach those goals recognize that one size does not fit 
all. There are regional differences both in populations of snapper and 
in fisheries (local tradition, practice, etc.). H.R. 3094 would allow 
the Gulf states the flexibility to manage the fisheries in their waters 
in different ways, which is impossible under the current management 
system.
    H.R. 3094 would ensure accountability in the recreational red 
snapper fishery. In the past, recreational fishermen have exceeded 
their fishing quotas despite following seasons and other regulations 
designed to prevent overfishing. Quota overages are due to failure of 
recreational data collection and inflexible fishery management. H.R. 
3094 would address these issues. Among other things, H.R. 3094 calls 
for more precise and timely recreational data collection, five 
independent and ongoing evaluations of the fishery every year (rather 
than treating red snapper as one stock, fished one way), quotas based 
on stock assessments, and accountability measures to ensure states 
respond immediately to overfishing (for example, closing the fishery in 
a non-compliant state).
    The Gulf states have already taken action to improve recreational 
data collection and are using better data to inform management, and 
anglers have supported these efforts. In Louisiana, anglers supported a 
license fee increase to fund a new and improved recreational landings 
data collection program (LA Creel). Near-real-time data from LA Creel 
has allowed Louisiana to extend the state's recreational red snapper 
season by hundreds of days and still not exceed fishing quotas, 
creating a win-win situation for all--an accountable fishery, flexible 
and responsible management of seasons, and increased fishing 
opportunities.
    Moving management from the Gulf Council's 17 members to the five 
state directors would make managers more accessible and management more 
efficient. Through H.R. 3094, fishermen and other stakeholders would 
have a major role in developing specific management strategies through 
each state's existing legislative and regulatory processes, commission 
meetings, various committees and task forces, public outreach meetings, 
and surveys. H.R. 3094 would make it easier for the public to 
participate in the management process through more local and more 
convenient outlets. In addition, state managers can be more responsive 
to the needs of the resource and the users of the resource. The Gulf 
Council only meets five times a year and must work through an extremely 
slow Federal management process. In Louisiana, our Wildlife and 
Fisheries Commission meets once a month; the Secretary of LDWF is able 
to enact emergency management measures within 72 hours.
    States should be allowed to manage the fisheries off their coast in 
a manner that best benefits the fishery and their state's fishermen, 
and the Gulf states are fully capable of doing so. H.R. 3094 
acknowledges the Gulf states' abilities to responsibly manage this 
important fishery. The Gulf states already are responsible for numerous 
major commercial and recreational fisheries and have proven themselves 
effective stewards of both state- and federally-managed species. We 
cooperatively share management for several species with other states 
and meet regularly through the Gulf States Marine Fisheries Commission 
to discuss issues and standardize data. We have a long track record of 
no overfished stocks and no overfishing, including several species such 
as black drum, catfish, sheepshead, and spotted seatrout which all 
support major commercial and recreational fisheries.
    In closing, we would like Congress to consider our concerns and 
support this viable alternative to the current management framework, 
removing red snapper from Federal authority and placing responsibility 
for this valuable species in the capable hands of the Gulf states' 
marine fisheries authorities. We have mutually agreed upon and 
unanimously support H.R. 3094.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Barham.
    The Chair now recognizes Mr. Alan Risenhoover, Director of 
the Office of Sustainable Fisheries at NOAA, to testify. You 
have 5 minutes, sir.

STATEMENT OF ALAN RISENHOOVER, DIRECTOR, OFFICE OF SUSTAINABLE 
   FISHERIES, NOAA NATIONAL MARINE FISHERIES SERVICE, SILVER 
                        SPRING, MARYLAND

    Mr. Risenhoover. Good afternoon, Chairman Fleming, Ranking 
Member Huffman, and members of the subcommittee.
    Dr. Fleming. I think we have the same problem with the 
microphone. Make sure--very good.
    Mr. Risenhoover. My name is Alan Risenhoover, and I am the 
Director of NOAA Fisheries Office of Sustainable Fisheries.
    The Administration does not have an official position on 
H.R. 3094. I do want to talk about some of the underlying 
issues, potential solutions, and how NOAA Fisheries and the 
Gulf Councils are working with the states to improve red 
snapper management.
    The health of the Gulf of Mexico red snapper fishery has 
been a concern for decades. The first rebuilding plan, 
established in 1990, set a date of ending overfishing by 2010 
and rebuilding the population by 2032. Assessment results in 
2009, 2013, and 2015 confirmed that we have ended overfishing, 
but the stock remains overfished.
    Many fishermen echoed the assessment findings, saying they 
are seeing more and larger red snapper. Data indicates that 
catches are increasing both closer to shore and along the west 
coast of Florida, and as far south as the Florida Keys.
    As a result of this success, the 2015 quota was set at a 
historically high level of 14.3 million pounds--over 3 million 
pounds higher than the 2014 quota. The red snapper biomass is 
estimated at 60 million metric tons, more than half of the 
final rebuilding target.
    While these are significant improvements, rebuilding is not 
yet complete. It is critically important that we rebuild the 
older age classes because they produce more eggs and spawn more 
frequently than younger fish. Even though fishermen, state and 
Federal fishery managers, and scientists all agree that the 
population is making a remarkable recovery, there is also 
widespread agreement that there are real challenges ensuring 
that the rebuilding benefits are fairly and equitably 
distributed among all user groups.
    The commercial sector is managed through a successful 
individual fishing quota program. The average ex-vessel value 
of those fish are 44 percent higher than when that program 
began. Red snapper are now harvested year-round in the Gulf.
    However, higher catch rates, larger fish, and longer state 
seasons are causing the recreational sector to reach its catch 
limits more quickly. As a result, higher quotas have not 
increased fishing days for both private anglers and the for-
hire fleet in Federal water. Because of these short seasons, 
the Gulf Council is considering options to provide the states 
and the recreational community greater flexibility, while still 
meeting Gulf-wide conservation goals.
    The Council recently approved an amendment which, if 
implemented, will also increase the portion of the quota 
allocated to the recreational sector from 49 percent upwards to 
51.5 percent. All Gulf states have expressed support for 
regional management, but they have had some difficulty coming 
to an agreement on a fair and equitable methodology for 
allocating the recreational quota among the states. As a 
result, the Council has not yet finalized a management 
strategy.
    Recently, though, the Council did identify a state-specific 
methodology which divides the quota among the states. The 
Council is currently taking comment on that through a series of 
nine public hearings throughout the Gulf. While NOAA Fisheries 
has not taken a final position on the Council's proposal, we 
support regional management in concept as a way to resolve 
current challenges. It would stabilize the recreational sector.
    We believe the best way to develop an effective regional 
management strategy that withstands the tests of time and is 
adaptive is through the Council process. The Magnuson-Stevens 
Act established a robust process to ensure fishery management 
decisions are developed from the bottom up, are stakeholder-
based, transparent, and consistent with all applicable law.
    We must also continue our work with the states to develop 
data collection methods that we all agree are appropriate and 
produce reliable data. Pilot studies are ongoing in several 
states at this time, and our goal remains a standardized 
approach and one set of future catch estimates.
    In conclusion, we have made great progress in rebuilding 
the Gulf of Mexico red snapper population. We must now work to 
ensure that all aspects of the fishery are able to meet the 
needs and demands of both current and future generations.
    Thank you for the opportunity to testify today. I am 
available to answer any questions.
    [The prepared statement of Mr. Risenhoover follows:]
Prepared Statement of Alan Risenhoover, Director, Office of Sustainable 
  Fisheries, National Marine Fisheries Service, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce
                              introduction
    Good morning Chairman and members of the subcommittee. I appreciate 
the opportunity to speak with you today about red snapper management in 
the Gulf of Mexico. My name is Alan Risenhoover and I am the director 
of the Office of Sustainable Fisheries at the National Marine Fisheries 
Service (NMFS) within the National Oceanic and Atmospheric 
Administration (NOAA) of the U.S. Department of Commerce (DOC). From 
daily weather forecasts, severe storm warnings, and climate monitoring 
to fishery management, coastal restoration, and supporting marine 
commerce, NOAA's products and services support economic vitality and 
affect more than one-third of America's gross domestic product. NOAA's 
dedicated scientists use cutting-edge research and high-tech 
instrumentation to provide citizens, planners, emergency managers, and 
other decisionmakers with reliable information they need when they need 
it.
    Today, I will describe the current status of red snapper in the 
Gulf of Mexico and the benefits fishermen and fishing communities are 
realizing from rebuilding efforts, as well as the ongoing challenges we 
face in ensuring those benefits are equitably distributed between all 
user groups. Also, I will describe the status of the Gulf of Mexico 
Fishery Management Council's (Gulf Council) work to develop a regional 
management strategy for the recreational sector and NMFS' views on the 
hallmarks of a successful regional management strategy.
                      historical population trends
    Fishermen have harvested red snapper from the Gulf of Mexico since 
the mid-1800s, more than a century before the first Federal fishery 
management measures were established in 1984. Currently, this species 
is one of the most popular and studied in the Gulf of Mexico, and NMFS 
has conducted 10 population assessments since the late 1980s. The first 
assessment, conducted in 1988, concluded the population was overfished 
and undergoing overfishing, meaning there were too few fish in the 
water to maximize catches over the long term and fish continued to be 
removed from the population at too high a rate. Six assessments 
conducted in the 1990s confirmed that conclusion, suggesting 
conservation measures such as minimum size limits, commercial trip 
limits, and daily recreational bag limits implemented to end 
overfishing and rebuild the population, as required by the Magnuson-
Stevens Fishery Conservation and Management Act (Magnuson-Stevens Act; 
P.L. 94-265) were not sufficient. A congressionally-mandated 
independent peer review of the scientific and management basis for red 
snapper management, completed in 1997, also echoed these findings.
                      status of rebuilding efforts
    The Gulf Council implemented the first red snapper rebuilding plan 
in 1990, but has modified the rebuilding schedule and goals several 
times in response to new scientific information. A rebuilding plan is a 
strategy used to manage catch levels over a specified time period so 
that an overfished population can increase in size to a target level.
    The current red snapper rebuilding plan was designed to phase out 
overfishing between 2009 and 2010 and rebuild the population by 2032. 
The time frame to rebuild overfished populations varies depending on 
the status and biology of the overfished species. The red snapper 
rebuilding schedule is lengthy because red snapper is a long-lived 
species, reaching more than 50 years of age, and was severely 
overfished for many decades.
    Substantial changes to the plan, as implemented in 2007, were 
informed by a 2005 population assessment and followed a court ruling on 
a lawsuit filed by the Coastal Conservation Association, Ocean 
Conservancy, and Gulf Restoration Network. The court found previous 
rebuilding measures to be insufficient to rebuild the population on 
schedule. These changes reduced the combined (commercial and 
recreational) red snapper catch limit by 45 percent from 9.12 million 
pounds to 5.0 million pounds; reduced the recreational bag limit from 
four to two fish to slow the rate of catch; reduced the commercial 
minimum size limit from 15 inches total length to 13 inches total 
length to reduce regulatory discards in that fishery; and specified a 
maximum level for shrimp fishing effort which, if exceeded, would 
trigger area closures to minimize the incidental take of red snapper in 
shrimp trawls.
    Also in 2007, the commercial red snapper sector moved to an 
individual fishing quota program (IFQ), which allocates participating 
fishermen a percentage of the commercial annual catch limit based on 
their landings history. The IFQ program is intended and has been 
demonstrated to better align the capacity of the fleet with the 
commercial catch limit, to mitigate short fishing seasons, improve 
safety at sea and increase the profitability of the commercial red 
snapper sector. Participation in the commercial red snapper fishery, 
measured by the number of accounts holding red snapper IFQ shares at 
the end of 2014, has declined by about 32 percent since the program was 
implemented. However, the average ex-vessel price of red snapper in 
2014 was 44 percent higher than the price prior to instituting the IFQ 
(inflation adjusted, 2002-2006). Also, IFQ participants are now 
targeting red snapper year round, and the fishery is reportedly safer 
than it used to be when fishermen were required to compete for the 
catch during very limited season openings.
    There is clear evidence the rebuilding measures implemented in 2007 
are paying off. The 2009 assessment update, 2013 assessment, and 2015 
assessment update all confirm we ended overfishing and there are more 
red snapper in the Gulf of Mexico today than in decades. According to 
the 2015 assessment update, the total biomass of the population has 
more than doubled in the last 5 years. The biomass of the Gulf of 
Mexico red snapper population is estimated to have reached 60 million 
metric tons in 2014, which is more than half of the rebuilding target 
(Figure 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 1. Historical and Projected Trends in Gulf of Mexico Red 
                            Snapper Biomass

    Many Gulf of Mexico fishermen echo the assessment findings, saying 
they are seeing more and larger red snapper than they have seen in 
their lifetime. The 2015 recreational red snapper quota was set at the 
highest level in the history of managing the red snapper fishery (30 
percent greater than the next highest quota level on record). As the 
population rebuilds, fish are getting larger with each fish weighing 
more than twice as much as before. Also, fishermen on the west coast of 
Florida now have new opportunities to target this popular species as 
the population expands back to its historic range. After decades of 
overfishing, the population was concentrated in offshore waters of the 
northern Gulf of Mexico. Now, catch data indicate red snapper landings 
are increasing both closer to shore and along the west coast of 
Florida, with some fishermen reporting landings as far south as the 
Florida Keys.
    Despite these remarkable improvements, the current assessment 
indicates rebuilding is not yet complete because the overall biomass 
and reproductive potential of the red snapper population have not yet 
reached the rebuilding target. Management measures and strong year-
classes of young fish entering the fishery in recent years have 
significantly improved the status of the population. However, because 
red snapper are long-lived, it takes a long time to rebuild the older 
age classes in the population. These older fish are important because 
they produce more eggs and spawn more frequently than younger fish.
                         management challenges
    While fishermen, fishery managers and scientists all agree the red 
snapper population is making a remarkable recovery, there is also 
widespread agreement there are real challenges in the fishery in terms 
of ensuring rebuilding benefits are fairly and equitably distributed 
among all user groups.
    NMFS has increased the combined (commercial and recreational) catch 
limit from 5 million pounds to 14.3 million pounds since overfishing 
ended in 2009 and the 2015 catch limit was set at the highest level 
ever specified for this fishery. The commercial sector is flourishing 
at that limit under the IFQ program. Unfortunately, the recreational 
sector is not sharing the same benefits of stock recovery under the 
current management regime.
    Higher catch rates and larger fish, while improving recreational 
fishing experiences and opportunities, are causing the recreational 
sector to reach its catch limit much more quickly. As a result, higher 
catch limits have not translated into increased fishing days for 
recreational fishermen. The recreational red snapper catch limit 
increased by 120 percent from 2008-2014 compared to a 623 percent 
increase in recreational landings per day during that same time period. 
As a result, the recreational season has been progressively shortened 
to prevent catch limit overages, in compliance with the Magnuson-
Stevens Act.
    Recreational fishermen are understandably frustrated by this trend, 
which has been exacerbated by state jurisdictional and regulatory 
inconsistencies. The Federal recreational fishing season length is 
further reduced when Gulf Coast states implement less restrictive red 
snapper regulations in state waters because catches from both state and 
Federal waters must be counted against the catch limit. Such state 
actions also create inequities because not all fishermen benefit 
equally from less restrictive state water regulations.
    In response, the Gulf Council set the 2014 and 2015 recreational 
red snapper catch targets 20 percent below the limit to reduce the 
likelihood of an overage in those years. This action, along with 
extended state-water fishing seasons and the impacts of litigation in 
2014 over recreational harvests, effectively reduced the 2014 and 2015 
Federal recreational red snapper fishing seasons for anglers fishing 
from private vessels to 9 days and 10 days, respectively. Recreational 
catches in 2014 were below the quota for the first time in many years, 
and preliminary data indicate catches will be below the quota again 
this year.
                           management options
    Last year, the Gulf Council approved a new fishery management plan 
amendment which enables them to manage the private and federally-
permitted for-hire components of the recreational red snapper sector 
for different objectives for a 3-year period. For-hire fishermen are 
working with the Gulf Council to explore new tools to increase their 
catch accounting, stabilize their business operations, and improve 
their economic viability. However, developing solutions for the open 
access, private angler component of the recreational sector is more 
challenging and will require a broad shared vision of expectations and 
needs.
    The Gulf Council is actively working through its state agency 
representatives, fishermen and other stakeholders to identify shared 
goals and develop management options that more equitably distribute 
rebuilding benefits. The Council recently approved a new fishery 
management plan amendment which, if implemented, will increase the 
portion of the red snapper quota allocated to the recreational sector 
from 49 percent to 51.5 percent. Also, the Council continues to develop 
a regional management strategy, which would provide the states greater 
flexibility to tailor recreational red snapper management to local 
needs and objectives while meeting Gulf-wide conservation goals.
    All Gulf Coast states have expressed some form of support for a 
regional management strategy, but have had some difficulty coming to 
agreement on a fair and equitable methodology for allocating the 
recreational red snapper quota among the states and on whether and how 
to incorporate the for-hire sector into a regional management program. 
As a result, the Gulf Council has not yet finalized a specific regional 
management strategy for review and implementation by the Secretary of 
Commerce. However, the Gulf Council has identified a preliminary 
preferred state-specific allocation methodology, which divides the 
recreational red snapper quota among the states based on landings 
trends over a long time series and in recent years, giving equal weight 
to each. The Council has scheduled a series of public hearings 
throughout the Gulf of Mexico on the current proposed strategy in 
October and November 2015. NMFS is committed to continuing to support 
the Gulf Council's efforts to finalize this plan over the next year.
    NMFS supports regional management in concept as a way to resolve 
the current challenges created by inconsistent state jurisdictions and 
regulations, stabilize the recreational sector, and better manage the 
expectations of for-hire fishermen and private anglers. Interstate 
management challenges are not unique to the Gulf of Mexico. In fact, 
they are present in every region where major fisheries span multiple 
state jurisdictions. Such challenges have been addressed in different 
regions in different ways; for example, through legislation authorizing 
the Atlantic States Marine Fisheries Commission as a coordinating body 
on the U.S. East Coast. While there are any number of models that may 
work, each requires the collective involvement and support of the 
states, and full accountability to comply with agreed upon management 
strategies.

    NMFS believes the hallmarks of a successful regional management 
strategy for red snapper include:

    <bullet> Fair and equitable allocations among all of the states and 
            user groups;

    <bullet> Measures reasonably calculated to promote conservation;

    <bullet> Sound, science-based decisionmaking that accounts for all 
            sources of fishing mortality, recognizing that limiting 
            shrimp trawl bycatch of red snapper is a critical component 
            of the red snapper rebuilding plan;

    <bullet> Coordinated data collection systems, which provide 
            consistent, reliable data; and

    <bullet> Catch accountability, including mechanisms to prevent and 
            respond to quota overages.

      h.r. 3094--gulf states red snapper management authority act
    H.R. 3094 contains a provision similar to Section 13(f) of H.R. 
1335, the Strengthening Fishing Communities and Increasing Flexibility 
in Fisheries Management Act. The Administration, in its Statement of 
Administration Policy dated May 19, 2015, objected to Section 13(f)--
State Fisheries Management in the Gulf of Mexico with respect to red 
snapper. Section 13(f) would severely undermine the authority of the 
Gulf Council by extending Louisiana, Mississippi and Alabama state 
jurisdiction over the recreational red snapper fishery to 9 miles in 
the Gulf of Mexico. NMFS does not support extending state management 
out to 9 miles. Extending the jurisdictions of those states would 
increase the proportion of the total recreational red snapper catch 
taken under state management and could substantially reduce or even 
eliminate the Federal recreational red snapper season in those years 
when states implemented less restrictive regulations in state waters. 
Such action could lead to overfishing, compromising the industry's hard 
earned conservation achievements, and potentially require NMFS to 
reduce the commercial quota to ensure the long-term sustainability of 
this Gulf-wide resource.
    NMFS supports regional management as a way to resolve the current 
challenges faced by the Gulf states and the red snapper fishery. But we 
continue to believe the best way to develop an effective regional 
management strategy that withstands the test of time is through the 
Council process. The Magnuson-Stevens Act established that process to 
ensure fishery management decisions are developed from the bottom up, 
stakeholder-based, transparent, and consistent with all applicable law. 
We believe it is a good process for working through the types of 
difficult decisions that regional management requires.
                               conclusion
    We have made great progress toward rebuilding the Gulf of Mexico 
red snapper population. But this progress has not come easily, nor will 
it be sustained without continued attention. This is a critical time in 
the history of red snapper management, and we must ensure the fishery 
is able to meet the needs of both current and future generations. We 
must continue the achievements we have gained in the commercial fishery 
while improving stability, accountability, and predictability in the 
recreational fishery.
    We must not lose sight of the fact that the current management 
challenges are a function of success. The red snapper population is 
rebuilding and that is a good thing. Now we need to make some reasoned, 
thoughtful decisions about how to best distribute the hard-earned 
benefits provided by this growing population.
    Gulf of Mexico fishermen and fishing communities sacrificed a great 
deal to get us here. It is critical that all involved remain engaged 
and work together to find a way forward in the cooperative spirit that 
the regional fishery management council process promotes.
    Thank you again for the opportunity to discuss Gulf of Mexico red 
snapper management. I am available to answer any questions you may 
have.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Risenhoover.
    Next the Chair recognizes Mr. Nick Wiley, Executive 
Director of the Florida Fish and Wildlife Conservation 
Commission for 5 minutes. Be sure that you are close to the 
microphone.

 STATEMENT OF NICK WILEY, EXECUTIVE DIRECTOR, FLORIDA FISH AND 
     WILDLIFE CONSERVATION COMMISSION, TALLAHASSEE, FLORIDA

    Mr. Wiley. Yes, sir. Thank you, Chairman Fleming, Ranking 
Member Huffman, and members of this subcommittee. I appreciate 
the invitation to testify, and we do support this legislation.
    Red snapper is an iconic fishery in the Gulf of Mexico. 
However, red snapper management has been increasingly fraught 
with uncertainty and controversy. Seasons have gotten shorter, 
despite continued rebuilding success and higher quotas. In 
2007, the recreational season was open for 194 days. This year 
the Federal recreational harvest season was open only 10 days 
for private anglers, and 44 days for federally-permitted for-
hire vessels.
    This is a highly divisive and unacceptable situation that 
short-changes private anglers in Federal waters and for-hire 
vessels in state waters. It forces states to provide longer 
seasons in state waters to compensate. It is clear our red 
snapper management system needs major changes to better balance 
management flexibility with strong conservation measures.
    The Gulf Red Snapper Act would do precisely this by 
transferring management authority to the Gulf states and 
providing a robust framework for continuing the rebuilding of 
red snapper stocks, while providing more acceptable access to 
red snapper fishing.
    The Gulf states are well qualified to manage red snapper 
because they have a track record of successful conservation and 
management of state fisheries. In Florida, nearly all stocks 
managed by my agency, FWC, are meeting or exceeding management 
goals. Fisheries, like spotted sea trout, red drum, and snook, 
have been rebuilt under state management and are thriving. Most 
of Florida's most valuable commercial fisheries, like spiny 
lobster, stone crab, and blue crab, are managed exclusively by 
the state, or with the state in a leading role.
    FWC has an excellent track record for providing science-
informed, sustainable access to a wide diversity of fishing 
opportunities. Our Fish and Wildlife Research Institute 
conducts fisheries research, stock assessments for state- and 
federally-managed species, and is considered a national leader 
in marine fishery science.
    FWC also effectively enforces fishery regulations in state 
and Federal waters, and would continue to do so for red snapper 
under state management.
    The Gulf Red Snapper Act offers major improvements over the 
current management process.
    First, it provides a way to tailor red snapper regulations 
to local needs. Management that works for fishermen in Florida 
does not always work for other states. Even within Florida, the 
needs of anglers in Naples differs from the needs of anglers in 
Pensacola. The Gulf Red Snapper Act would provide much-needed 
flexibility for states to meet varying stakeholder interests 
within each state, while continuing to improve the fishery.
    The Gulf Red Snapper Act also increases opportunities for 
stakeholders to engage in the fishery management process. 
Sometimes the Council meeting can be 1,000 miles away from 
Florida. With this program, states will be taking the lead, and 
the people can come and testify at local meetings, directly to 
their state commissions. FWC's rulemaking process also is 
nimble enough to respond quickly to the needs of fishermen and 
resource changes. This approach could continue under this Act. 
In contrast, the current Federal process can take years to make 
necessary changes that balance rebuilding with fishing access.
    The Gulf Red Snapper Act would provide oversight to ensure 
that each state is accountable, adequately monitoring their 
landings, and achieving conservation. All five Gulf states now 
have programs to collect more accurate and timely data from 
anglers who fish for red snapper.
    Florida's program is called the Gulf Reef Fish Survey, and 
was developed largely at the request of fishermen who 
understand that more precise and timely science allows for 
better management decisions and optimization of fishing access. 
These state-run programs have great promise for improving 
recreational red snapper data collection and management under 
this Act.
    FWC is committed to ensuring fair access to red snapper for 
all fishermen. Commercial red snapper management through the 
IFQ program is highly accountable and successful. FWC is 
willing to provide strong assurances that this program will 
continue, and we will work closely with our commercial fishing 
industry, so they can continue to provide a generous supply of 
fresh Florida red snapper to our residents and visitors.
    Similarly, FWC will continue to support Florida's for-hire 
industry, and recognizes their critical contribution to 
Florida's coastal communities, culture, and tourism economy.
    In conclusion, I am confident the Gulf red snapper can be 
successfully managed through this legislation. It provides 
flexibility the states need to create solutions that work for 
anglers, commercial fishermen, for-hire businesses, and local 
communities.
    Mr. Chairman, committee members, this concludes my 
testimony, and I really appreciate this opportunity to provide 
FWC's perspective. Thank you.
    [The prepared statement of Mr. Wiley follows:]
Prepared Statement of Nick Wiley, Executive Director, Florida Fish and 
                 Wildlife Conservation Commission (FWC)
    Chairman Bishop, Ranking Member Grijalva, Chairman Fleming, Ranking 
Member Huffman, and members of the Subcommittee on Water, Power and 
Oceans of the Committee on Natural Resources of the U.S. House of 
Representatives, my name is Nick Wiley, and I am the Executive Director 
of the Florida Fish and Wildlife Conservation Commission. Thank you for 
the invitation to provide testimony at this important oversight hearing 
examining H.R. 3094, the ``Gulf States Red Snapper Management Authority 
Act (Gulf Red Snapper Act).''
    The Florida Fish and Wildlife Conservation Commission (Commission) 
is responsible for managing fish and wildlife resources for the state 
of Florida. The Florida Constitution authorizes the Commission to enact 
regulations regarding the state's fish and wildlife resources. This is 
done by seven Commissioners who are appointed by the Governor and 
confirmed by the Florida Senate. The agency's mission is managing fish 
and wildlife resources for their long-term well-being and the benefit 
of people. On behalf of the Commission, I am pleased to support H.R. 
3094. The Commission believes the Gulf Red Snapper Act is a step in the 
right direction for red snapper management.
    Red snapper is an iconic species in the Gulf of Mexico. It is a 
prized catch for recreational anglers and enjoyed at dinner tables 
around the Nation thanks to commercial fishermen. Although red snapper 
is considered to be overfished, recent stock assessments have shown the 
species to be rebuilding ahead of schedule. This year's quota is higher 
than ever at 14.3 million pounds.
    Despite this rebuilding success, management of red snapper has been 
increasingly fraught with uncertainty and controversy, particularly for 
private recreational anglers. Anglers have faced shorter and shorter 
seasons despite increases in the overall quota. In 2007, the 
recreational season was open for 194 days. This year, the Federal 
recreational harvest season was 10 days for private anglers and 44 days 
for federally-permitted for-hire vessels. The decrease in season days 
is due in large part to the success of the rebuilding plan for red 
snapper: as the fishery has improved, red snapper have become larger, 
more abundant, and easier to catch, which has caused the recreational 
quota to be caught faster and seasons to grow shorter. In 2015, sector 
separation was enacted in the Gulf of Mexico red snapper fishery, 
dividing the recreational quota into a federally-permitted for-hire 
component and a private angler component. While sector separation has 
more than quadrupled the number of fishing days available to federally-
permitted for-hire vessels and their customers, private anglers fishing 
in Federal waters have seemingly been left behind. In 2014 and 2015, 
all five Gulf states held longer recreational red snapper seasons in 
their state waters to provide harvest opportunities for private 
anglers. While this inconsistency in regulations by the states resulted 
in the Federal season being shorter by 2-5 days in 2015, the economic 
and social benefits these seasons provided anglers and local 
communities is undeniable. Despite the inconsistency between state and 
Federal seasons over the last 2 years, the recreational sector has kept 
harvest within their annual catch limit.
    It is clear that big changes are needed to red snapper management 
that provide flexibility while continuing conservation. The Gulf Red 
Snapper Act provides the Gulf states with the opportunity to transform 
management of Gulf red snapper for the benefit of all who enjoy this 
treasured resource. This bill proposes to allow the Gulf states to 
manage the red snapper fishery off their coasts through a collaborative 
body known as the Gulf States Red Snapper Management Authority (Gulf 
States Management Authority). The Commission believes this will benefit 
Gulf coastal communities and the red snapper stock as a whole.
             why state management can work for red snapper
    In short, the Gulf states are well-positioned and qualified to 
manage red snapper because they have a track record of successful 
conservation and management of state fisheries. In Florida, nearly all 
stocks that are managed by the Commission are meeting or exceeding 
management goals. State management in Florida rebuilt fisheries like 
spotted sea trout, red drum, and snook. Successful management of these 
fisheries continues today and is enjoyed by residents and anglers who 
come from around the globe to visit the Fishing Capital of the World. 
Many also enjoy the success of state-managed fisheries through ready 
access to fresh Florida seafood in restaurants and markets around the 
state and Nation. Most of Florida's most valuable commercial fisheries 
like spiny lobster, stone crab, and blue crab are managed exclusively 
by the state, or with the state taking the leading role in management. 
The other Gulf states have enjoyed similar successes with their state-
managed fisheries.
    The Commission strives to maintain access and fishing opportunities 
while setting regulations to ensure sustainability of our marine 
fisheries resources. The Commission uses science-informed management 
and values collaboration with our stakeholders. This allows for 
management that balances the needs of the resource with the needs of 
Florida's fishermen, coastal communities, and all who enjoy Florida's 
rich marine resources.
    The Commission's Fish and Wildlife Research Institute (FWRI) 
conducts fisheries research and stock assessments and is considered a 
national leader in marine fisheries science. FWRI not only regularly 
assesses state-managed species, but also conducts stock assessments for 
Florida-centric species that are both state- and federally-managed, 
like yellowtail snapper, mutton snapper, and black grouper. Our 
scientists, like many from the other Gulf states, also serve as experts 
on Science and Statistical Committees that provide valuable scientific 
advice to the Gulf of Mexico and South Atlantic Fishery Management 
Councils.
    From a law enforcement perspective, state management of the red 
snapper fishery would not change anything. The Commission's Division of 
Law Enforcement already enforces regulations in both state and Federal 
waters and would continue to do this for red snapper and other state- 
and federally-managed species.
 the gulf red snapper act provides a unique opportunity for improvement
    The Gulf Red Snapper Act provides several improvements over the 
current management process. First, it provides a means to tailor red 
snapper regulations to the needs of the states and local communities. 
In many fisheries, particularly with red snapper, management that works 
for fishermen in Florida does not always work for fishermen in other 
states. This is due to a multitude of reasons including varying 
habitats, water depth, weather conditions, and tourist seasons. The 
Gulf Red Snapper Act would provide states the flexibility to set 
regulations that work for their anglers, commercial fishermen, for-hire 
vessels, and tourists. Even within Florida, the desires and needs of 
Gulf coastal communities vary. In many cases, what works for Panhandle 
communities like Pensacola is not ideal for areas of southwest Florida, 
like Naples. This legislation would provide Florida and the other Gulf 
states the opportunity to manage their state, or sub-regions within 
their state, to meet varying stakeholder needs while continuing to 
improve the red snapper fishery. Commission staff have heard from 
fishermen all along the Florida Gulf coast who feel that more local 
control of red snapper regulations is needed.
    Management through the Gulf Red Snapper Act also provides 
stakeholders with more opportunities to provide input to fishery 
managers. This helps promote stakeholder buy-in for red snapper fishery 
management decisions. In the current process, management decisions that 
affect Tampa-area fishermen may be made in a Gulf of Mexico Fishery 
Management Council (Council) meeting 1,000 miles away in Galveston. 
Council meetings are typically 4 to 5 days long, with public input and 
management decisions typically being made on different days. The time 
and cost associated with these meetings makes attendance difficult for 
many fishermen. With states taking the lead on managing the red snapper 
fishery, important management decisions would be made at local meetings 
in the states and communities that are affected by them. In Florida, 
stakeholders could attend a Commission meeting in their area and speak 
directly to Commissioners about management and what they see happening 
on the water. Commissioners listen to public testimony on issues as 
they are deliberating and formulating decisions. This allows 
stakeholders to easily observe the Commission's public rulemaking 
process and can help stakeholders provide direct feedback on Commission 
discussions as they occur.
    Additionally, the Commission's rulemaking process is nimble enough 
to respond to the needs of fishermen and the resource quickly. In the 
current Federal process, it can take years to make necessary changes 
that balance rebuilding with fishing access. In Florida, such changes 
could be accomplished in a fraction of the time, with several 
opportunities for public input. Under the Gulf Red Snapper Act, once 
states have decided on their plans for managing red snapper, the five 
Gulf state directors would come together to review each state's plan to 
ensure they promote the long-term health and sustainability of the red 
snapper fishery and are consistent with section 303(a) of the Magnuson-
Stevens Fishery Conservation and Management Act. Plans would be 
reviewed for approval within 60 days. This timeline is relatively fast 
compared to the Council process and even the Council's proposal for 
regional management (Amendment 39).
    In turn, the Gulf Red Snapper Act would provide oversight to ensure 
that each state is accountable, adequately monitoring their landings, 
and promoting conservation. The states recognize that the current 
recreational data collection through the Marine Recreational 
Information Program (MRIP) does not track landings in a timely or 
precise enough manner to inform Gulf red snapper management decisions. 
As such, all five Gulf states have implemented data collection programs 
to collect more accurate and timely data from anglers who fish for red 
snapper and reef fish. These state-run data collection programs have 
great promise for improving recreational fisheries data collection and 
management under the Gulf Red Snapper Act. Florida's program is called 
the Gulf Reef Fish Survey and was developed largely at the request of 
Florida fishermen who understand that more precise and timely science 
allows for better management decisions and optimization of fishing 
access. The Gulf Reef Fish Survey improves upon the current MRIP 
program by: (1) defining the universe of anglers who fish for red 
snapper and other reef fish in the Gulf of Mexico off Florida; and (2) 
targeting these anglers for surveys about their fishing activity. In 
designing the Gulf Reef Fish Survey, Commission scientists consulted 
with NOAA Fisheries MRIP staff and other Gulf states to learn what is 
working in other states, and to ensure that data from the Gulf Reef 
Fish Survey: (1) is compatible with MRIP; (2) may eventually be used in 
stock assessments; and (3) is recognized by NOAA Fisheries as a valid 
tool for tracking recreational reef fish harvest. Of course, we will 
also continue to work with NOAA Fisheries on MRIP improvements and 
managing harvest data for recreational fishing as a whole in Florida.
    If a state fails to rebuild the red snapper fishery or otherwise 
fails to manage their red snapper fishery according to the requirements 
outlined in the Gulf Red Snapper Act and agreed upon by the states, 
then the Gulf States Management Authority can recommend that the 
Secretary of Commerce intervene and close Federal waters adjacent to 
that state. This provides a huge incentive to manage the red snapper 
fishery responsibly and use the best scientific information available 
so the fishery continues to rebuild, fisherman can still fish, and Gulf 
red snapper can be enjoyed on dinner tables.
    The Gulf States Red Snapper Act proposes to transfer management of 
the red snapper fishery as a whole to the Gulf states. Because of this, 
many commercial red snapper fishermen have expressed concerns about 
this bill and have questioned how transfer of management would affect 
the commercial fishery and the red snapper individual fishing quota 
(IFQ) program in the Gulf of Mexico. Over the first 3 years of 
management through this legislation, the states would work with the 
commercial fishery to ensure a seamless transition from Federal to 
state management. The Commission recognizes the importance of our 
state's commercial fisheries to Florida's cultural values, economy, and 
consumers. The Commission believes that the commercial red snapper IFQ 
program is a management success and has no intention of making any 
significant changes that would disrupt the commercial fishery or 
diminish the success of the IFQ program. Having access to fresh, 
Florida seafood like red snapper is important to the Commission, 
Floridians, and our visitors alike.
    Some federally-permitted for-hire fishermen have also expressed 
concerns about the Gulf Red Snapper Act, arguing that state management 
would jeopardize the non-boat owning public's access to red snapper. 
The Commission has steadfastly supported Florida's for-hire industry 
and recognizes their important contribution to Florida's coastal 
communities, culture, and economy. The strong for-hire fishing fleets 
in communities like Destin and Panama City provide so much public 
access to outstanding fishing and plays a big part in Florida's 
standing as the Fishing Capital of the World. The Commission is 
committed to ensuring fair access to red snapper for all fishermen.
                               conclusion
    I am confident that the Gulf red snapper fishery can be 
successfully managed by the Gulf states through the Gulf Red Snapper 
Act. The state of Florida looks forward to working with our 
stakeholders and the other four Gulf states on improving this fishery 
for the benefit of all. I am confident the states can use the 
flexibility in this legislation to find solutions that work for their 
anglers, commercial fishermen, for-hire businesses, and local 
communities.
    Chairman Bishop, Ranking Member Grijalva, Chairman Fleming, Ranking 
Member Huffman, and members of the Subcommittee on Water, Power and 
Oceans, this concludes my testimony. Thank you again for this 
opportunity to provide Florida's perspective. I would be happy to 
answer any questions.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Wiley. That completes the 
opening statements of our witnesses. We have a pretty good 
number on the dais today, and I think we will have very 
interesting questions. Therefore, I yield 5 minutes to myself 
for the first set of questions.
    Mr. Risenhoover, solve a paradox for me. I am having 
difficulty understanding this. I think I may know at least part 
of the reason for this. In the period where the fish stock has 
recovered--we are talking red snapper--the sizes are getting 
bigger, the numbers are getting bigger, the poundage allowed is 
getting larger, but yet we have seen a substantial reduction in 
the number of days for recreational fishermen. What has changed 
to make that occur?
    Mr. Risenhoover. Thank you, Mr. Chairman. A couple of 
things, or a couple comments on that.
    You are absolutely right. The stock is recovering. Fish are 
getting larger. The geographic area the fish are caught in is 
getting larger, as well. As you have heavier, more numerous 
fish in more areas, the access by fishermen to them is 
increasing. So again, catching larger fish increases the amount 
of fish that are counted against the tag.
    Additionally, state seasons affect what happens in Federal 
waters. Since the stock is managed on a Gulf-wide basis----
    Dr. Fleming. Limited in time. I would love to hear more, I 
really would, I just do not have time.
    Basically, what you are saying is more people are fishing. 
Is that accurate to say?
    Mr. Risenhoover. I think there are more people fishing, 
there are more fish, and the fish are more geographically 
dispersed.
    Dr. Fleming. OK. That all makes sense. Are you seeing any 
increase in one industry versus another? That is, commercial 
versus charter versus recreational?
    Mr. Risenhoover. Again, the quotas are set for each of 
those groups, so they fish toward that quota. The commercial 
quota is set separately. Through the IFQ Program, as some have 
mentioned, we have good statistics and good catch data on that.
    The charter fishery--chartering for-hire, managed 
separately, they have a slightly longer season in Federal 
waters, because there are fewer----
    Dr. Fleming. Well, again, I only have limited time. I would 
love to hear it all.
    So, where we see a sharp reduction is in the recreational 
side, would that suggest that we have had a sharp increase in 
recreational fishermen versus the other two sectors?
    Mr. Risenhoover. It does not indicate that there is a sharp 
increase, it is just that those larger fish, the same number 
caught, account for more. And with the state seasons being 
longer, that reduces the Federal water season, as well.
    Dr. Fleming. Sure, OK. It sounds like--it is partly more 
fishing, more accessible fishing, and also bigger fish. 
Obviously, if the fish are twice as big, that is going to cut 
in half the poundage that is allowed under the same limit. So I 
get that. OK.
    Also, back to you, Mr. Risenhoover, can you describe to me 
how NOAA currently estimates the number of fish caught by the 
recreational community?
    Mr. Risenhoover. Yes. We have a program called the Marine 
Recreational Information Program, MRIP--we have all heard of 
that--that does sample around the Gulf to get an estimate of 
the number of fish. Obviously, we cannot be at every dock. We 
are at most public docks at some periods of times, based on 
some statistical sampling, but not so much at private docks.
    Currently, we are trying to work very closely with the 
states and their programs, the LA Creel survey, the surveys 
that are conducted in Florida, as well as Alabama and 
Mississippi, to improve that information.
    Dr. Fleming. OK. So you are open to using other 
technologies that are being developed. But it is still kind of 
an indirect--you do not count every fish like you can with 
commercial, but you use some sort of indirect methodology, 
maybe sampling. You have people at docks, I suppose. And I 
think also--well, I will not get into that, because, again, my 
time is limited.
    How would the states counter-estimate the recreational 
catch under the state plan? Oh, I am sorry. Let me ask our 
state witnesses.
    Mr. Barham, under the state plan how would that be 
accomplished, as opposed to what NOAA does?
    Mr. Barham. Our monitoring through LA Creel, that is the 
program that we have put in place to monitor the fish, and we 
would continue that program. That program is so successful in 
Louisiana. We do a much better job. I think the Feds even 
recognize that. We are providing them the data, and they see 
that our program works so much better than their assessment, 
even in Louisiana.
    And, I would comment that the Feds have a cookie-cutter 
approach in that they are managing the Gulf, as a whole. The 
Gulf is not a whole. The fish off Louisiana are not going to 
show up off Florida tomorrow. These are geographically limited 
populations that need to be managed by the people that are 
there that should be managing them.
    Also, I did not mention that we have a document from all 
our directors, all of my comparables in Texas, Mississippi, 
Alabama, and Florida that support this program. They clearly 
recognize we can monitor the fish better than the Federal 
system.
    Dr. Fleming. I think all sides agree that we need better 
technology on tracking what the catches are.
    My time is up. I recognize the Ranking Member.
    Mr. Huffman. Thank you, Mr. Chair. Mr. Risenhoover, the 
statement we just heard that Louisiana fish are not related to 
populations in fishing rules that you might need to establish 
in Florida and other Gulfs states, is that true? Is that based 
on science? Do they really stay in Louisiana their whole lives?
    Mr. Risenhoover. Representative Huffman, I am not a 
scientist, so I cannot comment specifically on that. I do know 
that our science center and our scientists currently do manage 
on a Gulf-wide basis.
    Mr. Huffman. It has been suggested that NOAA Fisheries do 
not consider state science, including some of the science we 
have just heard about. Is that correct?
    Mr. Risenhoover. We consider science from all sectors--
states, academia, as well as the industry. And, as I mentioned 
earlier, we are trying to work very closely with our state 
partners through MRIP and their individual state programs to 
calibrate those programs to each other so, as everybody I think 
agrees, we can get better, more timely, more accurate data.
    Mr. Huffman. Would you speak a little more to what your 
agency is doing to access more and better state-of-the-art 
science so you can create the best possible decisions?
    Mr. Risenhoover. Through the MRIP Program we have begun, 
and we have several pilot programs going with each of the 
states to look at their data collection methods and, again, to 
calibrate those against our MRIP one. We have provided funding 
to the states to help them develop these pilot programs, as 
well as we have invested in additional sampling around the Gulf 
to, again, increase and get better data.
    Mr. Huffman. OK. Secretary Barham, you referenced a survey 
of charter boat fishermen in Louisiana. I just want to clarify. 
The question asked in that survey was only about the Federal 
Government transferring management for the recreational red 
snapper fishery. Correct?
    Mr. Barham. That is correct.
    Mr. Huffman. You did not ask whether the management of all 
sectors of the fishery would be appropriate under state 
authority. Right?
    Mr. Barham. No, I think you are correct.
    Mr. Huffman. OK. And again, that was only for Louisiana 
charter boat----
    Mr. Barham. Yes, sir.
    Mr. Huffman [continuing]. Folks that you asked that 
question. So I think that is an important point.
    Secretary Barham, there has been discussion about the West 
Coast Dungeness crab as a possible analog to what is being 
talked about here with Gulf red snapper. In that case, we had 
negotiations with all of the stakeholders that culminated in 
consensus. There were no remaining conflicts, everybody was on 
the same page. It took a long time to get there, and there had 
to be a demonstrated track record of successful Tri-State 
Commission management before Congress eventually allowed the 
permanent management under that approach.
    Would you be open to committing to a process that included 
everybody, all the stakeholders from all the states, to try to 
reach that same type of consensus, as opposed to this approach?
    Mr. Barham. Of course, I am open to that. It is successful 
when everybody is involved, and we want them involved. Our 
commercial industry, as I told you, is so important to our 
state. I want them to trust that we will do the best for them, 
absolutely.
    Mr. Huffman. OK. I want to just ask you and Mr. Wiley, as 
well, a question. After the last hearing we had on this issue, 
we asked each state to submit for the record an answer to a 
simple question: What is the fair percentage of the 
recreational red snapper quota that you would want for your 
state under a regional management scheme? We did not hear back 
from most of them. We heard back from one state, but we did not 
hear back from Louisiana or Florida.
    So, I just want to ask you here and now, since you are 
asking for state authority. What should the quota be for your 
state's recreational----
    Mr. Barham. Well, we took the quota that the Feds used to 
establish our state season, if you will, to be sure that we use 
their numbers, and we set our goal to match----
    Mr. Huffman. OK. But what is your answer to the question? 
What is a fair percentage for the recreational harvest in your 
state?
    Mr. Barham. I would not hazard a guess at this point.
    Mr. Huffman. Mr. Wiley, do you have an answer?
    Mr. Wiley. Yes, sir. We have been working closely with our 
colleagues, and we certainly have not come to agreement on what 
that good answer is. But right now, our preference would be to 
have a quota somewhere around what we have been harvesting the 
last 5 years on an annual basis, and that is somewhere between 
50 and 60 percent.
    Mr. Huffman. So you would not change much from where it 
currently is?
    Mr. Wiley. We are willing to talk about it and work on 
compromise. I am not saying we would not change.
    Mr. Huffman. All right.
    Mr. Wiley. You asked me for a number.
    Mr. Huffman. Thank you, Mr. Chairman.
    Dr. Fleming. The gentleman yields back. Mr. LaMalfa is 
recognized for 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Mr. Risenhoover, just one basic question here. We heard a 
lot of talk about using the science involved. Basically what I 
am wondering is why, if the states have better data on fish 
counts, fish harvest--it does not seem that scientific, it 
seems like they have the stats, from my understanding, 
available to them that have pretty accurate counts, much more 
within range than what we are hearing from what NOAA's numbers 
are.
    So, why wouldn't we move more toward using that more 
accurate information, and basing harvests off of that and the 
other policies?
    Mr. Risenhoover. I think the answer there is we are always 
looking for better data.
    Mr. LaMalfa. But actually using it, though, for the----
    Mr. Risenhoover. We are working with the states to 
calibrate their data to our survey, so that we can compare 
those and make sure that we do have a good estimate of what the 
catches are in the future.
    Mr. LaMalfa. But, sir, if yours are maybe as much as 70 
percent different from the states, with their more accurate 
system of actually tracking at the docks what the harvest is, 
how can you calibrate together something that is that far off?
    Mr. Risenhoover. Right. Since we have the same goal in mind 
of an estimate of the number of fish caught, there is a reason 
for that 70 percent difference. And, we need to look at both 
surveys again and find out why there is that difference, and 
then improve both surveys to get the better number in the end.
    Mr. LaMalfa. But, indeed, if the methodology for the state-
based survey is already an improved, accurate one versus the 
NOAA one that is not, I do not know why they have to 
recalibrate the state-level ones.
    Mr. Risenhoover. Right. We have been working for a number 
of years, based on a National Research Council Report to 
improve our data and our survey system. We are working to make 
sure that our survey system is as accurate as possible, and 
then comparing that and trying to improve our system and the 
state's system, as well.
    Mr. LaMalfa. Thank you. Mr. Chairman, would you mind if I 
yield the remainder of my time to Mr. Graves?
    Dr. Fleming. Yes, fine.
    Mr. LaMalfa. OK, all right. Thank you, I yield back.
    Mr. Graves. Thank you very much. Mr. Risenhoover, thank you 
very much for being here. I am struggling with this thing a 
little bit. Right now you have the East Coast, the Atlantic 
states, that manage the striped bass fishery. Correct?
    Mr. Risenhoover. Correct.
    Mr. Graves. You have the West Coast states, the Pacific, 
that manage the Dungeness crab. You have the state of Alaska 
that manages the salmon fishery.
    Why would there be discrimination against the Gulf states 
in regard to you not supporting efforts for the states to 
manage the snapper fisheries since these other states do? Is 
there some profound problem with these other states? Is there 
some profound problem with the Gulf states that you have 
mistrust?
    Mr. Risenhoover. Congressman, I do not think it is 
mistrust. These other programs have been around a long time.
    Mr. Graves. But they started at some point.
    Mr. Risenhoover. They did start at some point.
    Mr. Graves. I wanted to double-check that.
    Mr. Risenhoover. Again, when it comes to regional 
management, we support it in concept. We believe that giving 
the states more autonomy to manage their recreational stocks to 
meet their objectives is a worthy goal. We believe that 
currently the way to do that is through the Council process 
that has the large public----
    Mr. Graves. If I can reclaim my time, I would like to read 
a part of the transcript from a hearing we had in this 
committee. I believe it was with Ms. Sullivan in here from 
NOAA.
    I said, ``I just want to make note that the five state 
agencies sent a letter effectively not agreeing with what the 
Council did, not agreeing with the direction that this has had, 
and asking for regional management. I strongly support that.'' 
And I said, ``I suspect if the other Gulf members do, as well, 
that there would be strong efforts on our parts to urge you, 
NOAA, to defer to them and allow the states to manage the 
fishery.''
    In response, Ms. Sullivan said, ``We have been monitoring 
that effort for them to come together and propose that closely, 
and we would be supportive of that.''
    Now, my takeaway--because I was very appreciative of her, 
and gave her all sorts of accolades after--my takeaway was that 
Ms. Sullivan was actually saying she supported those efforts of 
the five Gulf states to come together, supported their letter 
that had been issued prior to that meeting, laying out their 
management strategy for the Gulf.
    Again, this is not a precedent, is it? Would this be a 
precedent to have the five Gulf states manage the snapper 
fishery?
    Mr. Risenhoover. It would be a precedent for the red 
snapper fishery, but----
    Mr. Graves. But would it be a precedent to have the states 
manage fisheries in Federal waters?
    Mr. Risenhoover. No. As you mentioned----
    Mr. Graves. OK, thank you.
    Mr. Risenhoover [continuing]. There are other----
    Mr. Graves. So let me just go back. In regard to Ms. 
Sullivan's comments, are you going back on those comments? Are 
you not agreeing with what she said?
    Mr. Risenhoover. I do not believe I am disagreeing with Dr. 
Sullivan.
    Mr. Graves. OK.
    Mr. Risenhoover. I believe that the states can come 
together through the Council process as well.
    Mr. Graves. Thank you. And, Mr. Chairman, I guess--can I 
roll in--oh, no. I guess you are going over there. OK, I will 
stop. Thank you.
    Dr. Fleming. Yes. OK, the gentleman yields back. Mr. 
LaMalfa yields back. The Chair now recognizes the gentlelady 
from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I am an 
advocate for the Council management of our Nation's fisheries 
that take into account flexibility for local fisheries and 
local conditions.
    I am from the Pacific area. And with that part of the ocean 
bordering so many other nations, we have the continued threat 
of our fisheries being overfished. But we must also weigh the 
concerns of particularly my community, the Guam fishing 
community.
    Regarding this bill, I do support the spirit of the bill, 
but I do have concerns.
    Mr. Risenhoover, I am going to ask you this question. I 
understand the Council has recently set up an advisory panel on 
recreational red snapper to help private boat anglers. How can 
the Council be more helpful to private anglers, so they can 
move forward?
    Mr. Risenhoover. Thank you, Congresswoman. I believe the 
Council's effort to hear directly from the private-boat anglers 
through this committee is one way to do that. Also, continued 
involvement in the process. And also, I think regional 
management, as initially proposed by the Council, holds great 
promise for that, as well.
    Ms. Bordallo. All right. Then I have another question.
    The states have argued that the red snapper stock is 
rebuilt based on evidence of higher recreational catches. But 
the recent stock assessment shows that the spawning stock of 
red snapper is only about half the size it is projected to be 
at the end of the rebuilding plan in 2032.
    Mr. Risenhoover. That is correct, Congresswoman. We have 
made great progress since the rebuilding plan started in the 
1990s. We still have some ways to go.
    We have--and it is very notable--ended overfishing on this 
stock, a condition that existed for a number of years. So, the 
good news is we have ended overfishing. We have a healthy 
biomass that continues to grow. We need to continue our 
conservation measures to make sure it rebuilds fully.
    Ms. Bordallo. All right. Can you give me--the Gulf red 
snapper stock is still overfished, but by how much?
    Mr. Risenhoover. It is at about half of its biomass target. 
So, it still needs to continue to grow.
    Ms. Bordallo. I see. About half.
    Mr. Risenhoover. At about half, and we still project by 
about 2032 it would reach that level, which would provide 
additional opportunities for fishermen, commercial and 
recreational.
    Ms. Bordallo. Another question. Will continued rebuilding 
of the stock under the Magnuson-Stevens Act lead to larger and 
more consistent catches in the future?
    Mr. Risenhoover. That is our hope.
    Ms. Bordallo. That is your hope. All right. Let me see 
here.
    NOAA does incorporate state data into red snapper science 
and management. Is that a true statement?
    Mr. Risenhoover. That is correct.
    Ms. Bordallo. What are some of the challenges, and what can 
be done to help improve the current situation?
    Mr. Risenhoover. Thank you, Congresswoman. I think 
cooperation is the key with the states. Through our MRIP 
Program, our survey, we are working directly with those states 
actively. We have had calls with the states this week about 
some of the differences we hear in the data, to try and resolve 
what those issues are, to get the best data in the future.
    Again, we are increasingly and continually working with the 
states on information to include in our stock assessments, as 
well.
    Ms. Bordallo. All right. Thank you very much.
    Mr. Chairman, if I could, I would like to give my extra 
minute to my colleague here, Mr. Lowenthal. He needs extra 
money----
    Dr. Fleming. Without----
    Ms. Bordallo. I mean extra time.
    [Laughter.]
    Mr. Huffman. He needs that, too.
    Ms. Bordallo. Extra time.
    Dr. Fleming. That is between you two on that.
    Ms. Bordallo. It has been a long day.
    Dr. Fleming. Yes, exactly. Without objection, Mr. 
Lowenthal.
    Ms. Bordallo. Thank you.
    Dr. Lowenthal. Thank you. First, I applaud Congressman 
Graves for taking on this issue. There are problems with the 
fishery. I am just really using this to learn more about it, 
what the issues really are. I do not consider myself an expert 
on this. I'd like to work on this. I do have some concerns----
    Dr. Fleming. Mr. Lowenthal, can you get that microphone a 
little closer, please, sir?
    Dr. Lowenthal. Yes, let me come over here. It is on.
    I do have concerns--not that I am opposed to the states 
managing the fisheries. I think we have demonstrated that that 
does work well in other places. But we need to make sure that--
and I need to understand more myself--that we protect all the 
fishing interests, not just the recreational, that we protect 
commercial interests, charter interests, and not just cut out 
the commercial and charter, who have worked so hard.
    So, my first question is, what are the major concerns that 
some of those that oppose this, such as the commercial, why are 
they concerned about this bill?
    Mr. Risenhoover. Well, I think, if I may answer, 
Congressman----
    Dr. Lowenthal. I am not saying they are real concerns, but 
it is important for me to understand what the issues are and 
what people are frightened of?
    Mr. Risenhoover. I do not think that they see what the 
future would hold, specifically. Under the Gulf Council plan, 
those details are laid out much more clearly than in the 
subject legislation.
    I think the second panel would be able to help you very 
much with that question.
    Dr. Lowenthal. All right. I will wait until the second 
panel.
    Dr. Fleming. The gentlelady's time is up; but we will come 
back to you soon, Mr. Lowenthal. The Chair recognizes Mr. 
Graves for 5 minutes.
    Mr. Graves. Thank you, Mr. Chairman. Ms. Bordallo, I want 
to thank you very much for co-sponsoring the bill. I certainly 
appreciate your insightful questions, and am looking forward to 
continuing to work through some of those issues with you.
    Mr. Risenhoover, I would like to follow up on a question 
that was posed to you in regard to the health of the stock in 
the Gulf fishery.
    You made a comment about the biomass of the snapper fishery 
in the Gulf of Mexico as a whole. Could you further drill that 
down and explain the biomass differences in terms of the health 
of the stock in the eastern Gulf versus the western Gulf?
    Mr. Risenhoover. Congressman, there is a table chart in my 
presentation that shows that for the entire Gulf. I cannot 
personally draw that down for you, but I would be more than 
happy to get that information.
    Mr. Graves. That would be very helpful to the committee. I 
actually know the answer, which is usually the safest way to 
ask questions. The western Gulf stock is actually rebuilt at 
this point, and the eastern Gulf stock is not. That is what the 
more accurate state science is showing at this point. I think 
that is an important distinction, showing once again how 
tailored management strategies among the five Gulf states may 
actually be a better approach than trying to do a one-size-
fits-all for the Gulf of Mexico.
    Let me ask you something. The Coastal Zone Management is 
under your agency's jurisdiction, correct, the Coastal Zone 
Management Act?
    Mr. Risenhoover. It is under NOAA's jurisdiction, yes.
    Mr. Graves. Thank you. Are you aware that there is more 
habitat loss in coastal Louisiana in regard to the wetlands 
than anywhere else? I believe it is 90 percent of the coastal 
wetlands lost in the continental United States. Are you aware 
of that?
    Mr. Risenhoover. I have heard----
    Mr. Graves. The area that is--by U.S. fish standards, I 
believe, they indicated it is one of the most productive 
habitats in the North American continent.
    Whenever the state of Louisiana has gone to you with 
Secretary Barham's support and other folks from the state of 
Louisiana and asked that, through the Coastal Zone Management 
Act, NOAA actually prevent the U.S. Army Corps of Engineers 
from continuing to allow the degradation of our coast through 
Federal actions that they are doing, do you know what NOAA said 
back to us?
    Mr. Risenhoover. I do not.
    Mr. Graves. ``We are not engaging.'' Do you know that when 
I was the lead trustee for the state of Louisiana, and I asked 
NOAA to help us force BP to clean up the oil because of the 
adverse impact on our habitat, on fish, and everything else 
down there, do you know what I was told?
    Mr. Risenhoover. I----
    Mr. Graves. I was told no. I was told no. So I have to be 
honest. I am having a little bit of trouble believing that NOAA 
is out there to be good stewards of the natural resources, to 
be our friend, and to make sure that this habitat is being 
managed properly. That is a very big concern of mine.
    Could you provide the committee with landings records in 
the five Gulf states of where the red snapper on the commercial 
side--where they are actually landed, and where they are 
actually caught? Would you mind? I know you do not have it with 
you, but would you mind providing that to the committee?
    Mr. Risenhoover. I believe we can provide that----
    Mr. Graves. Great, great, thank you.
    Secretary Barham and Secretary Wiley, could you both answer 
a question for me? Can you just very quickly explain how you 
would manage the fisheries? And I see all these shirts behind 
you, and I am really glad that all of you are here.
    I want to reiterate something I said earlier. I said 
earlier that I repeatedly tried to engage industry, commercial 
industry, restaurants, and others, and got nothing back. So, 
those people that bought you plane tickets and told you to come 
here, maybe you could go ask them why nothing came back to us.
    I also want--one other comment, real quick--those of you 
sitting in the audience who are concerned about this--I am 
going to guess that most of you recognize Secretary Barham and 
Secretary Wiley. And, Mr. Risenhoover, I appreciate you being 
here, but I am going to guess that none of you recognize the 
gentleman in the middle, which means whenever things come up 
and you need to engage the person that is actually managing 
your fisheries, I think it would be much easier to get in touch 
with one of these guys that you actually recognize, you know 
where he lives, you know how to get there, you know how to get 
in touch with him, rather than--and, again, no offense to you, 
you have 50 states to deal with--but rather than this gentleman 
here.
    Secretary Barham and Secretary Wiley, could you give a 
brief explanation of how you would actually manage the 
fisheries in the Gulf?
    Mr. Barham. Well, as far as Louisiana, in this bill we want 
to protect what the commercials have today. We do not want to 
undermine their production. That is the initial premise. We 
want to be sure they get the amount of fish they are getting 
today into the future.
    Beyond that, we believe that our assessment of the stock, 
and the viability and the vibrancy of that resource offshore, 
will indicate that they can have increases in the future. That 
is our belief.
    So, we will manage using our LA Creel and any other tools 
that we develop that we believe----
    Mr. Graves. Thank you. If I could just get the last few 
seconds here for Secretary Wiley.
    Secretary Wiley, could you please quickly also include in 
your answer--the Federal Government currently manages the South 
Atlantic Red Snapper Fishery. Could you please explain the 
condition of the current red snapper fishery management for the 
commercial sector?
    Mr. Wiley. Yes. In the Atlantic it is much worse, much 
further behind. The season is essentially closed, non-existent. 
Our approach would first begin with a series of workshops with 
all of our stakeholders--commercial, charter-for-hire, 
recreational, everyone--and bring them together and say, ``You 
help us design Florida's program.''
    Dr. Fleming. All right. Mr. Lowenthal is now recognized for 
5 minutes.
    Dr. Lowenthal. I appreciate this hearing. It is giving me a 
chance to learn more about what the critical issues are.
    So now, as I understand--and I think Mr. Risenhoover--
because we do not have a really accurate way of accountability 
or measurement of the recreational fishing, they are managed 
with broad buffers. We manage them and set quotas based upon 
kind of a buffer system of what we think is available. And you 
then state, ``Well, we want you to only be able to take a 
certain percentage of that.'' Is that not correct?
    Mr. Risenhoover. That is correct. There is a management 
budget buffer in the recreational fishery that helps us ensure 
that that recreational fishery does not go over its quota.
    Dr. Lowenthal. Got it.
    Mr. Risenhoover. It has gone over in the past, and a court 
case----
    Dr. Lowenthal. They have gone over in the past?
    Mr. Risenhoover. Yes, helped require us to have such a 
buffer.
    Dr. Lowenthal. I believe the states--and I believe what I 
am hearing, again, learning about is that those managing are 
wanting to have the state fisheries, or the state, have much 
more control over--believe that their measurement of it is 
better than--and so that they do not need these buffers.
    Is that not true, Mr. Barham? If you had control, or 
responsibility in the EEZ of, say, recreational fishing, you 
might not need these buffers because you have better data?
    Mr. Barham. Absolutely. Their protocols are woefully 
inadequate. He mentioned a court case. I will cite to you that 
2, 3 years ago, Texas and Louisiana joined together and sued 
them about the allocation for Louisiana.
    In the Federal court in Brownsville, Texas we saw the 
difference between our data and their data. They extrapolated 
what they estimated our population off Louisiana--they 
extrapolated from their sampling from less than 30 fish to say 
what the total population of the fish was off Louisiana. And we 
comparably had, literally, thousands of samples--weights, ages, 
health of the biomass. The Federal----
    Dr. Lowenthal. Are there other ways, and I am going to ask 
both of you, of right now requiring, for example, recreational 
anglers to report all red snapper landings; would requiring 
that be helpful, as we move forward?
    Mr. Barham. Well, we, in essence, do that in Louisiana. We 
have what is called an offshore landing permit. We can 
individually contact those fishermen who have that offshore 
landing permit.
    In addition to that, as I said earlier--I don't know if you 
were here--we selected all the larger docks in Louisiana, both 
private and public, and we send biologists to literally check 
the catch of the anglers coming to those docks. So, we get the 
vast majority not only of the counts, but the scientific data 
from the fish. We are keeping a real-time, whole population 
sample in Louisiana in LA Creel.
    Dr. Lowenthal. Mr. Risenhoover, what about other things? 
What about a system requiring the purchase of a red snapper 
fishery endorsement, or a stamp coupled with required self-
reporting in the form of fish tags or some other mechanism? 
Would that increase funding for necessary red snapper research? 
Could we do that? Would it give us a better understanding?
    Are there other ways--if part of this is really the lack of 
trust or belief in what is out there, are there other ways in 
which we could be collecting data?
    Mr. Risenhoover. Yes, sir. Permits or a tag-type system is 
one way to get this additional detailed information from 
fishermen. It is a large number of fishermen, and we would need 
to manage that.
    As far as the funding goes, we have some legislative 
hurdles. For example, we could not collect the money from the 
tags and use it for that. We would need to look at that very 
closely.
    But yes, again, better data is always better.
    Dr. Lowenthal. Is that really the critical issue that we 
are talking about, the lack of or the belief that the Federal--
NOAA--it is really the counting and what is going on, and that 
returning it to the state would give the states more ability to 
control, and to use their data, and so they would not need this 
kind of buffer thing?
    Does that lead, then--and I am going to ask in the next 
panel to people who are also concerned--that that would impact, 
for example, potentially, the commercial fishing? They would 
say, ``Oh, my goodness. You are now kind of getting rid of that 
buffer. They are going to--at some point we are going to lose 
our number.'' I will ask that question later on to the others 
on the commercial side.
    Dr. Fleming. OK. The gentleman's time is up. The Chair now 
recognizes the Chairman of the Full Committee, Mr. Bishop.
    Mr. Bishop. Thank you. And we are just in panel one? OK. I 
appreciate you being here. I am sorry I was late, I was on the 
Floor before coming in here.
    As I understand it, the bill's premise is that the states 
can do a better job than the Federal Government in managing our 
fishery resources, which is, admittedly, a low bar. But having 
said that, I am also looking in here with the idea that we are 
not in the business of putting people out of business. I want 
to make sure that we have safeguards in there for commercial, 
charter fisheries. And I believe all three of you would say 
that is the same goal.
    But also, the status quo of having 10 days for recreational 
fisheries in Federal waters for red snapper is simply 
unacceptable. The status quo must change in some way. But let 
me, therefore, ask a couple of questions.
    First, to our friends from Louisiana and Florida, in your 
written testimonies--which I had a chance to read--as well as 
the five-state plan, you indicate that the states are better 
equipped to manage the fishery. If that is the case, I guess 
the question is why should American taxpayers continue to pay 
for management of the snapper, when it would no longer be 
Federal Government managing the fishery? Could you respond to 
that one?
    Mr. Barham. Mr. Chairman, earlier in the committee hearing 
I spoke to one of the Members who expressed that same feeling.
    Mr. Bishop. I apologize for being late, then.
    Mr. Barham. No, I told him that if that turned out to be 
the stumbling block, do not send me the money. Give me the 
authority to manage the fish; we will do a better job.
    Mr. Bishop. Thank you. Mr. Wiley, I am assuming you would 
say something very similar to that?
    Mr. Wiley. Yes, sir. Thank you.
    Mr. Bishop. OK.
    [Laughter.]
    Mr. Bishop. It is refreshing to hear that, thank you. And I 
apologize if I am plowing ground that has already been seeded 
and planted.
    Let me do another one, once again, to Mr. Barham and Mr. 
Wiley. Are you two open to additional assurances that may be 
added to this bill that would address concerns of the 
commercial fishing industry about preserving their access?
    Mr. Barham. Absolutely.
    Mr. Wiley. Yes, sir.
    Mr. Bishop. All right. Then let me throw another one out. 
And I am not advocating this, the question just needs to be 
asked about bifurcating the management of the states, whereas 
the states would manage the recreational side, the Federal 
would manage the commercial side. Is that something to which 
you would also be willing to discuss, or open?
    Mr. Barham. My personal opinion is I do not know exactly 
how it would work. That would be a real challenge, to have a 
bifurcated system. Of course, I am certainly willing to discuss 
any proposal, absolutely.
    Mr. Bishop. OK.
    Mr. Wiley. Yes, sir. That is the same way we feel. It is a 
little tricky, pulling them apart, because they are very much 
closely aligned.
    Mr. Bishop. All right. Like I say, I am just brainstorming 
here. I am not advocating that position, but it is an option 
that should be on the table.
    I look forward to working with you all as we continue, as 
this bill goes wherever this bill goes. I continue to work with 
you to make sure that we can come up with some good solutions.
    I am very proud, because this is unusual for me. I have, 
like, 2 minutes left. I am going to yield it back to you, Mr. 
Chairman.
    Dr. Fleming. Very good. Thank you, Mr. Chairman. And last 
in the first round we have Mr. Scott. You are recognized for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman. I appreciate you 
allowing me to participate in this. I have fished the Gulf of 
Mexico since my granddad took me to fish off the Steinhatchee 
Bridge. And, as I was telling war stories with the good captain 
before, I think we have probably fished against each other in 
the Bay Point Billfish Tournament. The gentleman that ran our 
boat was a commercial fisherman. Certainly, I have no intent 
whatsoever to take anything from the commercial industry, or 
hurt them in any way, shape, or form.
    As someone who spent a lot of days on the Gulf, though, I 
do feel like the Council has taken something that was a right 
that Americans had--from them, the American fishermen. When we 
originally started making the changes to the fishery, I want 
you to know I actually supported a reduction in the number of 
days. I called, spoke to Roy Crabtree, as a matter of fact, 
told him I felt like our bycatch--that we were killing too many 
fish.
    One of the things that does not get talked about much is 
the fact that bringing the fish home does not kill the fish any 
deader than catching it and then throwing it back in the water. 
It does not make any difference to the population if I catch 
the fish in state waters, in the front of the boat, or if I 
catch it in Federal waters, in the back of the boat. The fish 
is still dead. In some cases I can bring him to shore, and in 
some cases I cannot, if I am across this line that the fish do 
not know about.
    But Mr. Crabtree testified--with due respect, Mr. 
Risenhoover--that the population of snapper was larger than it 
had been in the last 30 to 40 years. This was just a couple of 
weeks ago on----
    Mr. Risenhoover. And that is correct, it is larger.
    Mr. Scott. So we, as the recreational fishermen--and again, 
I was one who supported the reduction in the number of days, 
based on the promise that we would get our season back when the 
fishery was restored--it is restored well beyond where it was 
when this started.
    So, for my colleagues, I will tell you they took us from 
194 days with a 4-fish limit--as a dad who wants to take his 
kid fishing--194 with 4, to now 10 with 2. And, if I happen to 
be standing in the right place at the right time, and if I had 
gotten one of the right licenses, I could go out and catch 100 
a day. But those permits were not auctioned off. And what is 
happening in many cases is, people who have a charter boat 
license and a commercial license are effectively selling their 
catch share as a charter trip. That is something that I think 
we need to address.
    The other thing I would suggest, that catch shares are--to 
collect revenue, and if it were oil, we would be auctioning it 
off to the general public and using the money to restore 
habitat.
    With that said, I want to go to you, Mr. Wiley, simply 
because I fish in your waters, and if I get stopped by the 
marine patrol down there I want to be able to tell them I know 
you.
    [Laughter.]
    Mr. Scott. How do you propose to work together on the 
assessments and the data gathering? I know what I see when we 
are out there fishing. If you would just talk through that a 
little bit, and if you could talk to the issue of the bycatch a 
little bit.
    Mr. Wiley. Yes, sir. First, as far as working together, we 
have a great relationship with our partner states across the 
Gulf. We have been in the trenches together for years, and we 
collaborate on many things. The unfortunate Gulf oil spill 
brought us even closer together, and I have no doubt we can 
bring these things together.
    Part of this Act would require that we come together in a 
planning process, work with our stakeholders back home, and 
bring each flavor from each state together and work it out 
together. I have great confidence we can do that.
    Mr. Scott. Does NOAA currently contract with the states for 
the enforcement of any of the laws?
    Mr. Wiley. Yes, sir. We do a good bit of enforcement in 
Federal waters through funding that comes through NOAA. Yes, 
sir.
    Mr. Scott. Absolutely. So there is already a trust 
relationship between NOAA and the states with regard to 
allowing you to handle the law enforcement-related issues with 
regard to the very fisheries laws that we are talking about.
    Mr. Wiley. Yes, sir. That is a very good relationship.
    Mr. Scott. Mr. Chairman, again, I want to thank you for 
allowing me to be here. And to those of you from the commercial 
industry, look, all I want is my fishing season back. Taking a 
dad down to 10 days, I have not been able to go fishing since 
they did that. And that is just flat-out un-American.
    Dr. Fleming. OK. The gentleman yields back. To the first 
panel, we thank you. Great job. We may have more questions for 
you that we may provide to you later in writing. We would 
appreciate a response within 10 days. You are now excused, and 
we ask the second panel to step forward.
    While the second panel is coming forward, I will go ahead 
and begin introducing them in the interest of time.
    First is Mr. Christopher Horton, Fisheries Program Director 
of the Congressional Sportsmen's Foundation from Bismarck, 
Arkansas; Captain Gary Jarvis, Owner of Back Down 2 Charters 
from Destin, Florida; Mr. Bob Zales, President of the National 
Association of Charterboat Operators from Hurley, Mississippi; 
Mr. Jason DeLaCruz, President and COO of Wild Seafood Company 
from East Madeira Beach, Florida; Ms. Haley Bittermann, 
Corporate Executive Chef and Director of Operations for Ralph 
Brennan Restaurant Group, New Orleans, Louisiana; and Mr. David 
Cresson, Executive Director and CEO of the Coastal Conservation 
Association from Baton Rouge, Louisiana.
    If everything goes right, everybody is sitting in the 
correct order. I cannot see all the names. OK, we are good.
    OK. Our panel of witnesses, we thank you for joining us 
today. Let me remind you about our Committee Rules. You must 
limit your oral statements to 5 minutes, but the entire 
statement will appear in the hearing record.
    I will also explain about the lights. You will be under a 
green light for 4 minutes, then a yellow light for the last 
minute. The light turns red quickly--conclude your statement.
    We will probably be called for votes in about 15 minutes. 
We will try to get through the entire panel, if at all 
possible. Then we will recess and come back afterwards for 
questions.
    The Chair now recognizes Mr. Christopher Horton, Fisheries 
Program Director at the Congressional Sportsmen's Foundation to 
testify.

STATEMENT OF CHRISTOPHER M. HORTON, FISHERIES PROGRAM DIRECTOR, 
    CONGRESSIONAL SPORTSMEN'S FOUNDATION, BISMARCK, ARKANSAS

    Mr. Horton. Thank you, Mr. Chairman, Congressman Huffman, 
and members of the committee. My name is Chris Horton, I am the 
Fisheries Program Director for the Congressional Sportsmen's 
Foundation.
    I began my career as a fisheries management biologist for a 
state natural resource agency, and then as the Conservation 
Director for BASS before joining CSF in 2010. I currently serve 
on the Recreational Fisheries Working Group of the Marine 
Fisheries Advisory Committee, and I have served previous terms 
on the Sport Fish Partnership Council, as well as the National 
Fish Habitat Board.
    However, I am also a private recreational angler that goes 
to the Gulf of Mexico at least twice a year to fish both 
inshore and offshore. I am thankful for the opportunity to be 
back before your committee to discuss the issue of Federal 
management of our recreational fisheries, and specifically in 
the context of H.R. 3094.
    In my 2013 testimony regarding the Marine Recreational 
Information Program, or MRIP, I tried to convey how this 
program, though a significant improvement over the old MRF 
system, would never be able to provide the necessary 
information for in-season quota monitoring and closures that 
the Federal system management requires, especially for red 
snapper. Two years later, we are still in that same boat. 
Because of both an inadequate data collection system and an 
inappropriate model for the recreational sector, we continue to 
be penalized for a rebuilding fishery.
    Based on my previous experience of managing a fishery for a 
state agency, I know the states can do better. The problem is 
not with MRIP itself, which is actually a pretty good program 
for what it was designed to do, and that is to be a broad, 
general survey to measure angler effort and catch across 
multiple species around our Nation's coasts. It was never 
intended to collect precise data for a specific fishery that 
lasts only a few days.
    Red snapper harvest estimates are not available until at 
least a month after the season has ended, so it is impossible 
to determine if NOAA's best guess at the season length resulted 
in supposedly too many fish being caught, or the fact that we 
could have actually fished a few more days.
    Frustrated with managing the fishery based on guesswork, 
the states have developed their own angler data collection 
programs. As Secretary Barham has mentioned, Louisiana started 
LA Creel in 2013, which was funded by an increase in license 
fees, fully supported by their anglers because they trusted 
that their state agency could do a better job. During its first 
year alone, LA Creel was able to survey around 50 times more 
anglers and intercept around 23 times more harvested fish than 
the MRIP survey in the state.
    But to truly manage a fishery, you need to know more than 
just what the anglers are harvesting. You need to understand 
what the population looks like and how it responds to your 
management actions in real time. Relying heavily, as the 
Federal model does, on getting a picture of the population 
primarily by what has landed on the docks is an inherently 
biased way to approach it. That is why, generally, states 
assess populations based largely on fishery-independent data, 
like catch-per-unit effort, as a foundation. Not only does 
catch-per-unit give you better estimates of population 
abundance, but this type of fishery-independent sampling allows 
an opportunity to collect reliable information on size and age 
structure, relative health of fish within the fishery, et 
cetera.
    This level of understanding of what is going on with the 
actual population and the capacity to respond in real time is 
what makes state management more effective than Federal 
management. One need only look at the state-managed fisheries 
to see the resounding success of their management approach, 
both in fresh water and salt water fisheries.
    State fisheries managers use the same model, whether 
managing primarily catch-and-release trophy fisheries, like 
some large-mouth bass, trout, and snook, or catching grease 
fisheries, as we would call it in the South, popular 
harvestable fish like crappie, spotted sea trout, or walleye, 
because it works, regardless of management.
    That is why you practically never hear of fisheries managed 
under the state model as being overfished or collapsing. 
Despite what some may lead you to believe, this is not 
commercial fishermen versus charter-for-hire fishermen versus 
individual anglers. While the current model is supported by a 
handful of commercial fishermen fortunate enough to be handed a 
share of the public resource, it is not appropriate for the 
recreational sector--either private anglers or the charter-for-
hire industry.
    The Gulf red snapper population is a public trust resource, 
and the American public deserves an accountable management 
system that optimizes access to that resource. H.R. 3094 will 
provide that accountability, preserve the current commercial 
fishery as is, and ensure continued sustainability of the red 
snapper fishery, promote access for all anglers, whether they 
pay a charter captain to take them to their fish or have the 
means to catch them themselves.
    For this reason, I urge you to support H.R. 3094, and 
ensure the appropriate management of this important species for 
the benefit of all Americans. Thank you.
    [The prepared statement of Mr. Horton follows:]
    Prepared Statement of Chris Horton, Fisheries Program Director, 
                  Congressional Sportsmen's Foundation
    Thank you Mr. Chairman, Congressman Huffman and members of the 
committee. My name is Chris Horton, and I'm the Fisheries Program 
Director for the Congressional Sportsmen's Foundation (CSF). 
Established in 1989, CSF works with Congress, governors, and state 
legislatures to protect and advance hunting, angling, recreational 
shooting and trapping.
    An avid angler myself, I began my career as a fisheries research 
biologist for a state natural resource agency. Prior to joining CSF in 
2010, I held the position of conservation director for B.A.S.S., the 
largest angling organization in the world. I currently serve on the 
Recreational Fisheries Working Group of the Marine Fisheries Advisory 
Committee, and I have previously served on the Sport Fishing and 
Boating Partnership Council for the Secretary of Interior and the board 
of the National Fish Habitat Partnership. Though perhaps most 
importantly relative to this hearing today, I'm a private recreational 
angler who travels to the Gulf of Mexico at least a couple of times 
each year to fish, both inshore and offshore.
    I'm thankful for the opportunity to be back before your 
subcommittee to discuss the issue of Federal management of our 
recreational fisheries, and specifically in the context of H.R. 3094. 
In my 2013 testimony regarding the Marine Recreational Information 
Program, or MRIP, I tried to convey how this program, though a 
significant improvement over the previous Federal survey known as 
MRFSS, would never be able to provide the necessary information for in-
season quota monitoring and closures that the Federal system of 
management requires--especially for Gulf of Mexico red snapper. Two 
years later, that analysis continues to hold true. As a result of this 
reliance on inaccurate data and an inappropriate management model for 
the recreational sector in which to apply that data, anglers in the 
Gulf have gone from a total of 42 days of Federal red snapper season in 
2013, to just 10 days in 2015, despite the healthiest population of red 
snapper on record. While the current system of management under the 
National Marine Fisheries Service (NMFS) and the Gulf of Mexico Fishery 
Management Council (Council) seems to work for the commercial sector, 
it ultimately penalizes recreational anglers for a rebuilding, and 
possibly even rebuilt, fishery. The states can simply do better.
    MRIP was developed to be a general survey of recreational angling 
effort and catch across multiple species around the Nation's coasts. It 
was never designed to have a level of precision to accurately measure 
angler harvest for in-season closures during relatively short fishing 
seasons, like Gulf red snapper, which NMFS is specifically required to 
do under 407(d) of the Magnuson-Stevens Act (MSA). Red snapper harvest 
estimates are not available until months after the season has ended, so 
it's impossible to determine if NMFS's best guess at how long to set 
the season hit its mark, if anglers supposedly exceeded their quota, or 
if they could have had more days to fish, until well after the season 
is closed.
    A good example of MRIP's inefficiency with measuring harvest of red 
snapper was in Mississippi this year. Through June 2015, MRIP indicated 
that Mississippi's recreational anglers landed zero red snapper, while 
their charter/for-hire fleet landed only 3,500 pounds. Conversely, 
right next door in Alabama, MRIP estimated the recreational sector 
landed 2.1 million pounds. It should be noted that this inaccurate data 
feeds into the Federal stock assessments which determine season lengths 
for the following year. Thus, the problem continues to perpetuate 
itself.
    Frustrated with managing a fishery based on guesswork, the states 
have developed their own fishery-dependent data collection programs for 
their private recreational anglers. As Secretary Barham has mentioned, 
Louisiana started LA Creel in 2013. Louisiana's anglers even supported 
increasing their own license fees to cover the cost of the program 
because they trusted that their state agency could do a better job. 
Their confidence was justified. During its first year alone, LA Creel 
was able to survey around 50 times more anglers and intercept 23 times 
more harvested fish than MRIP surveys in the state. In addition, 
Louisiana often collects biological information from the fish they 
count, such as tissue samples and otoliths for ageing, which gives them 
a better picture of the actual red snapper population--something MRIP 
never does. The other Gulf states have begun similar programs that are 
proving to be equally as effective in gathering much more accurate 
information.
    In addition to the significantly more precise fishery-dependent 
data from the recreational sector, the states have historically and 
successfully relied on fishery-independent data for a more accurate 
assessment of fish population condition, as well as a snapshot of how 
the population is responding to current management actions, in real 
time. By sampling the actual population, and not what is landing on the 
docks, you get a clearer picture of population characteristics. Most 
importantly is estimates of abundance, but also age structure, relative 
health of fish within the fishery, etc. Their ability to conduct more 
frequent and accurate population assessments, and the capacity to 
respond in near real time, is what makes state management more 
effective than Federal management.
    Unlike tuna, wahoo, mahi or other migratory species, red snapper 
have high site-affinity, meaning they tend to stay in a relatively 
small area and in localized populations. Since they do not regularly 
migrate between jurisdictions, it makes sense, biologically, for the 
states to manage their red snapper fishery off their shoreline 
independently, rather than as one Gulf wide population as is done under 
the current Federal management framework. The red snapper population 
off the coast of Texas can be very different than the red snapper 
population off the coast of Florida. Likewise, what works best for 
Texas anglers might not work as well for Florida's anglers. A great 
example of how the states manage their own fisheries according to stock 
health, abundance and angler preference can be found with seatrout. 
Florida has two different zones of management, one of which allows 
anglers to harvest four trout, while the other zone allows up to five 
to be harvested. Conversely, because the habitat and conditions are 
different, Louisiana's anglers can harvest 25 trout along most of the 
coast, and only 15 in a few waterways where habitat is more limited. 
States manage according to the capacity of individual stocks.
    One need only look at state-managed fisheries to see the resounding 
success of their management approach, both in fresh and saltwater 
fisheries. State fisheries managers use the same model, whether 
managing primarily catch-and-release trophy fisheries (like some 
largemouth bass, trout, snook and tarpon fisheries) or harvest 
intensive fisheries (crappie, catfish, red drum, sheepshead, spotted 
seatrout, walleye and yellow perch), because it works well regardless 
of management goals. At the same time, you almost never hear of these 
fisheries being ``overfished'' or undergoing ``overfishing'' as defined 
in the Magnuson-Steven's Act. In contrast, however, virtually every 
fishery where there are problems with sustainability and overfishing is 
occurring, Federal management is in place.
    I think the frequent inability of Federal fisheries managers to 
effectively manage recreational fisheries is a product of how they are 
required to approach fisheries management. States have a responsibility 
and mission to manage a fishery for maximum health so that they can 
provide ample opportunities for the public to enjoy their resource. To 
do this, they rely on actual, timely population data in addition to 
estimates of angler harvest. State management success is measured on 
both a robust fishery and a satisfied public, with no incentive to do 
otherwise. Unlike the states, Federal managers are required by law to 
manage a fishery, in part, on the concept of maximum sustained yield 
(MSY), which by its very definition causes managers to decrease the 
abundance of a population and squeeze the most pounds out of a fishery 
while trying not to collapse it. Because of the inherent variability in 
their assessments that rely heavily on harvest estimates, they must 
include conservative buffers to keep from exceeding the overfishing 
limit. The fewer the fishermen in the fishery, the easier it is to 
achieve this goal. Essentially, the National Marine Fisheries Service 
(NMFS) has built their management model around the commercial 
management model of managing or constraining the fishermen to attempt 
to keep a fishery from failing. But the states' model manages for a 
healthy population and a robust fishery in order to optimize access for 
fishermen, both commercial and recreational. From a species 
conservation, harvest sustainability, and overall public satisfaction 
perspective, the state approach is simply a better methodology.
    Despite what some may lead you to believe, this isn't about 
commercial fishermen versus charter/for-hire fishermen versus 
individual anglers. While the current model is supported by a handful 
of commercial fishermen fortunate enough to be given a share of this 
public resource, it is not appropriate for the recreational sector, 
either private anglers or the charter/for-hire industry. The Gulf red 
snapper population is a public trust resource, and the American public 
deserves an accountable management system that maximizes access to 
their resource.
    H.R. 3094 will provide that accountability, preserve the current 
commercial fishery, ensure continued sustainability of the red snapper 
fishery as a whole and promote access for all anglers, whether they pay 
a charter captain to take them to their fish or have the means to catch 
them themselves. For these reasons, I urge you to support H.R. 3094, 
and in so doing, ensure that one of the Nation's most important marine 
species is successfully and appropriately managed for the benefit of 
all Americans.

                                 ______
                                 

  Questions Submitted for the Record by the Hon. Garret Graves to Mr. 
   Christopher M. Horton, Fisheries Program Director, Congressional 
                         Sportsmen's Foundation
    Question 1. We often hear that red snapper management in the Gulf 
of Mexico is broken because the season in Federal waters is so short--
only 10 days this year.

    1a. But can't anglers legally fish for red snapper in Federal 
waters 365 days a year, and that only the possession of red snapper is 
limited?

    Answer. While it is not illegal to catch red snapper anytime in any 
jurisdiction, the requirement to release the fish outside the very 
narrow 10-day window essentially denies the recreational angler an 
opportunity to choose whether or not to harvest the fish. That choice 
is fundamentally the definition of access to a public trust fisheries 
resource. When populations are depleted, drastic reductions in effort 
are understandable, and in fact, are advocated for by recreational 
anglers. However, when populations are at record abundance and size, as 
in the case of Gulf red snapper, this extremely limited access to the 
fishery is illogical and is the reason for the lack of trust in the 
ability of Federal managers to fairly and effectively manage the red 
snapper.

    1b. Are recreational anglers unaccountable to quotas and 
responsible management?

    Answer. Recreational anglers are the primary supporters of 
fisheries conservation. Anglers who fish for red snapper abide by the 
laws regarding season and bag limits, report their catch as required, 
and purchase the appropriate fishing licenses annually. Essentially, 
they abide by the rules and regulations they are given and advocate for 
additional regulations when necessary to protect or enhance the stock. 
Furthermore, they gladly pay an excise tax on their fishing tackle and 
equipment, marine electronics and motorboat fuels, all of which goes 
back to the states to fund fisheries conservation. For these reasons, 
it is difficult to comprehend how recreational anglers could ever be 
labeled ``unaccountable.'' Rather, it would be more accurate to say the 
current, wholly inappropriate system of Federal management is 
unaccountable to recreational anglers.

    1c. What other factors contribute to a shortened Federal season?

    Answer. The short recreational season in Federal waters is not a 
result of the potential for recreational anglers to negatively impact 
the resource, but rather the product of forcing recreational anglers 
into a system of management designed for commercial fisheries. 
Commercial fisheries are managed for yield. They are pursued by 
relatively few fishers, all with (understandably) the same goal--to 
harvest as many fish as possible as efficiently as possible in order to 
maximize profit from the sale of whatever species they pursue. 
Commercial landings can usually be counted or weighed in real time, 
thus quotas can be enforced in real time. This allows managers to close 
a fishery before the allowable catch is exceeded. In short, a 
commercial fishery's catch can be managed in real time and based on 
verified landings. Managing commercial fisheries based on biomass or 
yield makes sense.

    Managing the recreational component of marine fisheries with 
similar yield-based parameters, on the other hand, does not. The Gulf 
of Mexico red snapper fishery is a prime example of where managing a 
recreational fishery based on total yield, rather than in relation to 
the health of the fishery, is having a devastating and unnecessary 
impact on recreational anglers and coastal economies. Even though 
methodologies to estimate recreational harvest have improved since the 
last Magnuson-Stevens reauthorization, recreational anglers continue to 
be penalized as stock biomass increases. The red snapper fishery is as 
healthy as it's been in decades, with more and bigger fish in the 
fishery. Because the average weight and abundance of red snapper has 
increased, seasonal opportunities to access the healthy stock are 
further reduced each year in order to keep the estimated recreational 
harvest in pounds under a best guess at an appropriate ACL. Ultimately, 
the healthier the Gulf of Mexico red snapper population gets, the less 
anglers can fish. It is absurd to manage fisheries in this way. The 
current management system simply doesn't work and is an injustice for 
recreational anglers.

    Question 2. H.R. 3094 states that Gulf Coast state fishery 
management plans should be consistent with the Magnuson-Stevens Act 
``to the extent practicable,'' but does not require them to meet 
Magnuson standards.

    2a. How can we be assured that the states will act in the best 
interests of the resource?

    Answer. Within the mission and/or statutory responsibility of every 
state natural resource agency is a clear directive to manage the 
natural resources for sustainability and enjoyment of their people, now 
and in the future. The mission of the Texas Parks and Wildlife 
Department, for instance, is, ``To manage and conserve the natural and 
cultural resources of Texas and to provide hunting, fishing and outdoor 
recreation opportunities for the use and enjoyment of present and 
future generations.'' Likewise, the Mississippi Department of Marine 
Resources was created to, ``. . . enhance, protect and conserve marine 
interests of the state. We manage all marine life, public trust 
wetlands, adjacent uplands and waterfront areas, and provide for the 
balanced commercial, recreational, educational and economic uses of 
these resources consistent with environmental concerns and social 
changes.'' All five Gulf states have similar goals and missions. 
Conservation and sustainability for current and future generations are 
the core tenants of why these agencies exist, and they can't do that 
without managing for a healthy, sustainable resource first and 
foremost.

    As I stated in my testimony, I think the inability of Federal 
fisheries managers to effectively manage recreational fisheries, while 
states seem to succeed easily, is a product of how they are required to 
approach fisheries management. States have a responsibility and mission 
to manage a fishery for maximum health so that they can provide ample 
opportunities for the public to enjoy their resource. They have no 
incentive to do otherwise. Unlike the states, Federal managers are 
required by law to manage a fishery, in part, on the concept of maximum 
sustained yield (MSY), which by its very definition causes managers to 
decrease the abundance of a population and squeeze the most pounds out 
of a fishery while trying not to collapse it. The National Marine 
Fisheries Service (NMFS) has built their management model around the 
commercial management model of constraining the fishermen to attempt to 
keep a fishery from failing. Essentially, states manage for the 
resource first--anglers second, while NMFS just manages fishermen so 
the inherent uncertainty in their management model doesn't ultimately 
collapse the fishery. State management is simply more effective for 
both the resource and the public.

    However, perhaps the most compelling evidence that the states will 
act in the best interest of the resource, despite the lack of specific, 
inflexible standards of MSA included in the bill, is the fact that the 
states have successfully managed thousands of fish populations and 
their associated fisheries, both commercially and recreationally, with 
few, if any, MSA type guidelines in their own state statutes. For 
decades they've proven their mission, their responsibility to the 
resource and the expectation of their citizens are all the guidance 
they need to be successful.

    Question 3. We have heard about the failures of NOAA's recreational 
fishery data collection systems: the Marine Recreational Fisheries 
Statistics Survey (MRFSS) and the Marine Recreational Information 
Program (MRIP).

    3a. Can you describe the purposes for which these systems were 
originally established? And the purposes for which they have ultimately 
been used? What have been the assessments from the scientific 
accountability community?

    Answer. Basically, MRFSS and MRIP are programs used to ultimately 
estimate angler harvest. MRFSS, the first system employed back in 1979, 
used randomized calls to coastal households, whether they were anglers 
or not, in the hopes if contacting enough anglers to get a 
statistically acceptable sample size for harvest estimates. In addition 
to modifying the survey methodologies, MRIP targets known coastal 
anglers, so the ability to contact actual anglers, enhanced response 
rate and the larger sample size is a significant improvement over the 
old MRFSS system.
    However, MRIP was developed to be a general survey of recreational 
angling effort and catch across multiple species around the Nation's 
coasts. It was never designed to have a level of precision to 
accurately measure angler harvest for in-season closures during 
relatively short fishing seasons, like Gulf red snapper, which NMFS is 
specifically required to do under 407(d) of the Magnuson-Stevens Act 
(MSA). Red snapper harvest estimates are not available until months 
after the season has ended, so it's impossible to determine if NMFS's 
best guess at how long to set the season hit its mark, if anglers 
supposedly exceeded their quota, or if they could have had more days to 
fish, until well after the season is closed.

    3b. How do you assess that opportunity today? Can consumers access 
domestic red snapper at markets and in restaurants?

    Answer. Yes, and nothing in this bill will impact that 
availability. The Gulf states successfully manage other commercial 
fisheries in their waters and will continue to manage for a healthy, 
viable commercial red snapper fishery if given full management 
authority.

    3c. Should the opportunity to purchase red snapper be at the 
expense of America's sportsmen and women to access this plentiful 
public resource?

    Answer. No, and I believe you can manage this fishery to balance 
access for both America's anglers and members of the public who do not 
fish, but who enjoy eating Gulf-caught red snapper. Under the current 
management model, only commercial fishermen benefit. State-based 
management under H.R. 3094 would ensure that each sector, both 
commercial and recreational (and thereby the general public at large), 
have the appropriate access to the resource.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Horton.
    The Chair now recognizes Mr. Jarvis for 5 minutes.

 STATEMENT OF GARY JARVIS, OWNER, BACK DOWN 2 CHARTER FISHING, 
                        DESTIN, FLORIDA

    Mr. Jarvis. Chairman Fleming, Ranking Member Huffman, and 
distinguished committee members, thank you for giving me this 
opportunity to share my concerns and thoughts that represent 
those of thousands of businessmen in northwest Florida and the 
Gulf of Mexico who are tied to the professional fishing and 
tourism industry.
    For the past 39 years, I have fished for red snapper and 
other species recreationally and commercially, and have run a 
highly successful charter-for-hire operation. I am now an 
investing partner and owner with my two sons in three 
waterfront seafood restaurants in Destin. I represent my own 
small business and over 80 charter operators as the president 
of the Destin Charter Boat Association, the largest federally-
permitted for-hire fleet in the Gulf of Mexico. I am also a 
board member of the Northwest Florida Chapter of the Florida 
Restaurant and Lodging Association, which has more than a 
million members in the state.
    I want to make clear that this legislation is very 
controversial among Gulf fishermen, restaurant owners, and 
others involved in the seafood industry throughout the United 
States. Many of us strongly believe that if Congress passes 
this bill, it will harm small coastal businesses, tourism, and 
the red snapper fishery itself.
    I question the need for H.R. 3094 when existing provisions 
in the Magnuson-Stevens Act are capable of addressing every 
issue this bill claims to fix. In fact, the rebuilding progress 
due to MSA has been so effective that this year the annual 
catch limit for red snapper increased by 30 percent, bringing 
landings from 11 million pounds to over 14. That is more than 
two times the entire annual catch limit of 5.1 million pounds 
in 2005. This increase is a result of uniform Gulf-wide 
management, and it happens even with the states actively 
working against Federal management by opening longer seasons in 
their state waters.
    The MSA has been the gold standard of resource management 
for 40 years. This bill would take a single species of fish out 
of the MSA under the guise that somehow individual coastal 
states can manage it better. This proposal would give five 
state wildlife directors total control over a valuable fishery, 
and create a system with less oversight, fewer checks and 
balances, fewer resources, fewer science protocols, and little 
to no stakeholder input. A three-member voting body could 
dictate winners and losers in the red snapper fishery. And, for 
our fleet, that is worrisome.
    There are no specifics in this bill to show how the states 
will pay to duplicate stock assessment resources for one 
species. This plan is a monetary black hole and creates 
inefficiencies and bureaucracies that do not make good sense. 
There has been no proof that this would actually result in 
better management. In my opinion, H.R. 3094 will open the door 
for special interests, political malfeasance by taking red 
snapper management out from under the oversight of 
congressional stewardship and Federal law.
    Proponents of this bill do not offer any road map for how 
H.R. 3094 is to address failures in the Federal management of 
red snapper by the Gulf Council and the five Gulf states. They 
already have significant influence in management decisions 
through the Gulf Council.
    This legislation stems from the so-called problem that was 
created, in part, by the states themselves. The states continue 
to extend red snapper season in their waters, despite the 
majority of the red snapper biomass existing in Federal waters. 
These state policies have only hurt the private angling fishing 
experience. And now, much of the yearly recreational allocation 
is caught in state waters, while Federal waters are closed, 
blocking our charter customers' access to the fishery.
    The federally-permitted commercial and charter-for-hire 
sectors have worked tirelessly through the Regional Council 
process and under Federal law to develop fishery management 
plans that will work to increase public access to the red 
snapper fishery, to promote tourism, commerce, and successful 
fishing businesses Gulf-wide. It is only the private boat lobby 
and their state agencies who want to circumvent Federal law to 
suit their own needs, without coming up with any concrete 
solutions. The recreational angler organizations have the same 
opportunities and the same capabilities as we do to work 
through the Council process.
    H.R. 3094 is a private boat lobby's attempt to take a 
public resource from the majority of our Nation's citizens to 
create an elite, private angler fishery. Most Americans cannot 
afford blue water fishing boats that cost $75,000 to $300,000 
to access red snapper. That is another reason why we object to 
this legislation. We feel all Americans should have a form of 
affordable access to wild-caught Gulf seafood, whether on a 
plate or at the end of a pole aboard an affordable charter 
trip.
    Remember, our businesses are the access portal of 
federally-managed species for the majority of the U.S. 
population and your constituents. The entire allocation for 
charter-for-hire and commercial fishing companies are caught or 
consumed by the U.S. public. For these reasons we want no part 
of H.R. 3094 or the attempt by the private boat lobby to rob 
our for-hire customers and seafood consumers of their 
historical access to this Nation's fishery resource.
    On behalf of the Destin Charter Boat Association, and in my 
individual capacity as a northwest Florida businessman and 
community representative, I respectfully ask the subcommittee 
members to end this attempt to circumvent the MSA and to keep 
the Gulf red snapper fishery under Federal management. Thank 
you.
    [Applause.]
    [The prepared statement of Mr. Jarvis follows:]
 Prepared Statement of Captain Gary Jarvis, Owner, Back Down 2 Charter 
                     Fishing Inc., Destin, Florida
    Chairman Fleming, Ranking Member Huffman, and members of the 
subcommittee: I would like to thank you for the opportunity to express 
my professional perspective on H.R. 3094, the Gulf States Red Snapper 
Management Authority Act. I approach this legislation with multi-
faceted experience, a lifetime of participation in Gulf of Mexico 
fisheries, and a commitment to the proper management of Gulf of Mexico 
reef fish and red snapper fisheries.
    Every aspect of my life has revolved around healthy and robust Gulf 
fisheries. For the past 39 years I have plied my trade and provided for 
my family by spending a large portion of my life at sea in the Gulf of 
Mexico. During the course of my fishing career I have worn many hats, 
including that of a recreational fisherman operating a successful 
charter for-hire business during the summer and that of a high lining 
commercial fisherman in the winter. As my career is slowly coming to a 
close, I have further integrated my life in these fisheries by wearing 
the hat of investing partner and owner with my sons in three waterfront 
seafood restaurants located on Destin Harbor and Choctawhatchee Bay.
    I come before this committee as a representative of my own small 
mom and pop fishing company, and as president of the Destin Charter 
Boat Association whose members make up the largest federally-permitted 
charter-for-hire fleet in the Gulf of Mexico. I am also actively 
involved in promoting the entire Destin and Northwest Florida tourism 
community as a board member for the northwest Florida chapter of the 
Florida Restaurant and Lodging Association, the largest professional 
association in the state with over a million members. My comments will 
address my concerns with this proposed legislation, as well as the 
concerns of stakeholders in the red snapper fishery that I represent in 
northwest Florida and throughout the Gulf of Mexico.
    First, I want to make clear that this legislation is very 
controversial among fishermen. Many of us strongly believe that if 
Congress passes it, it would be harmful to the fishery, and in short 
order, small coastal businesses and coastal tourism. I question the 
need for H.R. 3094 when there are existing provisions within the 
effective Magnuson-Stevens Act that address every issue that this Bill 
claims it can fix.
    Although the law isn't perfect, most everyone in this room can 
acknowledge that the Magnuson-Stevens Act has done and continues to do 
its job. It has been so effective, in fact, that it exceeded even the 
authors of the legislation expectations. This legacy law has been the 
gold standard of resource management for decades. The original authors 
had assured that this historical law would remain relevant through the 
decades because they saw fit to add provisions that would allow future 
legislators to periodically improve the law and address any modern 
issue that has arisen over its 40 year existence.
    Even though the MSA has served our Nation well and provides the 
flexibility to make needed improvements, some want to circumvent this 
existing fair and open public Federal fishery management process to get 
what they want. This Bill will take a single species of reef fish out 
of the MSA under the guise that somehow the individual coastal states 
can do a better job. But it is far from clear that this would actually 
manage the resource better, particularly when the bill would set up 
another bureaucratic entity with no written plans, no written state 
laws or state constitutional language that lay out resource management 
frameworks. In my professional opinion, H.R. 3094 will open the door 
for special interest political fishery management malfeasance by taking 
red snapper management away from established Federal law and the 
oversight of congressional stewardship.
    The rebuilding progress due to MSA provisions has been so effective 
that this year the Gulf of Mexico Fishery Management Council was able 
to approve a 30 percent increase in the annual catch limit for red 
snapper, bringing landings from 11 million pounds to over 14 million 
pounds. That is more than two times the entire annual catch limit of 
5.1 million pounds in 2005. This increase is the result of uniform, 
gulf-wide management and happened despite that each of the five Gulf 
states had red snapper seasons inconsistent with the Federal season in 
2015. Even with the states actively working against Federal management, 
provisions within the MSA are rebuilding the stock and ultimately 
expand long term access to red snapper for all Americans.
    Charter-for-hire captains throughout the Gulf, and many commercial 
fishermen, chefs, and others involved in the seafood industry, are 
deeply concerned that this legislation will lead to an eventual, 
exclusive recreational fishery for Gulf of Mexico red snapper. My 
greatest concern is that this proposed legislation will give five state 
wildlife management directors total control of an individual iconic 
fishery in a system that has less oversight, fewer checks and balances, 
fewer financial and staff resources, less mandated science protocol, 
and less stakeholder input. It will create the reality that a three-
member voting block out of five state directors can dictate who wins or 
loses in red snapper access issues. How can this system more 
effectively manage red snapper and not fall prey to local state-
against-state politics, special interest policies, or unsavory 
influences that may harm other stakeholders in the fishery, and the 
fishery itself?
    What is left out of this proposed shift in management 
responsibility is the concern for the resource. Where will be the focus 
when the state next door has a longer season than yours does? Will 
protecting the resource still be the focus? Proponents of H.R. 3094 
made it clear that the new Gulf states management agency is modeled on 
the striped bass plan put into place by the Atlantic States Marine 
Fisheries Commission and tout it as a state management success. But 
that plan as well as this one does not require the ending of 
overfishing or rebuilding overfished stocks. It also did not require 
the same biological benchmarks and best available science mandated in 
MSA. And today that success story has now become a failure as striped 
bass stocks are in steady decline and soon will be required to be 
declared overfished.
    Proponents of this bill do not offer any roadmap for how H.R. 3094 
is to address supposed failures in the Federal management of red 
snapper by the Gulf Council and NMFS. The five Gulf states already have 
significant influence in red snapper management decisions through the 
make-up of the Gulf Council. Under the guidelines of the MSA, 17 
members vote on the Gulf Council, and only one is a Federal employee 
who addresses the position of NMFS and gives guidance to the rule of 
law and the process. Five voting members are paid state employees who 
express and address the specific policy of each state commission. In 
fact, the state directors themselves can all sit on this Council and 
express their views and vote on issues before the Council. The 
remaining 11 voting members are all appointed by each state governor 
and approved by the Secretary of Commerce.
    Sixteen out of 17 voting members have direct ties to all five 
coastal states and their governors and state commissions. So the same 
state directors who already have the capability to manage and address 
their state's needs are asserting that the present system has failed. 
That seems hypocritical considering that those state agencies are also 
responsible for recreational data collection and establishing co-
management policies with NMFS for the entire red snapper fishery. So 
now they say trust us, we can manage this Federal resource better 
without your congressional oversight and Federal guidelines while they 
are asserting that they failed at it. I say this tongue in cheek, but 
something smells fishy!
    Leaders of the private recreational groups that are pressing for 
this bill have taken a ``let them eat tilapia'' attitude to the 
majority of American consumers and public saltwater anglers who access 
Gulf Federal fisheries via federally-permitted commercial and charter 
for-hire vessels and businesses. Although these two sectors of the red 
snapper fisheries have tried to find compromise with the private boat 
lobby, it has now become apparent that their end game is not to share 
the resource in a fair and equitable manner but to end the commercial 
fishery, the seafood consumer's access nationwide and any other entity 
that would compete for their members' access, including the federally-
permitted charter for-hire fleet.
    Gulf states have already shown a desire to squeeze out those who 
want to fish in Federal waters on charter-for-hire vessels by extending 
red snapper recreational seasons in the state waters they manage. This 
state water loophole has squeezed out our clients for more than 6 
years, and this legislation opens the door for Gulf states to do more 
of the same.This scorched-earth policy has allowed the yearly 
recreational red snapper allocation to be caught by private boat 
anglers in state waters while the Federal EEZ is closed, preventing our 
customers their historical access to the fishery. Through the Council 
process and by following the mandates of the MSA, Sector Separation 
(Amendment 40) will prevent us from being handicapped by the harmful 
actions of the states and their commissions. And after working for 8 
years to become good stewards of this resource, we come to Washington 
to fight this latest attempt to put us back under the yoke of those 
same scorched-earth policies promoted by the states. The federally-
permitted commercial and charter for-hire sectors have worked 
tirelessly through the Council process and under Federal law to develop 
fishery management plans that work for increased public access to the 
rebuilding red snapper fishery, promote tourism, commerce and 
successful fishing businesses Gulf-wide. It is only the private boat 
lobby and their state agencies who want to circumvent Federal law to 
suit their own greed without coming up with solutions.
    H.R. 3094 would exempt red snapper from successful management 
standards but still leave the Federal Government with the bill. 
Management would be turned over to the states with little oversight and 
virtually no standards or accountability and there is no plan in the 
bill that would determine how the states will pay for this new 
responsibility. Fiscally, this plan is a black hole and creates 
inefficiencies in bureaucracy that do not make good sense in our 
current budgetary climate. The states have the same capability as do we 
to work through the MSA-mandated Council process to transfer management 
of those portions of the fishery that desire it to the states. But our 
fleet has the ability to effectively manage the portion of allocation 
set aside for the non-boat owning saltwater angler and want no part of 
state management because we have no confidence in their ability to 
treat our customers and industry in a fair manner.
    On behalf of the Destin Charter Boat Association and in my 
individual capacity as a northwest Florida businessman and community 
representative, I respectfully ask the subcommittee members to end this 
attempt to circumvent the MSA and keep the red snapper fishery under 
Federal management. Amendment 40 has given the charter for-hire sector 
the ability to effectively manage the portion set aside for the non-
boat-owning saltwater angler, and we have faith that the successes 
realized under the MSA will continue. For these reasons, we want no 
part of H.R. 3094 as well as the veiled attempt by the private boat 
lobby to rob our customers and seafood consumers of their historical 
access to this Nation's fish resources.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Jarvis. The Chair now 
recognizes Mr. Zales, President of the National Association of 
Charterboat Operators.

 STATEMENT OF ROBERT F. ZALES, PRESIDENT, NATIONAL ASSOCIATION 
         OF CHARTERBOAT OPERATORS, HURLEY, MISSISSIPPI

    Mr. Zales. Chairman Fleming, Ranking Member Huffman, and 
members of the subcommittee, my name is Robert F. Zales, II. I 
am appearing today on behalf of the National Association of 
Charterboat Operators. Thank you for your invitation to present 
testimony on H.R. 3094, that will add desperately needed and 
long overdue flexibility to the management of Gulf of Mexico 
red snapper by allowing the five Gulf states the ability to 
take over management.
    NACO represents charterboat owners and operators across the 
United States, including the Great Lakes, with a substantial 
membership from the Gulf of Mexico. My family and I have been 
in the charter and commercial fishing sectors for 50 years. 
Until this May, I was actively involved in fishery management 
for over 26 years, providing advice, testimony, publications, 
and helping to design charter fishing data collection programs 
on Federal, state, and local levels. Due to my mother's recent 
medical issues that began this past April, I have resigned from 
all the voluntary advisory positions I have held to take care 
of her, but still stay abreast of all issues that affect my 
industry.
    The majority of the members in the Gulf have no confidence 
in the continued management of red snapper by the NMFS. 
Stakeholders have made multiple requests to state marine source 
agencies to take over data collection and provide more local 
control over red snapper, resulting in all five Gulf states 
developing new and improved data collection methods and an 
improved effort in Congress to advance H.R. 3094.
    We have worked with Congress to make positive changes to 
the MSA on collection of recreational fishery data and other 
management issues. Current requirements of the MSA are overly 
restrictive, require arbitrary rebuilding timelines based on no 
science, and do not allow any flexibility in management. 
Flexibility in management must be allowed, which is why we 
fully support and encourage the passage of H.R. 3094.
    Problems with the NMFS management of red snapper are many, 
and apparently cannot be fixed under Federal management. In the 
Gulf of Mexico, when you put a baited hook in the water, odds 
are you will catch a red snapper. While the red snapper biomass 
continues to increase, the number of days available to the 
recreational sector has steadily declined since 1996, and has 
been drastically reduced since 2007.
    When you view the biomass growth of red snapper over time, 
you see a steady upper trend with no decline in any year, 
regardless of any quota over-runs. The NMFS has consistently 
punished the recreational sector by reducing allowed days of 
fishing for red snapper due to over-runs which have never 
adversely affected the growth of the fishery or restricted any 
efforts to reach the rebuilding target.
    In 2009, in retaliation to the state of Florida and a 
charter-for-hire fleet for their action to keep state waters 
open to recreational red snapper fishing when the NMFS closed 
the EEZ, Dr. Crabtree had the Gulf Council pass a regulatory 
amendment, typically known as 30B, that restricted all 
federally-permitted charter-for-hire vessels to compliance with 
Federal regulations, regardless of where they fish. This single 
act created more disruption and division among the recreational 
sector than any other action I have witnessed, and caused a 
significant rift in the recreational angling community.
    The 30B rule has denied access and the opportunity to catch 
red snapper to thousands of recreational anglers. Charter 
vessel owners and operators do not harvest recreational fish, 
the recreational angler on board does. Charter vessels are 
simply the platforms providing anglers the opportunity to fish 
recreationally.
    The Environmental Defense Fund was successful, scheming 
with the NMFS and a small group of red snapper commercial 
fishermen, in instituting IFQs in 2007. The majority of the 
commercial red snapper quota is owned by a small group of 
individuals, who the NMFS has enriched--really made 
millionaires by giving them the public fishery resource. Over 
15 percent of the red snapper commercial quota is owned by 
people who do not even own a vessel, as they do not fish the 
IFQs. Rather, they lease their shares to other commercial 
fishermen, much like old-time plantation owners who allowed 
sharecroppers to farm the land.
    The well-funded effort by EDF through their shill, puppet 
organizations such as the Charter Fishermen's Association, 
Shareholder Alliance, and Gulf Seafood Institute, over the past 
several years has resulted in the recently NMFS-approved 
amendment 40, severing the recreational charter-for-hire sector 
from the recreational sector. This amendment was approved by a 
9-7 Council vote over thousands of objections and public 
testimony provided by stakeholders. The majority of permitted 
charter-for-hire vessel owners do not support this segregation.
    The pseudonym for EDF in the Gulf is Charter Fishermen's 
Association. Despite CFA assertions, the majority of the 
charter-for-hire fleet opposes the status quo and supports H.R. 
3094.
    Recreational fisheries are not commercial fisheries and 
cannot be managed the same way. Red snapper management is not a 
one-size-fits-all scheme. Every area between Key West and 
Brownsville has different fishing seasons, tourist seasons, and 
needs. States provide improved and more accurate recreational 
data, as has recently been proven in Louisiana, Alabama, 
Mississippi, and with new efforts in Florida. Each state has 
proved to be a successful steward of both state- and federally-
managed species.
    Regional management makes it easier for the public to 
participate through more local and more convenient outlets. 
States will have the ability to use a superior management 
program, as done----
    Dr. Fleming. Sorry, Mr. Zales. Your time is up and we do 
want to get the other witnesses in before we recess.
    Mr. Zales. Thank you for your time, I will answer any 
questions.
    [The prepared statement of Mr. Zales follows:]
 Prepared Statement of Capt. Robert F. Zales, II, President, National 
                  Association of Charterboat Operators
    Chairman Fleming, Ranking Member Huffman, and members of the 
subcommittee, my name is Robert F. Zales, II and I am appearing today 
on behalf of the National Association of Charterboat Operators (NACO). 
I wish to thank you for your kind invitation to present testimony on 
H.R. 3094 that will add desperately needed and long overdue flexibility 
to the management of Gulf of Mexico red snapper by allowing the five 
Gulf states the ability to take over management of this species.
    NACO is a 501(c)(6) non-profit trade association representing 
charter boat owners and operators across the United States including 
the Great Lakes with a substantial membership from the Gulf of Mexico. 
My family and I have been in the charter and commercial fishing sectors 
for 50 years with concentration of charter fishing over the last 10 
years. Until this past May I have been actively involved in the fishery 
management process for over 26 years providing advice, testimony, 
publications, and helping to design charter fishing data collection 
programs on Federal, state, and local levels. Due to my mother's recent 
medical issues that began this past April I have resigned from all of 
the voluntary advisory positions I have held for over 26 years to take 
care of her but still stay abreast of all issues that affect my 
industry.
    Let me start by stating the vast majority of our members in the 
Gulf have absolutely no confidence in the continued management of red 
snapper by the National Marine Fisheries Service (NMFS). Over the past 
several years stakeholders have made request after request to the State 
Marine Resource agencies to take over data collection and provide more 
local control over red snapper management. These efforts have resulted 
in all five Gulf states to developing new and improved data collection 
methods and an important effort in Congress to advance H.R. 3094 that 
will provide state control of red snapper. Once the State Marine 
Resource agencies are provided the authority to manage red snapper you 
will see more support and more involvement in helping the states 
develop local management plans that will benefit all recreational 
anglers.
    For many years we have worked to institute change in the 
traditional management system of the NMFS by attempting to work with 
the agency. We have worked with Congress to make positive changes to 
the Magnuson-Stevens Fishery and Conservation Management Act (MSA) on 
collection of recreational fishery data and other management issues. 
While our efforts to work with the NMFS and Congress have helped 
improve some management measures, unfortunately, they have not been 
near enough. Sadly, we are acutely aware of the devastating impacts of 
the last reauthorization of the MSA as amended through January 12, 2007 
to fishermen, their families, supporting businesses, and fishing 
communities by the increasing loss of JOBS. The current requirements of 
the MSA are overly restrictive and require arbitrary rebuilding 
timelines based on no science. The rigid requirements of the MSA 
prevent the management Councils from having any flexibility in 
recommending management measures that will rebuild our resources while 
allowing fishermen to fish. Both can and should be allowed which is why 
we fully support and encourage the passage of H.R. 3094.
    Our problems with the NMFS management of red snapper are many and 
apparently cannot be fixed under Federal management. While the 
scientific modeling of the red snapper stock is now showing 
improvement, it is far behind what we experience in the real world. In 
the Gulf of Mexico when you put a baited hook in the water odds are you 
will catch a red snapper. Red snapper has been managed in the Gulf 
since the early 1980s when we could hardly find a red snapper to where 
they are almost all we catch, yet the number of days available to the 
recreational sector has steadily declined since 1996 and have been 
drastically reduced since 2007. While the NMFS has failed to provide 
timely and accurate red snapper stock assessments during this period 
the five Gulf states have been able to manage their own stocks of red 
drum, speckled trout, and other state regulated species. Florida has 
also properly managed snook. While Federal management has consistently 
reduced access and opportunity to recreational anglers the states have 
steadily increased access and opportunity.
    Red snapper is not the only fishery where the NMFS has failed in 
management. I started in the fishery management process over 26 years 
ago working with king mackerel when the quota had been reduced to 2 
million pounds, the lowest ever. Over the last 26 years, every mackerel 
stock assessment has shown some increase in biomass except for the last 
few years where it has been static. Every Science and Statistical 
Committee recommendation during this period was to only allow fishing 
to the 50 percent level of available biomass and they consistently told 
the Council if their recommendation was exceeded the fishery would 
never grow and could collapse. Until the 2007 Reauthorization of the 
MSA in most years the Council set the Total Allowable Catch at the edge 
of the overfishing level exceeding the SSC recommendation. Since 2007 
the Council has set the TAC at the SSC recommendation. From 1988 to 
2005 the harvest of king mackerel not only met the TAC but in most 
years exceeded the TAC. In all years the stock increased in biomass 
contrary to the SSC recommendations as can be seen in every graph 
developed. The current king mackerel stock assessment indicates the 
stock is heavily weighted by older fish yet we catch all sizes. The red 
snapper fishery has responded in a similar fashion as regardless of any 
perceived over run of the TAC over the rebuilding period, the stock has 
steadily increased in biomass. The latest trigger fish stock assessment 
indicates the stock is declining yet we see a steady increase in 
abundance and size of trigger fish. The NMFS has bragged about their 
success and use as their shining example of expert fishery management 
the complete rebuilding of the Gulf gag grouper fishery, yet gag 
grouper are rarely caught in both the recreational and commercial 
fisheries. In fact the recreational fishery has only harvested a little 
more than 50 percent of the quota the past 2 years and the commercial 
quota, also managed under an IFQ program, has only harvested 70 percent 
in 2014 and only 45 percent to date for 2015. When you view the biomass 
growth graphs of red snapper and king mackerel over time you see a 
steady upward pattern, with no decline in any year, regardless of any 
quota over runs. The NMFS has consistently punished the recreational 
sector by reducing allowed days of fishing for red snapper due to over 
runs which clearly have never adversely affected the growth of the 
fishery or restricted any efforts to reach the rebuilding target. You 
can clearly understand why we feel the NMFS is not capable of and/or 
unwilling to manage recreational fisheries.
    In 2009, in retaliation to the state of Florida and the charter 
for-hire fleet for their action to keep state waters open to 
recreational red snapper fishing when the NMFS closed the EEZ, Dr. 
Crabtree, (Regional Administrator NMFS SERO) had the Gulf Council pass 
a regulatory amendment (typically known as 30B) that restricted all 
federally-permitted charter for-hire vessels to compliance with Federal 
regulations. Regardless of what states might allow in their own state 
waters federally-permitted charter for-hire vessels must comply with 
the strictest Federal regulations for red snapper in Federal and state 
waters. This single act has created more disruption and division among 
the recreational sector than any other action I have witnessed in over 
26 years. It has turned angler against angler, charter vessel owner 
against charter vessel owner, and caused a significant rift in the 
recreational angling community.
    In Florida, as of June 30, 2015, there were 1,747 vessels, 
including Captains, licensed by Florida to charter for-hire vessel 
owners that carry up to six or more passengers. These numbers are 
state-wide as there is no way to distinguish between the east and west 
coast. Of these 734 are federally-permitted Gulf charter for-hire 
vessels. This means that when the state of Florida decides, in the best 
interest of the state and their anglers, to keep red snapper open in 
state waters 734 charter for-hire vessels cannot provide access to red 
snapper for the recreational anglers who hire us to provide a platform 
giving them the opportunity to fish recreationally. The single act of 
Dr. Crabtree creating the 30B rule has denied access to and the 
opportunity to catch red snapper to thousands of recreational anglers. 
Charter vessel owners and operators do not harvest recreational fish, 
the recreational angler on board does. Charter vessels are simply the 
platforms providing anglers the opportunity to fish recreationally.
    For many years environmental organizations such as the 
Environmental Defense Fund (EDF) have pushed for vessel fleet reduction 
by pushing for Individual Fishing Quotas (IFQs), also called Catch 
Shares. EDF was successful scheming with the NMFS and a small group of 
red snapper commercial fishermen in instituting IFQs and since 2007 the 
commercial red snapper fishery has been managed by IFQs. By design the 
size of the commercial fishing fleet has steadily declined since 2007 
(25 percent reduction from 2007 to 2011) under the consolidation of the 
fleet by the NMFS providing individual ownership of the red snapper 
resource to select individuals. The vast majority of the commercial red 
snapper quota is owned by a small group of individuals who the NMFS has 
enriched--really, made millionaires by giving them the public fishery 
resource. Today over 15 percent of the red snapper commercial quota is 
owned by people who do not even own a vessel as they do not fish the 
IFQs, rather they lease their shares out to other commercial fishermen, 
much like the old time plantation owner who allowed share croppers to 
farm the land. Ownership of red snapper quota with the ability to 
harvest and sell the fish or lease to others provides more financial 
return than any stock available on the stock market.
    Because of the 30B rule for federally-permitted charter for-hire 
vessels and the constant reduction of fishing days for red snapper by 
the NMFS there has been an active push by the NMFS and EDF funded and 
supported puppet fishing associations and a small group of federally-
permitted charter for-hire vessel owners to segregate the permitted 
for-hire vessels from the total recreational sector and to institute 
Catch Shares for red snapper on the fleet. The well-funded effort by 
EDF through their shill, puppet associations, such as the Charter 
Fishermen's Association, Shareholder Alliance, and Gulf Seafood 
Institute, over the past several years has resulted in the recently 
NMFS-approved amendment 40 severing the recreational charter for-hire 
sector from the rest of the recreational sector. This amendment was 
approved by a 9-7 Council vote over the thousands of objections and 
public testimony provided by stakeholders. The vast majority of 
permitted charter for-hire vessel owners do not support this 
segregation. By instituting Catch Shares (IFQs) in the for-hire fleet 
the Federal Government will cause a reduction of vessels available to 
the public thus reducing access and availability to the fishery. This 
effort is the NMFS answer to their failure to properly manage the 
recreational red snapper fishery.
    NACO fully supports H.R. 3094 which would move the management of 
Gulf red snapper to the five Gulf states. I submit that the vast 
majority of charter for-hire vessels owners, including federally-
permitted vessels owners, are fed up with the failure of the NMFS 
management as has been demonstrated at countless Council meetings and 
communications from constituents. The pseudonym for EDF in the Gulf is 
the ``Charter Fishermen's Association.'' Despite the CFA assertions, 
the majority of charter for-hire fleet opposes the status quo, and we 
support Representative Graves' legislation, H.R. 3094.
    Recreational fisheries are not commercial fisheries and cannot be 
managed in the same way. Recreational fishing is more popular than golf 
in the United States and recreational anglers want access to public 
fishery resources where they have an opportunity to catch. State Marine 
Resource Agencies have a better understanding of the importance of 
recreational fishing and provide more access to public participation in 
their management efforts which has shown to provide a more efficient 
and better management system. All you have to do is look at the 
successes of state managed marine resources. State Agencies can act 
faster than the NMFS on all issues of management from allowing more 
access to abundant resources to reacting to natural or manmade 
disasters.
    In particular, red snapper management is not and should not be a 
one-size-fits-all scheme. There are 866 miles of coastline from Key 
West, Florida to Brownsville, Texas and every area in between has 
different fishing seasons, different tourist seasons, and different 
needs. Each of the five Gulf states knows far better of their needs and 
have proven their ability to properly manage their marine resources. 
States can provide improved and more accurate recreational fishery data 
as has been recently proven in Louisiana, Alabama, Mississippi, and 
with new efforts in Florida. State Marine Resource managers provide 
more timely stock assessments and better understand the social and 
economic impacts of recreational fishing.
    H.R. 3094 requires the states to provide a management plan that 
will provide how to conduct assessments, data collection, and annual 
management measures and timelines. New data collection programs are 
already in place or are being designed. State enforcement agencies are 
better equipped to handle enforcement and address any enforcement 
issues. State management of fisheries in Federal waters is currently 
allowed; an example in the Gulf is red drum where the states must meet 
Gulf wide conservation goals but are allowed the flexibility to meet 
those goals. The Gulf states are already responsible for managing 
commercial and recreational fisheries in state waters and share 
management for several species with other states. Each state has proven 
to be a successful steward of both state- and federally-managed 
species. Funding is already provided by the NMFS to the states for data 
collection and enforcement. NOAA funds the data analysis so that 
funding will simply need to be reallocated from the NMFS to the states 
to conduct the analysis.
    At this time stakeholders have not had an active part in developing 
the framework created by the State Marine Resource Directors. Because 
this is a framework for action no state has provided any true concept 
of how the new management system will work. Because State Marine 
Resource Commissions routinely act based on much stakeholder input we 
can expect any proposed management plan to include a major role from 
all stakeholders in the development of a plan. In fact, the regional 
management proposal offers stakeholders more opportunities to 
participate in the management process through the states' existing 
legislative and regulatory processes, commission meetings, various 
committees and task forces, public outreach meetings and surveys. 
Regional management makes it easier for the public to participate 
through more local and more convenient outlets.
    Regional management provides the individual states the flexibility 
to review all approaches for assessing and managing the fishery and to 
select strategies that fit best. With respect to assessment, the 
individual states will look for strategies that provide the most 
accurate picture of the stock and fishery status, including models 
based on fishing mortality estimates and spawning potential ratios 
(similar to what is currently used); simpler analyses based on relative 
abundance trends, size of fish, and geographic distribution; or models 
based on numbers of fish removed as opposed to fishing mortality 
estimates. Regardless of the method used, assessment strategies will go 
through a thorough scientific review from the states and must show that 
harvest levels are sustainable. The states must routinely assess the 
health of the fishery in their waters, and periodically, cooperatively 
assess the health of the stock Gulf-wide.
    The states will have the ability to use a management strategy that 
best fits the fishery as it is accessed by their state's anglers. Each 
state must assess the efficacy of their actions on an annual and 
ongoing basis and make adjustments (in-season if necessary) in response 
to the latest information about the stock and fishery to maximize 
fishing opportunity.
    This approach recognizes there are regional differences in the 
fishery based on how the fishery developed, the needs of the state 
regarding the fishery, and local tradition and practice. This is a 
superior approach to the current management system, which treats red 
snapper as one stock, fished one way across the entirety of the Gulf. 
In Florida such an approach could help develop a Florida Management 
Plan that could allow red snapper fishing in the fall and winter south 
of Tampa and spring and summer north of Tampa. Federally-permitted 
charter for-hire vessels would not be restricted by the 30B rule.
    Each Gulf state would formally agree to comply fully with 
management measures developed through the Plan under a memorandum of 
agreement. The GSRSMA plan allows states to request additional 
accountability options through the U.S. Secretary of Commerce if a 
state or states adopt measures deemed to be inconsistent with the plan.
    As pointed out above the current NMFS management system has failed 
to properly manage red snapper, especially the users. Stock assessments 
every 4 years or more are inadequate. A recreational data collection 
and analysis system that was never developed to track quotas or conduct 
in season adjustments is only slightly better today than 26 years ago, 
even under the 2007 Congressional mandate to develop a more accurate 
improved system. Currently and over the past 3 years the Gulf Council 
and NMFS are working to develop and implement an electronic data 
collection system for the charter for-hire fleet. This system is still 
years away from implementation all the while the states of Louisiana, 
Alabama, and Mississippi have considered, developed, and implemented 
new data collection systems in less than a year. Constant efforts by 
the NMFS to create disruption among the commercial and recreational 
sectors and now between the recreational charter for-hire and private 
recreational sectors only proves the NMFS has failed to properly manage 
this fishery.
    Just in my small coastal community of Panama City, Florida, 
according to the local Tourist Development Council, 15 percent of 
Tourism Dollars comes from saltwater recreational fishing. The complete 
failure by the NMFS to properly manage red snapper has cost my 
community and others countless revenue and adversely affected small 
family businesses. Efforts by the Gulf states to keep their waters open 
after the NMFS has closed the fishery have helped to enhance the social 
and economic conditions of the coastal communities while the additional 
harvest of red snapper has not harmed the resource as it continues to 
grow every year. It is clear the states can better manage the fishery 
as they have proven in their management of their own resources. 
Stakeholder involvement is more effective on the state level as the 
state resource agencies respond much faster to that concern. We view 
state management as our only savior in being able to have access to the 
resource so we have an opportunity enjoy it.
    Mr. Chairman, this concludes my testimony. Again, I truly 
appreciate the invitation and opportunity to provide you and the 
committee with this information. I will be pleased to respond to any 
questions.

                                 ______
                                 

Questions Submitted for the Record by the Hon. Garret Graves to Captain 
  Bob Zales, President, National Association of Charterboat Operators
    Question 1. Does the charter/for-hire (CFH) fleet support status 
quo management of Gulf red snapper?

    Answer. The answer is NO. The NMFS has failed to provide proper 
management of this fishery for the recreational sector, which includes 
CFH vessels. Their failure to provide an adequate data collection 
system, even with the few modifications over the years, continues to 
constrain access to an ever growing resource. I know of no one who 
fishes who supports the current Federal management system.

    Question 2. How would H.R. 3094 impact my business?

    Answer. H.R. 3094 would allow the five Gulf states to manage their 
state fishery as best fits their stakeholders to provide the 
conservation and economic and social benefits of the resource off their 
respective state. Each State Marine Resource Agency could design 
management on their need. An example in Florida is that the FWC could 
establish different seasons, bag limits for the northwest coast and 
southwest coast of the state providing access to all stakeholders where 
current Federal management does not allow access to southwest Florida 
due to the current established season beginning June 1 and ending in a 
few days each year. The southwest Florida season for most fisheries is 
in the fall and winter. Under H.R. 3094 each state could also set a 
different season for CFH vessel owners versus private recreational 
anglers such as maybe a set number of continuous days for the CFH 
vessels and weekends only for private recreational. The State Marine 
Resource Agencies routine can react to management change within a year 
so that is a plan is implemented but is not working as expected the 
plan can be modified quickly. The Federal system takes 3 to 5 years or 
longer to make such adjustments.

    Question 3. There were several fold more commercial red snapper 
fishermen prior to the IFQ system in 2007, yet are less than 400 now. 
Even fewer actually fish their shares.

    3a. Do you have concerns that the CFH sector will follow the same 
path, ultimately getting to a point where only a few charter captains 
have the ability to take customers fishing for snapper?

    Answer. Yes, There is currently serious discussion on the Gulf 
Council, being pushed by a few CFH vessel owners who have both Federal 
charter fishing and commercial fishing permits attached to their 
vessel. These same owners own some red snapper commercial quota which 
they would like to be able to convert to recreational fish. The whole 
sector separation issue which is currently approved under the Council 
amendment 40 is geared to be able to establish catch shares (IFQs) in 
the CFH sector. The commercial sector fully supports this concept as 
they intend to be able to lease their commercial IFQs to the CFH sector 
so that they not only profit from selling some red snapper to consumers 
but also will greatly profit from the ability to lease their IFQs to 
the CFH sector. In my written testimony I reference the concept of 
``sharecroppers.'' The commercial IFQ red snapper owners will become 
even more powerful ``fish lords'' by owning and then profiting more by 
including CFH vessel owners in their sharecropper community. As with 
every fishery that has instituted catch shares (IFQs) in the United 
States you see dramatic fleet reduction. The whole purpose of catch 
shares (IFQs) is to reduce capacity thus fleet reduction and 
elimination of fishermen. If an IFQ system is created for the CFH 
sector you will see such dramatic fleet reduction which will reduce 
access to anglers seeking the CFH service. The anglers (consumers) will 
see less access to the fishery and dramatic increases the cost of a 
charter. The economies of local fishing communities will suffer as 
result and the CFH sector as we know it today will be forever changed.

    Question 4. The Gulf Council is currently moving forward with an 
IFQ program for the charter/for-hire sector.

    4a. As a federally-permitted charter captain, I stand to personally 
gain from an IFQ, yet I am opposed. Why?

    Answer. As I stated above if the CFH sector goes to an IFQ system 
local fishing communities will suffer. While I will profit greatly and 
frankly if such a system is pushed on the CFH sector I will consider 
becoming a ``fish lord'' and lease all my quota, my community, my 
fellow CFH vessel owners, and the fishery itself will suffer. Many 
fellow CFH vessel owners will go out of business. Access to the fishery 
will be reduced to anglers. CFH vessels fishing for red snapper may be 
reduced in areas which could change access points for the fishery. 
Areas where anglers now go to hire a CFH vessel could disappear. The 
whole fishery will change and be placed in the hands of a few. Public 
access to the public resource will be limited. In America I was raised 
and educated to believe that everyone has a right to pursue their 
dreams. While other CFH vessel owners may have a more successful 
business than mine and I may have one more successful than others, free 
competition in business is the way to success. Privatizing a public 
resource eliminates free enterprise and fair competition. Government 
should not dictate if I win or lose, my efforts to create a successful 
business should be allowed for what I do, not what is gifted to me. We 
all should an opportunity to compete on a fair field. Basically, it is 
just not right.

                                 ______
                                 

    Dr. Fleming. OK, Mr. Zales, thank you for your testimony. 
Mr. DeLaCruz, you are recognized for 5 minutes.

 STATEMENT OF JASON DeLaCRUZ, PRESIDENT AND COO, WILD SEAFOOD 
              COMPANY, EAST MADEIRA BEACH, FLORIDA

    Mr. DeLaCruz. Thank you, Chairman Fleming, Ranking Member 
Huffman and members of this subcommittee. Thank you for the 
opportunity to address you to promote the proposed Gulf States 
Red Snapper Management Authority Act. My name is Jason 
DeLaCruz, I am a commercial spear fisherman and a fish house 
owner in Madeira Beach, Florida.
    Let me start by saying that I cannot support this proposal, 
and neither can the commercial fishermen and seafood suppliers 
in Florida and Texas that I speak for today. H.R. 3094 will 
undermine the commercial fishing businesses and our ability to 
provide the American people with sustainably-harvested red 
snapper. My message here today is consistent to what we have 
heard from the commercial industry from day one. I cannot 
support state management of the commercial red snapper fishery 
in the Gulf of Mexico.
    Our fish house, Wild Seafood Company, handles more than 
three-quarters of a million pounds of fish. My business is made 
up of 15 boats, 50 captains and crew, and 15 staff. I also sell 
bait, tackle, and ice to the recreational public at my marina.
    When I am not at the dock or in the water, I am improving 
the way fisheries management is handled in our Gulf. I am a 
member on the Fishery Advisory Panel for the Gulf Council and 
am part of the Fishery Advisory Committee for Congressman Jolly 
in my local county. I am also the Vice President of the Gulf of 
Mexico Reef Fish Shareholders' Alliance, and the Executive 
Director of Gulf Wild, two industries working hard to improve 
fishery management and also seafood traceability in the Gulf.
    Sometimes I wish for simpler days, when I just got to go 
spearfishing and do what I love. But being a fisherman today is 
not just about catching fish any more, it is about finding 
solutions to preserve the long-term health of our fisheries and 
our business. To that end, I would like to address three 
points.
    My first point is that commercial fishing is a success 
under the Magnuson-Stevens Act and should not be turned over to 
the Gulf states. Magnuson-Stevens is the bipartisan backbone of 
the management system and the reason that we have a rebounding 
red snapper fishery today. Strict rebuilding requirements, 
mandatory accountability measures, and a common core of 
conservation have tripled the commercial quota in the last 10 
years, as a testament to its effectiveness as a Federal 
fisheries law.
    The new commercial program, that was put in place in 2007, 
has kept us remaining within our quota and our science-based 
quotas, and fishing year-round. Fishing businesses are 
profitable, the flow of fish in the marketplace is stable and 
growing, and the fishing and shoreside jobs are being promoted. 
Don't undermine this by turning this fishery over to the Gulf 
states.
    The second point is that this bill threatens the commercial 
fishery and the seafood supply chain. H.R. 3094 opens up 
loopholes that will erode the commercial fishery. It will allow 
three individuals to eliminate 10 percent of the red snapper 
fishery every year without discussing it with the Gulf Council, 
a stakeholder group that, as we know, is accessible by all 
stakeholders. All five states already voted to take red snapper 
away from the commercial fishermen and the consumers earlier 
this year, so why would we think that anything would be any 
different under the state management?
    H.R. 3094 leaves too much to chance. It does not define 
what is meant by a satisfactory enforcement plan, nor does it 
define what necessary measures it would use to rebuild the 
fishery. It only explains that public participation will be 
adequate. Commercial fishermen are not willing to gamble our 
businesses on the weakened enforcement, diminished rebuilding 
measures, and restricted public access to the system.
    The third point is that H.R. 3094 sets a dangerous, 
controversial precedent. The conversation is not just about red 
snapper, it is about setting a precedent where states can 
eliminate the commercial fishery. Over 40 commercial fishing 
organizations on the east and west coasts of the United States 
and Alaska have come out against state takeover. These 
organizations represent thousands of commercial fishermen and 
tens of millions of pounds of commercially-important seafood. 
These fishermen all oppose this plan.
    In conclusion, we want to remain under the Federal fishery 
management protections and conservation requirements of the 
Magnuson-Stevens Act. H.R. 3094 threatens our business and sets 
a controversial precedent to impact fishermen and seafood 
consumers everywhere. Every fisherman from regions known to 
this--know this is a bad idea. We cannot support H.R. 3094. 
Thank you.
    [The prepared statement of Mr. DeLaCruz follows:]
 Prepared Statement of Jason DeLaCruz, Owner, Wild Seafood Co., John's 
                             Pass, Florida
    Chairman Fleming, Ranking Member Huffman, and members of the 
subcommittee: thank you for the opportunity to address you today 
regarding the proposed Gulf States Red Snapper Management Authority Act 
(H.R. 3094).
    My name is Jason DeLaCruz and I'm a commercial spear fisherman and 
fish house owner in John's Pass, Florida. Let me start by saying that I 
cannot support this proposal and neither can the commercial fishermen 
and fish house owners from Florida to Texas that I speak for today. 
H.R. 3094 creates loopholes that will undermine our commercial fishing 
businesses and our ability to provide the American people with a stable 
source of domestic, sustainably harvested red snapper. My message here 
today is consistent with what you have heard from the commercial 
industry since this idea was first developed--we cannot support state 
management of the commercial red snapper fishery in the Gulf of Mexico.
    I started my fish house business--Wild Seafood Co.--with my wife 
Vicki in 2012 and in just 3 years my business now handles three-
quarters of a million pounds of reef fish that makes its way to seafood 
consumers in the Gulf and throughout the Nation. My business is made up 
of 15 fishing boats that employ around 50 captains and crew, as well as 
15 fish house staff. I also sell bait, tackle, and ice to private 
recreational fishermen and charter captains in my area.
    When I'm not at the dock or in the water, I'm working to improve 
the way we manage our fisheries. My boats are currently testing ways to 
report their catch data electronically rather than through an 
antiquated paper-and-pencil system. I'm also working with scientists to 
test how video cameras can improve data collection on commercial 
fishing boats. I am on a number of fishery Advisory Panels for the Gulf 
of Mexico Fishery Management Council and I'm part of a fisheries 
advisory committee commissioned by Congressman David Jolly. I'm the 
Vice President of the Gulf of Mexico Reef Fish Shareholders' Alliance--
a strategic non-profit organization that is working to protect the 
Gulf's fish and fishermen for today and for future generations. 
Everything the Shareholders' Alliance does is founded in our belief 
that conservation and stewardship protect fish populations and 
fishermen's businesses. I also helped start, and am now the Executive 
Director of Gulf Wild--a comprehensive seafood traceability program 
that is built upon a series of conservation covenants and utilizes 
unique tags to track fish from the boat to the plate. Gulf Wild engages 
fishermen to improve their fishing practices, delivers better fishery 
data, returns a higher ex-value price to fishermen, and produces a 
seafood product that consumers can track back to the very captain, 
vessel, and area in which that their fish was caught.
    Sometimes I wish for simpler days when I was just a spear 
fisherman, but I now understand the need to stay active and involved in 
my fishery and directly work to improve the way it's managed. Being a 
fisherman today isn't just about catching fish anymore--it's about 
finding solutions that preserve the long-term health of our fishery and 
our businesses.

    I'd like to address three points regarding the Gulf States Red 
Snapper Management Authority Act.

  1.  The commercial fishery is a success under Magnuson and it should 
            not be turned over to the Gulf states.

  2.  The Gulf states are not in the position to manage a Federal 
            commercial fishery.

  3.  H.R. 3094 is a threat to the commercial fishery and seafood 
            supply chain.

1. The commercial fishery is a success under Magnuson and it should not 
        be turned over to the Gulf states.
    Our Federal fishery law--the Magnuson-Stevens Fishery Conservation 
and Management Act--is the bi-partisan backbone of our management plan 
and is the reason that we have a rebounding red snapper fishery today. 
Strict rebuilding requirements, mandatory accountability measures, and 
a common core of conservation have helped increase red snapper quotas 
to some of the highest levels on record. In fact, the commercial red 
snapper quota has nearly tripled in less than 10 years--a testament to 
the effectiveness of our Federal fishery laws. The commercial 
individual quota program was put in place in 2007, and we have remained 
within our science-based quotas every year. Fishing businesses are 
profitable again; we have all but eliminated wasteful discarding; the 
flow of fish into the marketplace has stabilized and grown; and fishing 
and shoreside jobs are being promoted. Magnuson is working for the fish 
and for commercial fishermen, and transferring the commercial red 
snapper fishery to the Gulf states threatens to undermine everything we 
have done to bring this fishery back from the brink of disaster.
    We simply have no assurances that the Gulf states will uphold 
Magnuson, and we have every reason to believe they won't. We have no 
assurances that the Gulf states will protect our small businesses that 
we've built under the security of Federal fisheries law. And we have no 
assurances that the Gulf states will identify and enact conservation as 
a keystone issue. Therefore we cannot and will not support H.R. 3094.
2. The Gulf states are not in the position to manage a Federal 
        commercial fishery.
    The commercial red snapper fishery mostly occurs in Federal waters 
and our boats are federally-permitted. Furthermore, we manage our quota 
through a Federal database, we report our landings through a Federal 
trip ticket system, and we pay Federal cost recovery fees. When we're 
fishing for red snapper, we're also catching red grouper, gag grouper, 
tilefish, and various species of deep water and shallow water 
groupers--all of which are managed under the Federal system. State 
management just does not make sense for one species in a federally-
managed multispecies commercial fishery.
    Time and time again in the Gulf of Mexico, we have seen the Gulf 
states deliberately set fishing seasons in their state waters to 
conflict with and undermine Federal regulations. In 2014, all five Gulf 
states allowed additional fishing days for red snapper in state waters 
(Texas had a 365-day season) and half of the entire recreational quota 
(2 million pounds of the 4.3 million pound catch target) was caught in 
state waters under these non-compliant regulations. We want nothing to 
do with being managed by the states that constantly thumb their noses 
at the policies that have helped rebuild this fishery and stabilize 
fishing businesses.
3. H.R. 3094 is a threat to the commercial fishery and seafood supply 
        chain.
    H.R. 3094 opens up loopholes that will undermine and erode the 
commercial fishery. If passed, it will allow three individuals to 
eliminate almost 10 percent of the commercial fishery every year 
without discussing it with the Gulf of Mexico Fishery Management 
Council--a stakeholder group that was approved by Congress to manage 
the Federal commercial fishery. All five Gulf states already voted to 
take allocation away from commercial fishermen this year, so why would 
we think that they'd do anything different under state management?
    H.R. 3094 leaves too much to chance--it doesn't define what it 
means to have a ``satisfactory'' enforcement plan, nor does it define 
what ``necessary measures'' it would use to rebuild a fishery. It falls 
short of identifying what standards will be used to evaluate state 
management plans, and only explains that public participation will be 
``adequate.'' Commercial fishermen are not willing to gamble our 
businesses on things like weakened enforcement, diminished rebuilding 
measures, diluted standards, and restricted public access.
    It's very important to understand that this conversation is about 
more than just red snapper in the Gulf of Mexico--it's about setting a 
precedent where states can sidestep Federal fishery laws and 
conservation requirements, take control of a commercial fishery, and 
destabilize it to the point where it can be eliminated in less than a 
decade.
    Through the Shareholders' Alliance, we reached out to commercial 
fishing organizations on the east coast, west coast, and Alaska, and 
over 40 of them signed onto a letter opposing this state takeover. 
These commercial fishing organizations, some of which come from states 
represented on this subcommittee, represent thousands of commercial 
fishermen and tens of millions of pounds of commercially important 
seafood. They oppose this state takeover because the implications of 
such a plan are far-reaching and set a dangerous precedent for our 
Nation's coastal regions--something like over 97 percent of the more 
than 300 million Americans get their access to fish and shellfish by 
purchasing it in restaurants, grocery stores, and fish markets that we 
supply. What's being proposed here today doesn't just harm commercial 
fishermen, it also impacts American seafood consumers. Our commercial 
fishing friends throughout the country cannot support this state plan 
in the Gulf because they would not support it at home.
    In conclusion, the Gulf states have demonstrated that they do not 
have the best interests of commercial fishermen and seafood suppliers 
at heart. Their track record of destabilizing our businesses and 
undermining conservation is clear and troubling. The Gulf states are 
not in a position to effectively manage a stable and growing commercial 
fishery that by many accounts is a wild success under Federal 
management.
    Commercial fishermen do not want to be managed by the Gulf states--
we want to remain under Federal management with the protections and 
conservation requirements of the Magnuson Act. Therefore, I 
respectfully ask this Congress not to force a regulatory regime on our 
small businesses that we adamantly oppose.
    Thank you, and I'm happy to answer any questions you have.

                                 ______
                                 

 Questions Submitted for the Record by the Hon. Jared Huffman to Jason 
            DeLaCruz, President and COO of Wild Seafood Co.

    Question 1. Will you please elaborate on the difficulty of 
separating red snapper out for regional management when your Federal 
permit covers a number of reef fish?

    Answer. The Gulf of Mexico reef fish complex include over 30 
species of snappers, groupers, jacks, tilefish, triggerfish, and 
wrasses. The Federal commercial reef fish individual fishing quota 
programs manage allocations of 14 different species, or groups thereof. 
On any given commercial fishing trip, we catch over a dozen different 
species of reef fish. Pulling out one species (red snapper) in this mix 
and handling it under an entirely different management regime is overly 
complicated and unnecessary. It will create confusion on the water and 
on land, which may lead to problems with reporting and could increase 
the uncertainty in red snapper data collection. Red snapper should be 
left under Federal management with the successful individual fishing 
quota program that has been in place since 2007.

    Question 2. Do consumers on the Gulf Coast and across the country 
deserve the chance to buy fresh, sustainable red snapper--a national 
resource that belongs to all of us--at the store or in a restaurant? 
Are there provisions in this bill that would limit this opportunity? 
Which ones?

    Answer. American red snapper are a public resource, and a vast 
majority (some say 97 percent) of the American public can only access 
domestic, sustainably harvested red snapper from the Gulf of Mexico by 
ordering it at a restaurant or buying it at a fish market. Commercial 
fishermen, along with the seafood supply chain, provide this access to 
those who can't afford to go catch it themselves. Any restrictions on 
commercial fishermen and reduction of commercial allocation directly 
impacts the public consumption of seafood. Allowing the Gulf states to 
eliminate up to 10 percent of the commercial red snapper fishery each 
year will take red snapper off the plate of American seafood consumers.

    Fundamental to our Federal fishery law is the recognition that 
fishery resources contribute to the ``food supply . . . of the Nation'' 
(16 U.S.C. Sec. 1801(a)(1)). Taking access to this fishery from up to 
97 percent of the American public and giving it to the remaining 3 
percent flies in the face of fairness and equity. One recreational 
fisherman's access in Federal waters (2 red snapper at an average of 
approximately 7 pounds apiece) is the equivalent of 18 six-ounce 
serving portions for consumers. Taking access from 18 American seafood 
consumers and giving it to 1 recreational angler is not fair or 
equitable.

    There was a time when the public could only access domestic red 
snapper harvested from the Gulf of Mexico a few weeks a year. This 
occurred prior to 2007 when the commercial fishery was poorly managed 
and took place as a rapid-fire, derby-style fishery that promoted 
wasteful discarding and unsafe fishing conditions. Since the 
implementation of the individual fishing quota system in 2007, the 
fishery has stabilized and American seafood consumers have the 
opportunity to access red snapper year round. H.R. 3094 threatens that 
access and will impose harm on commercial fishermen and American 
seafood consumers alike.

    Question 3. H.R. 3094 would allow the states to take over 
management of not just the recreational red snapper fishery, but also 
the commercial fishery. After 3 years, the bill would allow the states 
to reallocate up to 10 percent of the commercial quota to the 
recreational sector--potentially every year--without approval from the 
Gulf Council.

    3a. How would H.R. 3094 impact your business?

    Answer. H.R. 3094 would allow three individuals to eliminate 10 
percent of my business annually. My profits would drop and my expenses 
would surge until a point 10 years (or, more likely, in less time) 
where my commercial fishing business and my family owned fish house 
would be out of business. I then wouldn't be able to maintain my 
ability to sell bait, tackle, and ice to private recreational fishermen 
and charter captains in my area due to the high cost of rent where we 
are located at Don's Dock in John's Pass. An extremely likely outcome 
of this scenario is that my property would be bought by a developer, 
and this working waterfront would be turned into condos or some other 
development.

    Being forced out of business by this legislation would not only 
hurt me and my wife, but it would also hurt the 50 captains, crew, and 
fish house staff that I employ. Approximately 50 families directly 
depend on the success of my business, and H.R. 3094 would ripple 
through their lives.

    The harm imposed on my business would also resonate with the 
wholesalers that I work with, and my direct fish sales to the public 
that walk Don's Dock in John's Pass and want to buy a red snapper fresh 
from the boat that just landed it. The stability that we've seen in the 
commercial red snapper fishery has cultivated a community of 
individuals and businesses that depend on sustainable access to red 
snapper. H.R. 3094 threatens that community.

    3b. H.R. 3094 states that ``nothing in this Act shall be construed 
to change the individual quota shares currently in place in the 
commercial sector of the Gulf of Mexico red snapper fishery.'' 
Proponents of this bill say that this offers you the protection you're 
looking for. Are they right?

    Answer. No, this language does nothing to protect my business. 
Individual quota shares are a percentage of the larger commercial 
quota. For example, if my red snapper share is 1 percent, then I can 
harvest 1 percent of the commercial quota annually--if the commercial 
quota increases, then the poundage associated with my 1 percent 
increases; if the commercial quota decreases, then the poundage 
associated with my 1 percent decreases. H.R. 3094 could reduce the 
commercial quota by 10 percent every year, which means that my 1 
percent share gets cut by 10 percent every year. Under H.R. 3094, in 10 
years, I would still have a 1 percent share but the commercial 
allocation would be zero. And 1 percent of zero is zero.

    We hear time and time again that the proponents of H.R. 3094 
``don't want to take anything from commercial fishermen'' and that they 
``support the commercial fishery.'' I don't know how they can say this 
with a straight face when H.R. 3094 can literally eliminate 10 percent 
of my business every year.

    If the proponents of this H.R. 3094 really wanted to protect the 
commercial fishery like they claim they do, they would leave us out of 
the legislation completely. There's no good reason to include the 
commercial fishery in H.R. 3094.

    Question 4. With 5 of the 17 voting members and the ability to 
handpick nominees for 11 of the 12 other seats, the Gulf states already 
have enormous influence on the Gulf Council. Why then do they need H.R. 
3094?

    Answer. The Gulf states have direct control over who sits in 16 of 
the 17 voting seats at the Gulf Council. The five Gulf state 
representatives on the Gulf Council do not have term limits, so they 
never have to run for re-election. The remaining 12 voting Members are 
chosen by the governors of each Gulf state every 3 years, and can run 
for three consecutive 3-year terms before having to take a year off. 
That represents nearly 95 percent of the voting power of the Gulf 
Council.

    The Gulf state representatives who publically support H.R. 3094 
claim that their states can manage the Federal commercial red snapper 
fishery better than the Gulf Council can. But we have seen no proposal 
for this, nor have we seen any evidence that this is true. We have seen 
no standards by which these Gulf states will make their fishery 
decisions, nor any business plan for how this new and redundant 
management organization would operate. Furthermore, H.R. 3094 proposes 
to make these major decisions in an environment that is much less 
transparent than the current Gulf Council process.

    What H.R. 3094 would allow the Gulf states to do is to consolidate 
power to manage the entire Gulf of Mexico red snapper fishery into the 
hands of three individuals who are exempting themselves from our 
Federal fishery law (the Magnuson-Stevens Fishery Conservation and 
Management Act) and its fishery rebuilding and conservation 
requirements. We--fishermen, wholesalers, retailers, and the American 
seafood consumers--can't afford to let that happen.

    Question 5. Has rebuilding the Gulf red snapper stock benefited 
Florida? What would happen to the red snapper fishery in your state if 
H.R. 3094 led to a decline in the stock?

    Answer. Strict rebuilding requirements, mandatory accountability 
measures, and a common core of conservation have helped increase red 
snapper quotas to some of the highest levels on record. In fact, 
commercial fishermen in Florida and throughout the Gulf have seen their 
quota nearly triple in less than 10 years, and commercial fishermen in 
Florida are reporting seeing more (and larger) red snapper now than in 
years.

    According to the Southeast Fisheries Science Center, two of the top 
four commercial red snapper fishing communities in the Gulf of Mexico 
are in Florida (Destin and Panama City). And according to the Gulf 
Council, Florida is home to 73 of the 92 fish dealers in the Gulf of 
Mexico (80 percent) that purchased red snapper in 2012--more than 12 
times the number of reef fish dealers than in any other Gulf state.

    Thanks to a rebuilding red snapper stock, fishing businesses are 
profitable again; we have all but eliminated wasteful discarding; the 
flow of fish into the marketplace has stabilized and grown; and fishing 
and shoreside jobs are being promoted in our coastal communities. A 
decline in red snapper would undermine all of the progress we've made 
in this fishery since 2007. It would risk stranding investments that we 
made in vessels and shoreside infrastructure based upon the rebuilding 
red snapper stock and the prospect for constant or increased future 
catches. It would impose costs throughout the seafood supply chain and 
would take red snapper off the plates of American seafood consumers, 
increasing the likelihood that the market fills that gap with 
unsustainably harvested red snapper imports from Mexico.

    Stock declines impose economic, social, and conservation harms on 
the complex seafood community that we have developed, and hurt 
individual businessmen and consumers. H.R. 3094 could easily initiate 
that process given the consistent positions of the Gulf states to 
ignore red snapper science and deliberately set limits in excess of 
what's considered sustainable. We cannot afford to gamble the future of 
our fishery on this shortsighted plan that is being forced down the 
throats of the commercial fishing industry and the American seafood 
consumer.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. DeLaCruz.
    Ms. Bittermann, you are recognized for 5 minutes.

  STATEMENT OF HALEY BITTERMANN, CORPORATE EXECUTIVE CHEF AND 
  DIRECTOR OF OPERATIONS, RALPH BRENNAN RESTAURANT GROUP, NEW 
                       ORLEANS, LOUISIANA

    Ms. Bittermann. Chairman Fleming, Ranking Member Huffman, 
and members of the subcommittee, my name is Haley Bittermann, 
and I am the Executive Chef and Director of Operations for the 
Ralph Brennan Restaurant Group in New Orleans, Louisiana. I 
welcome the opportunity to speak with you today about red 
snapper management in the Gulf, as well as H.R. 3094, the Gulf 
States Red Snapper Management Authority Act.
    The Ralph Brennan Restaurant Group employs approximately 
700 employees in nine restaurants in both Louisiana and 
California. Our restaurants are known worldwide, and serve 
approximately 1 million guests every year. Louisiana's 
restaurants currently account for 203,000 jobs, which equates 
to 10 percent of the private-sector employment, making 
restaurants the largest private employer in the state. Our 
restaurants are projected to register 7.3 billion in sales in 
2015 alone, so preserving access to the resources that keep 
this economic engine running is critical to our state's bottom 
line.
    I am also here representing the restaurant industry and the 
National Restaurant Association, which is the leading business 
association for the industry, comprising 1 million restaurant 
and food service outlets. The industry employs 14 million 
people, about 10 percent of the U.S. workforce, and is the 
Nation's second-largest private-sector employer.
    Millions of tourists visit the Gulf Coast every year, 
seeking our local sustainable Gulf seafood. In fact, National 
Restaurant Association research indicates that, of the top 10 
culinary trends in 2015, locally-sourced seafood ranked first, 
and sustainable seafood ranked eighth.
    Unfortunately, in the Gulf, we have watched a huge number 
of our popular seafood items become import-only or 
recreational-only fish. Red snapper used to be rarely available 
as a fresh fish before the commercial fishery improved its 
management and began the individual fishing quota program in 
2007. Now, I can vouch for the fish being sustainable and wild 
caught and, in some instances, it can even be traceable back to 
the fisherman who caught it.
    Gulf red snapper is currently being managed under a 
rebuilding plan, and commercial fishermen are no longer 
exceeding catch limits. Under this program, restaurants like 
ours can now depend on a steady stream of snapper to fulfill 
our orders during times of peak demand. However, under this 
legislation the successes we are experiencing as a result of 
this Federal program may be completely undone.
    The fishermen I work with are diametrically opposed to 
shifting management authority to the states. This bill could 
allow the reallocation of almost 10 percent per year of red 
snapper away from the commercial sector to the recreational 
sector. History shows us that this is a very real possibility.
    Sustainability of the fishery is another concern I have 
with this legislation, as there is no guarantee that Federal 
sustainability standards will be preserved. This legislation 
relies heavily on a state management regime to solve the 
problems facing private anglers, and experience has shown us 
that this is not always a wise decision.
    For example, red drum, once an important commercial 
fishery, is now almost wholly restricted to recreational 
anglers. In response to concerns regarding overharvesting in 
the late 1980s, the Gulf states designated it as a game fish 
only, thus eliminating it as a menu item for restaurants.
    Now, after nearly 30 years as a game fish in almost all 
Gulf states, the stock has rebounded and recreational catch is 
at an all-time high. Yet commercial fishers remain shut out. 
The Gulf states have shifted the catch to recreational and 
refuse to consider opening it back up. In fact, because of 
this, the only red fish we serve at Red Fish Grill in New 
Orleans is farm-raised.
    At the state level, it appears that the needs of the 
private anglers outweigh those of consumers, restaurants, and 
the seafood community. The current system provides Federal 
oversight to allocation decisions. In addition, the Gulf 
Council represents a cross-section of stakeholders, and Council 
decisions are transparent. We already have a system that 
works--that is why the restaurant community opposes shifting 
the management to the states only.
    Gulf red snapper is an American treasure that should be 
accessible to all, not just those who can afford to fish for it 
themselves. As a recreational fisherman myself, I want to be 
sure it is available for generations to come. I believe that if 
we take a balanced approach to fixing what is broken, which is 
the recreational management, that Louisiana can be both a 
sportsman's paradise and the restaurant capital of the United 
States. We should not have to pick winners and losers.
    Thank you for the opportunity to testify, and I look 
forward to answering any questions you may have.
    [Applause.]

    [The prepared statement of Ms. Bittermann follows:]

 Prepared Statement of Haley Bittermann, Corporate Executive Chef and 
         Director of Operations, Ralph Brennan Restaurant Group
                              introduction
    Chairman Fleming, Ranking Member Huffman, and members of the 
subcommittee, my name is Haley Bittermann and I am Executive Chef and 
Director of Operations for the Ralph Brennan Restaurant Group based in 
New Orleans, Louisiana. I welcome the opportunity to speak with you 
today on behalf of my company and the National Restaurant Association 
on the issue of red snapper management in the Gulf of Mexico, as well 
as on H.R. 3094, The Gulf States Red Snapper Management Authority Act.
     restaurants and red snapper: economic powerhouses in the gulf
    The Ralph Brennan Restaurant Group employs approximately 700 
employees in 9 restaurants in both Louisiana and California. Our 
restaurants are known worldwide and have become a top destination 
serving approximately 1 million guests every year. Like so many 
restaurants across our region, Ralph Brennan's family of restaurants 
results in tens of millions of dollars in positive economic impact 
every year.
    On the whole, Louisiana's restaurant industry generates tremendous 
tax revenues and we provide jobs and build careers for thousands of 
Louisianans. According to the Bureau of Labor Statistics and the U.S. 
Census Bureau, Louisiana's restaurants currently account for 203,100 
jobs in Louisiana which equals 10 percent of the private sector 
employment, making restaurants the largest private employer in the 
state. Our restaurants are projected to register $7.3 billion in sales 
in 2015 which is particularly impactful when considering that every $1 
million spent in Louisiana's restaurants generates an additional 24.6 
jobs in the state. Clearly, preserving access to the resources that 
keep this economic engine running is critical to our state's bottom 
line and red snapper is a big part of that.
    I'm also here today to represent the restaurant industry as a whole 
and the National Restaurant Association. Founded in 1919, the National 
Restaurant Association is the leading business association for the 
foodservice industry, comprising 1 million restaurant and foodservice 
outlets. The industry employs 14 million people--about 10 percent of 
the U.S. workforce and is the Nation's second-largest private-sector 
employer.
    Specifically, as I'm sure you're aware diners today are more and 
more aware of the importance of eating fresh, sustainable, locally 
caught seafood. In fact, National Restaurant Association research 
indicates that of the top 10 culinary trends in 2015, locally sourced 
seafood ranked first, environmental sustainability ranked third and 
sustainable seafood ranked eighth. Gulf red snapper is a key component 
of many restaurants' menus nationwide. Gulf red snapper is an American 
treasure that should be accessible to all, not just those who can 
afford to fish for it themselves.
    Unfortunately in the Gulf we have watched a huge number of our 
popular seafood items become import-only or recreational-only fish. Red 
snapper, on the other hand, used to be rarely available as a fresh fish 
before the commercial fishery improved its management and began the 
individual fishing quota program in 2007. Now I have the opportunity as 
a chef and a business person to not only vouch for the fish being 
sustainable and wild-caught, but in some instances the fish is actually 
traceable back to the fisherman who caught it. As you know, the 
millions of tourists visiting New Orleans and our Gulf Coast every year 
are seeking our delicious local, Gulf seafood. We must find a way to 
protect our commercial harvest of this valuable resource.
        federal management of commercial red snapper is working
    Restaurants and retailers nationwide can feel good about offering 
Gulf red snapper on their menus. Gulf red snapper is currently being 
managed under a rebuilding plan and commercial fishermen are no longer 
exceeding catch limits. Commercial red snapper fishermen have the 
flexibility to fish during times that suit their needs and the needs of 
the market resulting in a safer, more efficient fishery. Under this 
program, restaurants like ours can now depend on a steady stream of 
snapper to fulfill our orders during times of peak demand.
    Under H.R. 3094, the successes we are experiencing in the seafood 
community as a result of this Federal program may be completely undone. 
The fishermen I work with are diametrically opposed to shifting 
management authority to the state authorities. As written, H.R. 3094 
could potentially allow the reallocation of almost 10 percent per year 
of red snapper away from the commercial sector to the recreational 
sector and history shows us that is a very real possibility. 
Alternatively, in the current, federally-managed program, the seafood 
supply chain is provided with business certainty and the knowledge that 
Federal oversight is in place to take a balanced approach to allocation 
decisions.
    Sustainability of the fishery is another concern I have with H.R. 
3094. Under this legislation, there is no guarantee that the successful 
Federal sustainability standards mandated under Magnuson-Stevens will 
be preserved.
    H.R. 3094 relies heavily on a state management regime to solve the 
problems facing private anglers. Unfortunately, past experience with 
state management illustrates that this is not always a wise decision 
when it comes to preserving commercial catch and its availability on 
restaurant menus.
    For example, red drum, once an important commercial fishery along 
the northern Gulf coast, is now almost wholly restricted to 
recreational anglers. This is because the Gulf states, in response to 
legitimate concerns regarding overharvesting of the species back in the 
late 1980s, determined that the best way to preserve the fishery was to 
designate red drum as a game fish only, thus eliminating an important 
menu item for our restaurants. At present, after nearly 30 years being 
designated as a game fish in almost all Gulf states, the red drum stock 
has rebounded and recreational catch is now at an all-time high of 
approximately 16 million pounds, yet commercial fishers remain 
completely shut out. The Gulf states have simply shifted the catch of 
red drum from commercial to recreational and refuse to consider opening 
back up a commercial harvest. In fact, because of this, the only 
redfish we serve at Redfish Grill in New Orleans is farmed.
    Unfortunately, past experience suggests that at the state level, 
the needs of the private anglers outweigh those of consumers, 
restaurants and the seafood community. Under the current Federal system 
for Gulf red snapper as authorized by Magnuson-Stevens Act, the 17-
member Gulf Council represents an equitable cross-section of 
stakeholders, state representatives and fishery experts. Council 
decisions are transparent and carefully scrutinized. In terms of 
commercial red snapper management, we've already got a system that 
works. That's why I and many others in the restaurant community oppose 
shifting management of red snapper to the states only. We are concerned 
the same thing will happen with red snapper as happened with red drum.
                                closing
    After 20-plus years as a chef, I know that customers come to the 
Gulf coast to experience our bounty of delicious, sustainable, Gulf 
seafood--especially the iconic red snapper which is one of our most 
popular dishes. Snapper is part of our heritage and our history and, as 
a recreational fisherman myself, I want to be sure it is available for 
generations to come.
    I oppose H.R. 3094 because it would take red snapper out of the 
Federal management system that has worked so well for those of us in 
the restaurant and seafood industries. I believe that if we take a 
balanced approach to fixing what is broken, which is recreational 
management, that Louisiana can be both a Sportsman's paradise and the 
restaurant capital of the United States. We, and especially the U.S. 
Congress, should not have to pick winners and losers. Thank you for the 
opportunity to testify, and I look forward to answering any questions 
you may have.

                                Red Drum
                                
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               



                                    Year

  Figure 1. Red drum recreational and commercial landings in Gulf of 
Mexico state waters from 1981-2008. Data Source: Dr. Nick Farmer, NMFS-
                     SEFSC St. Petersburg, Florida.

 Questions Submitted for the Record by the Hon. Garret Graves to Haley 
                               Bittermann
    Question 1. You voiced concern over the continuation of a steady 
supply of red snapper and the importance of readily available snapper 
for your business.

    1a. Are you aware that members of the charter/for-hire sector are 
being courted aggressively to lease shares of red snapper from the 
commercial sector to conduct ``Commercial Fishing Experience'' trips?

    Answer. Yes, I am aware of this program and I understand that it is 
an innovative, sustainable way for more Americans to enjoy red snapper 
fishing in the Gulf for longer seasons which, in turn, benefits the 
entire Gulf region. Since the overall commercial quota remains intact 
and our supply remains consistent, this program in no way impacts 
restaurants' ability to source Gulf red snapper.

    Question 2. We understand that this is a program that is being 
endorsed and promoted by NOAA Fisheries, and it allows charter/for-hire 
vessels to take recreational anglers fishing for commercial allocations 
of red snapper. Those customers are charged for the charter trip and 
are then allowed to purchase that red snapper for some pre-determined 
price-per-pound from the fish house upon returning to shore.

    2a. As a chef and a restaurateur, what does this diversion of red 
snapper supply mean to seafood restaurants? How would a bidding war 
with charter vessels and recreational anglers over commercial red 
snapper potentially impact your business?

    Answer. In this question, I would like to take the opportunity to 
clarify a number of points. Congressman Graves asserts that the 
``commercial fishing experiences'' are diverting snapper quota away 
from the restaurants, which is not the case. Because all fish caught as 
part of the commercial quota must be sold back into commerce, our 
overall supply remains the same.

    Under the authority of the Magnuson-Stevens Act, the Gulf Council 
and the Department of Commerce determine the total amount of red 
snapper that can be caught annually and then divide that quota roughly 
in half between commercial and recreational interests. On the 
commercial side, this quota is further subdivided among leaseholders 
via an Individual Fishing Quota (IFQ) system. The commercial fishermen 
who own that quota are then allowed the opportunity to fish for their 
share or, alternatively, lease it out. Under current rules, they are 
allowed to lease this share to charter captains who can take customers 
out to fish for it commercially giving them the ``commercial fishing 
experience'' which has been a hit among tourists and locals alike. Of 
course, since this is commercially caught snapper, it must be sold at 
the dock and put back into the supply chain. The charter customers are 
typically offered an opportunity to buy a small portion of that fish, 
but the majority will be sold, as usual, to the supply chain and is 
then made available to chefs and restaurants like me.

    I see the ``commercial fishing experience'' program as a win-win 
for all involved: It allows tourists who don't own their own boats an 
opportunity to fish for red snapper year-round in a management system 
that is 100 percent accountable while also continuing to provide 
consumers with fresh, Gulf seafood.

    Question 3. Do you believe that saltwater recreational fishing in 
the Gulf of Mexico, including for red snapper, attracts tourists and 
therefore restaurant goers for your business and other area 
restaurants?

    Answer. Yes, I believe that saltwater angling brings tourists to 
the Gulf coast. The business that private angling brings to the Gulf 
Coast is important to our restaurants. The charter-for-hire component 
of the recreational red snapper fishery brings patrons to the Gulf from 
all across the country - anglers who don't own their own boats and 
would otherwise be unable to fish at all. In addition, many tourists 
come to New Orleans for the locally caught seafood we serve in our 
restaurants. In fact, according to the National Restaurant 
Association's 2015 culinary survey of nearly 1,300 chefs, locally 
sourced meats and seafood ranked number one in the top 20 food trends.

    3a. If so, is your business at all concerned by the limited 
recreational fishing opportunities for Gulf red snapper provided by 
Federal management, which is constraining tourism opportunities and 
potential restaurant goers?

    Answer. As a recreational angler myself, I find that opportunities 
available for snapper fishing in state waters are ample. For example, 
Louisiana is opening their fall snapper season November 20 which will 
run 7 days a week until further notice, and Texas has snapper fishing 
in its state waters 365 days a year. However, it is precisely these 
lengthy state snapper seasons combined with a lack of accountability 
and no control on fishing effort that is leading to a shortened Federal 
season. Unfortunately, anglers in state waters are taking more and more 
of the available red snapper, leaving less for the season in Federal 
waters. I would very much like to see all stakeholders come together 
and work collectively on some innovative approaches to managing the 
private angling community in such a way that its participants are given 
more flexibility to fish during times that best suit their needs. 
Suggestions including tags, bag limits, and other accountability 
measures should be part of this discussion.

    3b. If so, in testifying against H.R. 3094, which the states and 
the recreational fishing community believes would provide for better 
recreational fishing opportunities, are you signaling that your 
restaurants are not concerned with attracting the business of resident 
and non-resident recreational fishermen?

    Answer. To say that there are only ``limited recreational 
opportunities for red snapper'' is misleading. In fact, under the new, 
separate Federal charter-for-hire component, anglers are given far 
greater opportunities to fish during a longer season that is the result 
of increased accountability measures and more flexibility regarding 
when this sector's quota can be caught.

    Since less than 10 percent of Americans own their own boats, the 
charter component of our community is hugely important to driving 
tourism and bringing patrons into our restaurants and hotels. For 
example, under the Gulf Headboat Collaborative pilot program, the Gulf 
Council estimated that 32,000 more tourists were given opportunities to 
fish than in previous years.

    Question 4. A study 2013 by Oceana found that 93 percent of seafood 
labeled as red snapper was not in fact red snapper.

    4a. How do you guarantee to your customers that the red snapper you 
are serving at over $30 a plate is in fact sustainably caught Gulf of 
Mexico red snapper?

    Answer. I am familiar with the Oceana study that highlighted 
rampant mislabeling in the seafood industry and I find these statistics 
troubling. Unfortunately, economic fraud in terms of mislabeling for 
species, country of origin and other details were challenges to our 
industry long before the Oceana study was published. The good news is 
that innovative certification programs exist which can guarantee to 
consumers the freshest, most sustainable, accurately labeled seafood in 
the world.

    For example, at Red Fish Grill, my restaurant in New Orleans, we 
buy 100 percent of our red snapper from a program called Gulf Wild. The 
Gulf Wild program represents authentic, wild-caught, responsibly 
harvested, safe and sustainable seafood from the Gulf of Mexico. This 
program provides all its customers with real-time traceability back to 
the original fisherman thus ensuring the authenticity of our wild 
finfish (including red snapper) from the Gulf. Every one of the fish 
sold as part of the Gulf Wild program is given a traceable 
identification number and scannable QR code. With this information, we 
can obtain detailed credentials of every single fish, including who 
caught it, when, from which vessel, and more.

    In addition to Gulf Wild, there are numerous other, voluntary 
certification programs readily available for seafood buyers across the 
Gulf. In Louisiana, we have the Louisiana Wild Seafood Certification 
Program run by the Louisiana Department of Wildlife and Fisheries. This 
program increases consumer confidence by certifying that seafood 
products are wild-caught, taken from Louisiana or Gulf waters, landed 
in Louisiana and handled and processed by licensed Louisiana commercial 
fishermen, dealers and processors.

    In addition, my restaurant Redfish Grill participates in 
Louisiana's catch and cook program. This program allows a guest or 
angler to bring their catch into a restaurant for preparation and 
serving. The voluntary program requires the restaurant to register at 
no cost with the Department of Wildlife and Fisheries for a permit to 
participate in the program. The fish can only be prepared for the guest 
who caught it, and the guest must also sign a full release with the 
restaurant assuming all responsibility and releasing the restaurant of 
any liability. The restaurant can then cook and serve the fish and is 
allowed to charge the price they deem appropriate for preparation and 
handling of this meal.

    As consumer demand for more locally caught seafood continues to 
rise, I anticipate more restaurants across our region will engage with 
programs like Gulf Wild. It gives me great pride to be able to assure 
our patrons at Red Fish Grill that by dining with us, they're 
supporting a strong, sustainable fishery and also bolstering our 
hardworking, Gulf fishermen.

                                 ______
                                 

    Dr. Fleming. Thank you. Thank you, Ms. Bittermann.
    Next and last, but not least, David Cresson, Executive 
Director and CEO of the Coastal Conservation of America (sic).

  STATEMENT OF DAVID CRESSON, EXECUTIVE DIRECTOR/CEO, COASTAL 
        CONSERVATION ASSOCIATION, BATON ROUGE, LOUISIANA

    Mr. Cresson. Thank you, Mr. Chairman, Congressman Huffman, 
and members of the committee. Thank you for having me. My name 
is David Cresson, and I am the Executive Director of the 
Coastal Conservation Association of Louisiana. CCA is the 
Nation's largest conservation group of its kind, with 120,000 
members and 19 state chapters on 3 coasts. I am also an avid 
angler myself, and I fish with my best fishing buddies, my 
three kids, as often as possible.
    On behalf of all CCA members, we would like to thank 
Congressman Graves for recognizing the challenges facing the 
recreational angling community, and for working with the states 
to create a path toward a better situation for all 
stakeholders: commercial, charter-for-hire, and recreational.
    I am not here to denigrate commercial fisheries, nor are we 
advocating for the elimination of commercial fishing. We simply 
want a system that provides appropriate access to the resource, 
something that is sorely lacking in the current management 
system for Gulf red snapper. Currently, almost 75 percent of 
the snapper resource is in the hands of private business. The 
rest of us get 10 days. That is simply unacceptable.
    You have heard praise for the catch share programs being 
used today. And some would have you believe that privatization 
of more than half the red snapper stock is the sole reason the 
stock has recovered. It is not. Recreational anglers are mostly 
responsible for the miraculous recovery of the resource.
    In 2005, a lawsuit brought by concerned anglers forced NOAA 
to finally take action on the badly depressed stock, and called 
for a nearly 80 percent reduction in snapper mortality from 
shrimp trawls. After 30 years of mismanagement and failed 
policy by NOAA, it was recreational anglers who brought about 
change and put the stock in the position it is in today.
    It has been said here that recreational anglers are not 
accountable. Nothing could be further from the truth. It is the 
Federal system that is unaccountable to recreational anglers, 
and has produced results that make no sense. We have been asked 
to come up with a management plan. We have. The states have 
developed and, in some cases, have implemented these plans 
already.
    In Louisiana, in fact, anglers supported a 50 percent 
license fee increase for the sole purpose of enhanced data 
collection through the highly effective LA Creel program. 
Anglers gladly work with the states to develop, pay for, and 
provide information to the state-based programs.
    We trust the states; they listen. They have successfully 
managed species like red fish, speckled trout, bass, flounder, 
black drum, crab, shrimp, oysters, crawfish, catfish, and more. 
The state works to make fishing enjoyable and available, while 
managing for abundance. Meanwhile, the Federal system aims to 
privatize the resource for a select few, and limit access to 
the general public.
    We have been at this for a while. And all we have to show 
for it are a few poorly placed bandages. Please support this 
bill, and let the states do what they have done very well for 
many years: manage their fisheries with great success.
    Thank you, and I am glad to answer any questions.
    [The prepared statement of Mr. Cresson follows:]
   Prepared Statement of David Cresson, Executive Director, Coastal 
 Conservation Association Louisiana on behalf of Coastal Conservation 
  Association, American Sportfishing Association, Center for Coastal 
  Conservation, International Game Fish Association, National Marine 
   Manufacturers Association, The Billfish Foundation, and Theodore 
                   Roosevelt Conservation Partnership
    Thank you Mr. Chairman, Congressman Huffman and members of the 
committee. My name is David Cresson and I am the executive director for 
the Louisiana chapter of Coastal Conservation Association. CCA was 
established in 1977 and is the largest marine resource conservation 
group of its kind in the Nation, with more than 120,000 members in 19 
state chapters along all three coasts. Comprised of recreational 
anglers and concerned conservationists, CCA has been active in state, 
regional and Federal fishery issues ranging from forage species at the 
bottom of the marine food chain to pelagic, apex predators at the top. 
CCA's advocacy philosophy seeks to promote both the proper conservation 
of marine resources and the availability of those resources to the 
general public.
    The commitment of anglers, and indeed of all sportsmen and women, 
to act as stewards of the wildlife resources they cherish is at the 
heart of the North American Wildlife Conservation Model, which is built 
on the premise that all fish and wildlife are held in public trust and 
belong to the people--not designated individuals for personal gain. 
That is actually the first tenant in the North American Model, which 
has seven principal tenants in all.
    The North American Model has produced tremendous conservation 
victories in this country, most notably in waterfowl and inland 
fisheries. In case after case, Congress, and the states, recognized 
that placing a dollar value on a wild animal all too often drives 
harvest past sustainable levels. It was a lesson that relegated 
commercial harvest of ducks, geese and buffalo to a historical footnote 
in this country many decades ago, in many cases saving species from 
extinction. However, the lessons learned on land and in our Nation's 
freshwaters so many years ago seem to have been disregarded when it 
comes to industrial harvest of marine resources in Federal waters. This 
stark philosophical contrast is at the heart of ongoing management 
dysfunction in the marine environment.
    That being said, I am not here to rail against commercial 
fisheries. The majority of recreational anglers are not advocating for 
the elimination of commercial fishing, despite many in that industry 
attempting to muddy the water with claims to the contrary. We simply 
want a system of management that provides appropriate access to the 
resource and nowhere is such a system more lacking than in Gulf of 
Mexico red snapper. Federal management dysfunction of red snapper in 
the gulf continues to push recreational fishing away from the extremely 
successful North American Model and toward schemes meant to limit the 
public's access to abundant public resources in public waters.
    At a Gulf of Mexico Fishery Management Council in August in New 
Orleans, a comment was made by a commercial harvester advocating for 
limiting access for anglers that recreational red snapper fishing needs 
to be managed according to a plan like duck hunting. Ironically, 
recreational fishermen would be much happier if snapper were managed 
like ducks, where state and Federal wildlife managers share information 
and set remarkably consistent seasons and limits according to long-term 
population trends, not simply on best-guesses about harvest effort 
based on outdated information. Notice there isn't a congressional 
hearing every 6 months or so on how to fix duck hunting? That's because 
the system works for its stakeholders. In Louisiana, duck hunters have 
had 60-day seasons for 20 straight years. Over that same period, 
Federal seasons for red snapper have changed a dozen times, reduced 
from year-long access in 1996, when the population was beginning to 
recover, to just 10 days this year despite snapper populations being at 
what is likely an all-time high. One of the reasons given by NOAA for 
these shortened seasons is that the fish are so abundant they are too 
easy to catch. In no other fisheries or game management system is 
abundance used as a reason to shorten seasons and restrict access. But, 
somehow Federal fisheries managers justify it for Gulf red snapper.
    This year's season got even more complicated by sector separation. 
Again, using duck hunting as a model, it would be absolutely unfair and 
absurd for the U.S. Fish and Wildlife Service to tell hunters they get 
10 days to duck hunt Federal Wildlife Management Areas if they go on 
their own but if they hired a guide to take them to those exact same 
lands they could hunt four times longer. Yet, that's exactly what 
happened with red snapper this year because of sector separation, a 
policy shoved through the Gulf Council and supported by NOAA despite 
opposition from every Gulf state fisheries agency and the overwhelming 
majority of anglers in the region. The Gulf Council held a meeting in 
Baton Rouge in August 2014 to gather public input on sector separation. 
Approximately 200 attended and those opposed to sector separation 
outnumbered those in favor 10-1. Gulf wide, according to figures 
provided by the Gulf Council, comments submitted to the Council were 
even more one-sided in opposition to sector separation with more than 
96 percent of the nearly 3,000 comments submitted to the Council Web 
site opposing. The Council was even advised by its own reef fish 
advisory committee to not divide the season. The Council still divided 
the season.
    It's disappointing, but the sector separation vote and the support 
for sector separation by NOAA staff was not a surprise. Gulf Council 
meetings have become free-for-alls for badmouthing recreational 
fishermen with Council members, commercial fishing interests, 
environmental groups and now a small but vocal group of charter 
captains accusing anglers of irresponsibility with the resource, a lack 
of accountability, selfishness and any number of other unfounded 
accusations. More irony--most of the accusers are selfishly making the 
case that they should be in control of their own individual quota of a 
public resource rather than having access for all fishermen. And, the 
commercial, charter and environmental special interests on the Council 
are now trying to push through additional efforts to expand and make 
privatization of red snapper and other fish permanent, another affront 
to the North American Model.
    NOAA regional staff points fingers too, accusing anglers of being 
too difficult to work with, unwieldy and unwilling to come up with a 
workable plan for snapper management. To NOAA's credit, in 2014 it 
heeded the advice of organizations like CCA, The American Sportfishing 
Association, Theodore Roosevelt Conservation Partnership, National 
Marine Manufacturers Association and others to develop its first-ever 
national policy on saltwater recreational fishing. But as NOAA was 
working with anglers to write the policy with guiding principles like 
``expanding fishing opportunities based on conservation gains and 
understanding and addressing factors affecting angler participation and 
satisfaction,'' NOAA Southeast Regional Staff was voting for sector 
separation at the Gulf Council, a move that severely limits fishing 
opportunities despite conservation gains and increases the already-
pervasive dissatisfaction and distrust recreational fishermen have with 
Federal management.
    Recreational anglers are a force for conservation at the state 
level. They have stepped up to build world-class hatcheries and worked 
with universities to build world-class science centers. They have 
raised hundreds of thousands of dollars for law enforcement equipment 
and other support for state game wardens. They have been the driving 
force behind habitat projects ranging from marsh restoration and oyster 
shell recycling programs to offshore artificial reefs.
    In addition to the license anglers buy just to go fishing, every 
time we purchase a package of hooks, a fishing rod, reel, lure, tackle 
box, depth finder, trolling motor, fuel for our fishing boat and other 
supplies we gladly pay an excise tax that goes into a fund called the 
Sport Fishing and Boating Trust Fund. The majority of those funds go 
back to the states for fisheries conservation, angling and boating 
access and boating safety. And, 18.5 percent of that fund is dedicated 
to a program called the Coastal Wetlands Program. In 2015 alone, that 
18.5 percent equates to around $112 million going to on the ground 
projects to conserve and restore coastal habitats. In the last two-plus 
decades, that money has helped rebuild and sustain more than 100,000 
acres of coastal wetlands in Louisiana. It's part of the American 
System of Conservation Funding --paid for solely by anglers and 
boaters--and it's the lifeblood of the North American Model.
    Anglers have taken on these challenges because we have gladly 
accepted the responsibility of being stewards of the resource. Gulf 
anglers regularly ask state agencies to reduce creel limits when stocks 
show signs of decline or are affected by weather or other environmental 
factors. Gulf-coast anglers also led the charge in the 1980s to end the 
use of destructive fishing gear like gillnets and purse-seines that 
were decimating speckled trout and redfish stocks, pushing these iconic 
species to the brink of collapse.
    The angling community is also largely responsible for the 
miraculous recovery of Gulf red snapper. In 2005, a lawsuit brought by 
concerned anglers forced implementation of arguably the single most 
significant action in the history of red snapper management. After 
years of inaction by NOAA Fisheries and a relentlessly depressed red 
snapper stock, a Federal judge finally ordered a 79 percent reduction 
in red snapper mortality from shrimp trawls. After almost 30 years of 
failed policies and half-measures, this landmark decision finally set 
the stage for the incredible recovery in red snapper stocks that we are 
seeing today. Indeed, information presented by the Gulf Council 
consistently reflects an almost meteoric rise in Gulf red snapper 
populations beginning in 2005, coinciding exactly with the reduction in 
shrimp trawl bycatch mortality.
    Anglers are accountable as well despite the accusations to the 
contrary. Anglers in Florida asked the state to institute a saltwater 
fishing license in 1989 to help better account for angling effort and 
generate revenue specifically dedicated to conservation, science and 
management. In 2014, Louisiana anglers successfully backed a bill to 
increase their license fees from $15.00 per year to $22.50 specifically 
to better account for angling effort and increase and improve data 
collection and science. And, anglers in all five Gulf states are 
working with their state fisheries management agencies to develop 
better accounting systems like Florida's Gulf Reef Fish Survey, 
Alabama's Snapper Check Reporting Program and Louisiana's LA Creel 
Program.
    Anglers gladly work with the states to help develop, pay for and 
contribute information to these state-based programs because they are 
state-based. Recreational fishermen trust the states. The states very 
successfully manage recreationally important species like redfish, 
speckled trout and largemouth bass. The states very successfully manage 
mixed-sector species like sheepshead, flounder, black drum and blue 
crabs. And, the states very successfully manage commercially vital 
species like shrimp, oysters, crawfish and wild catfish. Recreational 
fishermen confidently know that when they have concerns, the states 
will listen and work with them because states understand the economic 
and cultural value of both recreational and commercial fishing. And, 
the states work to make fishing an enjoyable experience for families 
and friends, providing ample opportunity to access the resource while 
conservatively managing fish and game for abundance. Meanwhile, the 
Federal approach in the Gulf is pointing to privatization of the 
resource, less access and yielding to the will of a small group of 
special interests determined to force anglers to hire guides to access 
the fish and limit time for family and friends to enjoy the resource.
    We've been in Washington and in courts fighting over Federal 
management of red snapper for far too long and the fundamental problems 
aren't getting fixed--only poorly bandaged, creating more problems. 
It's time to rip off the band aid and fix this system. A good way to 
start is to let the states do what they've done very successfully for a 
host of other fish and game, both recreationally and commercially, and 
manage red snapper in the Gulf of Mexico.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Cresson. All of this talk about 
crab and fish is making my stomach growl.
    [Laughter.]
    Dr. Fleming. We are going to take a recess to go vote. It 
will take us about an hour. We will be back, and we will then 
get started with questions. Thank you.
    [Recess.]
    Dr. Fleming. Well, we have finished voting, so we return. 
We thank you for your patience and indulgence, panel, for 
staying around. I know we have a couple of Members who may have 
to leave before we are done. So, we will wish you safe travels 
when you leave, but we want you to stay as long as you can.
    At this point we will begin asking questions, and I now 
yield myself 5 minutes.
    Ms. Bittermann, you have made mention of the fact that 
there have been some fish that have not remained commercially 
available. My concern, of course, is that New Orleans, which is 
really kind of the gateway of culture and many things for 
Louisiana, and all the great restaurants that we have--
certainly one of the Brennan restaurants that you work at, and 
the many others that are notable that have been in families for 
well over a century--these are the kind of things that draw 
people to Louisiana.
    So my concern is--and we have lost fish sustainability in 
certain species before--my concern is going forward. So, would 
you like to expand on the concern that we may have that, by 
expanding private angler fishing, recreational fishing, what 
has happened under that type of management, state management, 
in terms of sustainability for commercial use, and certainly 
availability in restaurants for consumers?
    Ms. Bittermann. Well, thank you very much for that 
question, Congressman. In my experience, and from my 
perspective in our industry, as you said, people come to New 
Orleans to eat the great seafood that comes out of the Gulf of 
Mexico. In the past we have seen fish species go away for 
commercial fishing, which also affects the restaurants, species 
like the red drum and the speckled trout.
    I think that it seems like when they go away, when the 
allocations change, that they do not come back. And eventually, 
they are not available for the commercial fisherman, which 
means they are not available to the restaurants or to the 
general public. So I think that is my fear, is what is going to 
happen. Will this continue to happen?
    Dr. Fleming. Sure. The other thing I would, again, maybe 
just throw this out to our witnesses and get comments--under 
the five-state plan, is it possible that as few as three of the 
states in the plan can declare a state--for instance, 
Louisiana--non-compliant, and recommend the Secretary of 
Commerce close fishing down entirely? Yes, go ahead.
    Mr. DeLaCruz. Yes, that is exactly what it is. So if it 
closes for one sector, it closes for both, the way the plan is 
written now. So even if one sector is working within their 
boundaries, and doing everything they probably can, but one 
sector goes over, and the determination is made by the group, 
then that entire state gets shut down.
    Dr. Fleming. I see. Any others who would like to comment on 
that?
    Mr. Jarvis. When you have five voting members and you only 
need three votes to dictate what takes place in the management 
process, there is a level of politics that may not be part of 
the public process, and three state directors get together to 
make things work better for their three states at the expense 
of two others. I have grave concerns that that could take place 
on a variety of issues under this bill.
    Dr. Fleming. Right. Now--oh, yes, go ahead.
    Mr. Zales. If you have one state that the other states are 
going to say is not compliant, I would suggest that that state 
must be non-compliant, according to the data that is available, 
so they probably need to be shut down. If you remain within 
your perimeters, then you should not have any problem. I cannot 
imagine three states saying somebody is out of compliance, if 
they are not.
    Dr. Fleming. But couldn't the logic be applied to the 
current situation today under the Gulf Council, under the 
Federal program, that there has been a sharp drop in the number 
of fishing days? One could make the same argument in support of 
that, as well.
    Mr. Zales. Yes, and I have kind of upset some of the state 
directors in the past by making the comment that I am fixing to 
tell you--the National Marine Fisheries Service has not only 
the right, but the obligation under MSA to pre-empt when a 
fishery is being overfished outside the perimeters of the 
Fisheries Service guidelines.
    So, where the Fisheries Service has come in and said all 
the states are non-compliant, the Fisheries Service has allowed 
them to be non-compliant. They could have gone in and pre-
empted at any time. They have not done it. You hear about Texas 
all the time. Texas could have been pre-empted years and years 
ago. You would not have had the excess there.
    Dr. Fleming. OK. Thank you. And my time is up. I recognize 
the Ranking Member for 5 minutes.
    Mr. Huffman. Thank you, Mr. Chairman. Just finishing on 
that last point, Mr. Zales, you are right. Under Magnuson-
Stevens there is that backstop of Federal authority that can 
kick in. But if this bill were to pass in its current form, 
that Federal backstop would not exist. Correct?
    Mr. Zales. That is not my understanding of the reading of 
the bill. My understanding of the reading of the bill is that 
you still have the fisheries or the MSA umbrella in charge of--
--
    Mr. Huffman. That is not my reading. It would be entirely 
dependent on an act of this new five-party authority. So I 
think that is probably worth a careful look by you and all 
other stakeholders, and worth your consideration.
    Captain Jarvis, I understand you may need to leave us soon, 
so I am going to focus my questions on you. We have heard a lot 
of complaints from Gulf states about short recreational 
possession seasons in Federal waters. As you know, states have 
been increasingly lengthening their seasons in state waters. 
Texas has a 365-day keeper season, Louisiana 286, Mississippi 
108, and down the line.
    How does state non-compliance with Federal regulations 
impact your business?
    Mr. Jarvis. As Federal permit holders, we have to be held 
to the higher standard of Federal regulations. Included in that 
Federal regulation is 30B, which was instituted by the Gulf 
Council in 2008 or 2009. It required that we had to fall under 
the Federal season, regardless of the state action. So, from 
that point forward, every time the states start extending their 
season, it was like a nuclear option to us.
    Our fishing access started being reduced at a great rate, 
and that is part of the reason we were able to get industry 
support for amendment 40, pulling ourselves out of that 
environment in 2014, prior to amendment 40 being passed. The 
charter-for-hire sector caught 21 percent of the resource and, 
prior to that, for over 26 years, we were averaging 62 percent 
of the resource. So, as soon as the state water loophole came 
into effect, the American public that do not own boats, but 
access the fishery on our federally-permitted vessels, started 
to be squeezed out of the fisheries.
    Mr. Huffman. All right. And just to flip that around, if 
states had tried to align more closely with the Federal 
standards, in terms of setting their season, bag limits--if 
they were to even go further with accountability measures, 
things like slot limits to protect the bigger fish so we can 
more quickly achieve our rebuilding goals, what would that mean 
for the Federal season determinations in Federal waters? 
Presumably, they would be longer, right, and more flexible?
    Mr. Jarvis. Thank you for the question, Congressman. That 
is exactly right.
    We hear about the 11-day season, but we have not heard 
about the 365-day season. So private recreational anglers 
really got a windfall with the state non-compliance. If those 
states would have been compliant, I think, if I remember 
correctly, the Federal recreational season for private-boat 
anglers would have been close to 30 days this past season in 
2015. It was the fact that most of that allocation of harvest 
was being done in state waters that reduced their fishing days 
to only 11.
    So, in essence, in Florida, they got 11 days of Federal 
water fishery, but they also got a 70-day season in state 
waters. So, in actuality, they got an 81-day season.
    Mr. Huffman. Right. And I just want to ask you about the 
fishing experience, because there has been a suggestion that 
parents cannot take their kids out to catch red snapper in the 
Gulf of Mexico. My sense is, first of all, in state waters that 
is not true. Second of all, even in Federal waters, yes, it is 
true, you are not going to keep those snapper unless they are 
within the designated season and bag limit, but you can still 
fish.
    So, just talk to me about the fishing experience out there. 
Are there other types of snapper, grouper, other things that 
you could be fishing for, while just releasing the snapper that 
you may happen to catch? What is the fishing experience like, 
even with these restricted Federal rules in place?
    Mr. Jarvis. It is real apparent, especially in the summer 
time, that people are going to fish, whether red snapper are 
open or closed. There are over 27 reef fish species in the Gulf 
of Mexico, so there is plenty to fish for. Even when we had a 
situation this year where amberjack, gag grouper, triggerfish, 
and red snapper were closed, there was still angling 
opportunity. What you find, though, is that it just makes it 
more difficult, maybe, to get your targeted species if you are 
trying to catch grouper or vermilion snapper, and you have the 
bycatch mortality release.
    The key ingredient, as far as the private boat and the 
charter-for-hire experience, the main biomass of these fish are 
outside of these state waters. So if a state decides to make 
their anglers fish the majority of the time in state waters, 
and not give them maximum opportunity in Federal waters, it 
actually reduces their enjoyment and their ability to catch a 
larger fish, or a trophy fish, and that kind of thing. So, it 
is almost like they are penalizing them.
    In the state of Florida, only the northern part of the 
state has a 9-mile fishery. So 17 counties in Florida actually 
have no 9-mile fishery at all with the state non-compliance.
    Dr. Fleming. Thank you. Mr. Graves is recognized.
    Mr. Graves. Thank you, Mr. Chairman.
    Captain Jarvis, I know you need to take off. I am going to 
ask you a few questions, as well. I am having trouble 
connecting dots here. So, you are saying that the state non-
compliance shows irresponsible management on the part of the 
states, and that you are concerned that same irresponsible 
management may carry over if they are given jurisdiction over 
the Federal waters, as well. Is that an accurate synopsis of 
what you are trying to say?
    Mr. Jarvis. Thank you for your question, Congressman. I 
would not call it irresponsible management. Those states felt 
that they could give their anglers an opportunity in state 
waters to fish. In our state, that decision of how many days at 
the meetings was not really based in science. Most state waters 
cannot take a season of these durations.
    Mr. Graves. OK. So let's take that statement, that these 
state waters cannot take a season of that duration.
    Now, I am going to realign from one of the letters that the 
groups that you are affiliated with have been sending out. In 
fact, in 2015, red snapper quotas in the Gulf of Mexico saw 
their largest 1-year increase on record. Now, how is it that 
the states--my words--being irresponsible on the management of 
their fisheries, yet we are actually seeing a record increase 
in snapper quotas in Federal waters? Those two things do not 
seem to line up correctly. Or, I guess, they just do not seem 
to make a whole lot of sense to me.
    Let me ask something else. I was looking at your 
restaurants, and you have some phenomenal menus, by the way. I 
am anxious to go eat. OK. So, Brotula's, did I get that right?
    Mr. Jarvis. Yes.
    Mr. Graves. I found one thing that is really interesting on 
this menu. You have a number of fish on here. I am guessing 
some of this is drum or sheepshead, but I do not see any red 
snapper on the menu. But I will tell you what I see on the menu 
is actually Dungeness crab.
    Mr. Jarvis. Yes, sir.
    Mr. Graves. A species that is managed by states on the West 
Coast.
    Now, why is it that the West Coast can manage their 
Dungeness crabs? Why is it that the East Coast states can 
manage the striped bass? Why is it that Alaska can manage their 
salmon, but it is only the Gulf of Mexico states that are 
unable to do this responsibly?
    Mr. Jarvis. Thank you for the question, Congressman. In our 
restaurants, we serve only IFQ red snapper and grouper. We also 
serve other, what we call bycatch fish, caught from the Gulf of 
Mexico--trigger fish, amberjack, bearded brotula, the name of 
the restaurant, which is a deepwater fish. Our Brotula's 
happens to be a seafood house and steamer, and part of the 
steamer experience is using snow crab, king crab, Dungeness 
crab. So we access--we really take pride in the fact--and, 
because I am a fisherman--that we serve----
    Mr. Graves. I am running out of time. I have some other 
questions, but I am just trying to understand. So you have 
sustainable supplies of Dungeness crab, to where you can put it 
on the menu, but you do not have red snapper on the menu.
    Mr. Jarvis. Sir, we do have red snapper. It is called pan-
crusted snapper. It is on our menu every day. It is on our 
permanent menu.
    Mr. Graves. I will go back and look again, but I looked 
through it twice and----
    Mr. Jarvis. It is a wonderful dish.
    Mr. Graves. I will take a look again and see if I can find 
it. But I did not see it on here when I looked through a couple 
of times.
    Now, let me go back. Let's see, one other thing. You 
mentioned your charter boat business. I referenced earlier that 
I think it was 72 percent of the federally-licensed charter 
boat captains in the Gulf--I believe that was the stat--
actually support state management. Why are you in a different 
spot?
    Mr. Jarvis. In Venice, Louisiana, I have a lot of friends 
that operate out of there. They are mainly a blue-water 
fishery, concentrating on tunas, wahoos, and the offshore 
species. The reef fish complex is just a bycatch fishery for 
them when they have a tough day if the tunas do not bite. A lot 
of those guys in the Venice Marina are not engaged in this 
whole red snapper controversy, because it is not all that 
important to them, unlike in my fleet, or in the Orange Beach 
Charter Boat Association, or the Mississippi Charter Boat 
Association, or the entire Texas fleet, where red snapper is a 
staple of our business, sir. So that is the difference, 
probably, in that deal.
    I think it was pointed out that some of the questioning, 
how the survey questions were laid up, it may have an impact--
--
    Mr. Graves. The Louisiana charter boat folks have actually 
been active, and have come and met with me a number of times, 
and they are advocating for this. So, I do not think they are 
on the sidelines, or not paying attention to this. They are 
actually very much engaged, and very concerned about this. I 
think it is important to note that.
    Mr. DeLaCruz, you made some mention of how the Gulf states 
voted to take away snapper from commercial folks. I did not 
understand that comment, and I am wondering if you can clarify 
that.
    Mr. DeLaCruz. At the last Gulf Council--actually, two Gulf 
Council meetings ago--there was a vote on amendment 28. And 
even though the methodology and the science that was used in 
that process, they had not completely vetted, the vote was to 
push to remove 5 percent, or the swing all together was 3\1/2\ 
percent, over to the recreational sector.
    The vote was really very clear across party lines. All the 
states voted in that direction without unequivocal doubt. As a 
matter of fact, the Council itself, being the fact that all the 
Council members are actually picked by state governors, is 
controlled almost solely by the states. So it kind of breeds 
the question as to why is this even necessary, if the Council 
already has a good enough control over----
    Mr. Graves. We are out of time, but I am more than happy to 
talk about the ratios and makeup of the Gulf Council. I think 
it would be a very informative decision and I think you know 
the answer to that, actually. But----
    Dr. Fleming. OK. Mr. Scott, 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. And, ma'am, you said, 
you know--picking winners and losers. Well, with all due 
respect, as a dad, I am the loser. You know, we are down to 10 
days. There is not much else you can take from us. So we are 
either going to be able to fish together, or we can shut down 
the whole fishery, as far as I am concerned. But you know, we 
ought to be working together.
    Unfortunately, what has been taken from us has gotten to 
the point there is nothing else to take from us. So, it seems 
that it is fine if we go fish and kill the fish, as long as I 
am willing to pay somebody else to take me. But I cannot be the 
one that teaches my kids, like my granddad taught me and my 
dad, and we cannot just enjoy that time together by ourselves. 
We have to pay somebody else to do it.
    So, the catch shares system, Mr. Zales, I want to ask you 
about this, because you stand to personally gain financially, 
as the commercial fishermen did, the ones who ended up with the 
quotas. It is a license to create revenue from the government 
that nobody ever paid for. My opinion is it should have been 
auctioned off, just like oil rights, timber rights, or anything 
else. If I am willing to pay $5 a pound for it, and somebody 
else is only willing to pay $4, I should be able to buy the 
poundage and catch it with my family.
    But you are still opposed to this, even though you would 
personally benefit financially to what is happening with the 
Gulf Council, and you actually support the legislation. Would 
you speak to that issue a little bit?
    Mr. Zales. Yes. And, real quick, if I could answer the 
thing about the 3 percent shift in allocation. The Fisheries 
Service, in their data system, 2 or 3 years ago they did a 
study and they determined that people actually land fish after 
3 o'clock in the afternoon. When they did that, they had to go 
back over time and re-adjust the landings from recreational 
data to commercial. The difference in the current allocation 
between commercial and recreational in the Gulf for red snapper 
is based on people actually harvesting fish after 3 o'clock in 
the afternoon for many, many years.
    But to your point----
    Mr. Scott. Can I ask you that--and what we call harvesting 
is actually bringing the fish back to shore. The one that I 
catch, kill, and feed Flipper----
    Mr. Zales. In other words, up until 2 years ago the 
Fisheries Service did not think people fished after 3 o'clock 
in the afternoon. I always have.
    But getting to the point about the quota thing--in 2000, I 
think it was, a lady by the name of Pam Baker, who was with the 
Environmental Defense Fund at the time, came to several of us 
throughout the Gulf and suggested that we join in to a concept 
of community-based quota systems that would work with forming a 
board--for Panama City they would get a certain share of the 
quota. A board would be developed with people like me sitting 
on the board, and then we would determine how that quota would 
be allocated. That was where this whole thing has kind of 
evolved.
    At the time, it sounded good for somebody like me that, OK, 
well, I am going to benefit greatly. But the people that are 
around me--some of them friends, some of them not--they are not 
going to benefit. Some of them are going to be put out of 
business, some of them are going to lose. And I couldn't see, 
because I believe in the fair market system--I will compete 
with Gary any day of the week, side by side, on booking trips. 
But as far as having somebody say, ``OK, well, this person is 
going to be given this amount,'' that then gives them an unfair 
advantage over me, which I would be one of those people to have 
the unfair advantage. I do not see the purpose in that. To me, 
it is just not right, it is not fair. So I do not support it.
    Mr. Scott. Thank you for standing up for the rights of 
Americans that just want to fish. And you can laugh all you 
want to. I mean the bottom line is that this is about money, 
guys. That is all you all want. It is OK for me to go fish, as 
long as you get paid for it.
    Mr. DeLaCruz, when you were allocated your catch shares, 
did you have to pay for them?
    Mr. DeLaCruz. As a matter of fact, I did.
    Mr. Scott. Did you?
    Mr. DeLaCruz. I actually was a very small participant in 
the fishery. I bought my first reef fish permit in 2006, when I 
was commercially spearfishing.
    Mr. Scott. You bought a permit, though. Did you----
    Mr. DeLaCruz. I bought the Federal reef fish permit. It is 
a limited-access permit, so it had a certain amount of value. 
It was about $8,000 or $9,000, and that permit was going to 
allow me to catch about 1,500 pounds of fish a year.
    I had to invest in the fishery, so I took out a second 
mortgage on my house, like any person in the world that is 
going to invest in a business does, and I went out and 
pursued----
    Mr. Scott. I am going to ask real quick. What is 15,000 
pounds--snapper sells for about $4 a pound, right?
    Mr. DeLaCruz. Well, no, no, no. I did not get 15,000, I got 
1,500 pounds, and it was not snapper----
    Mr. Scott. Fifteen hundred pounds.
    Mr. DeLaCruz [continuing]. It was a mixture of fish across 
the thing. By the time that I had moved into the fishery, there 
actually was no snapper already allocated, it was grouper. So 
if you want to place a value on that, I promise you that the 
value that I spent was a lot more than what that permit was 
worth.
    Mr. Scott. But today it trades per pound, right?
    Mr. DeLaCruz. Yes, it trades--exactly. There is an 
allocation of assessed value, but it depends on whether you do 
that. I land most of those fish on the boats that I own. So 
myself, and then other people that fish for me, just like any 
other business.
    Mr. Scott. But a high net worth recreational fisherman 
could go out and buy a commercial license and could buy 
commercial poundage, and could effectively go fish whenever he 
wants to. But the guy who is working on the assembly line, he 
is just out of luck.
    Mr. DeLaCruz. Well, the guy working on the assembly line in 
Ohio is completely out of luck, because the only way he gets 
that product is when I send it to him. And he gets it about 9 
days a year----
    Mr. Scott. Nobody is trying take what you are doing away--
--
    Mr. DeLaCruz. It is the same exact thing.
    Mr. Scott. Nobody is trying to take what you are doing away 
from you, we are trying to get a reasonable fishing season 
back.
    Mr. DeLaCruz. Well, the reasonable fishing season could be 
achieved in other manners.
    Mr. Scott. The reason we have a 10-day season is because of 
the lawsuit that you filed.
    Dr. Fleming. Somehow I am going to regain control here.
    [Laughter.]
    Dr. Fleming. Well, the gentleman's time is up, but if 
Members would like to have another 5 minutes each, and the 
panel is willing, we will be happy to have another round.
    I have no further questions, so I will yield to Mr. Graves 
for another 5 minutes.
    Mr. Graves. Great. Thank you, Mr. Chairman. I appreciate 
it.
    It has been interesting, listening to folks talk about the 
importance of the fishery, the habitat and species, and 
sustainable management, overfishing, and all those things. Can 
you tell me--I would like to just, very briefly, have each one 
of you tell me something that you have done to improve the 
habitat, to improve the fishery, investments you have made, 
projects you have been involved in--could you all go through 
and explain those?
    Mr. DeLaCruz. On the 15 boats that fish in my fishery, I 
have 4 boats that have a video monitoring system. We are 
working with Mote Marine Laboratories in Sarasota to actually 
try to understand our bycatch mechanisms, and how that happens, 
and how we can evolve it, and to see if we can actually move 
video monitoring into a full-scale system. It is actually the 
second time I have done it. I had it on four boats, then we 
changed the system and I moved it to three boats.
    I also have four boats right now that I am working with 
NOAA specifically on that actually have electronic log books, 
where we are tracking our landings by spot, each and every 
spot, to develop a better understanding of what the carrying 
capacity is in the Gulf. The biggest toll on those stock 
assessments is we do not actually know how much bottom is 
usable to maintain the stock. So, we are helping solve that 
problem with both of those.
    Mr. Graves. All right. Others? Let's go. Yes, sir--oh, I am 
sorry, Ms.----
    Ms. Bittermann. At Red Fish Grill, one of our restaurants 
in New Orleans, which uses a lot of seafood, we have been 
working with the Gulf Wild Program, with the red snapper, so 
that we can actually trace it back to the fisherman who has 
caught it, and which boat it came off of.
    Mr. Graves. To the fisherman. OK.
    Ms. Bittermann. Yes.
    Mr. Graves. Other folks? Very quickly, because I have a 
couple other questions.
    Mr. Jarvis. I can tell you that fishermen across the 
country have supported taxes on themselves, on their tackle, on 
their gear that they buy--a lot of money--in the tune of $1.5 
billion to go back into habitat work and fishing enhancement 
projects around the country. So fishermen support the 
betterment of habitat all across the country through these very 
significant taxes.
    Mr. Cresson. Yes, Mr. Congressman, that is the point I was 
going to make, as well; we support the Fish and Boating Trust 
Fund that we all support and advocate for every year to make 
sure that we still have that funding coming back for 
conservation of the states. And I have been up to my knees in 
mud many times.
    Mr. Graves. I understand. Thank you.
    Ms. Bittermann, I met with the Louisiana Restaurant 
Association folks, and I find this whole just paradox that we 
are in interesting, because when I met with them, we had a 
great meeting. The restaurant guys talked about how the Federal 
Government--Department of Labor, specifically--is imposing all 
sorts of labor standards that are incredibly problematic and 
expensive. We talked about tax and depreciation issues--I think 
it was 219, or whatever it was--talked about Obamacare, the 30-
hour work week, and the problems associated with that. Some of 
the wage mandates were the things that were discussed.
    I do not remember--and, look, we sat down, had a lengthy 
discussion. I talk to Stan and a lot of your board members 
often. I do not remember a single thing coming up in regard to 
problems the state had. It was all major problems with the 
Federal Government. The Federal Government was making decisions 
that they had no business making, because they did not 
understand the conditions on the ground, they did not 
understand what it was like to own a business.
    Yet, in this case, I find you in an entirely different 
perspective, in that you are standing here saying that you want 
the Federal Government to be involved. You want them to be 
involved in managing this fishery and this species. Can you 
reconcile that, versus the state?
    Ms. Bittermann. Yes, sir. Thank you for the question, 
Congressman.
    I would tell you, in this instance, that we have seen the 
management of the snapper fishery rebuild it, as we have seen 
in the past when the fishery has not been managed--for 
instance, for red fish, where it was overfished, and 
overharvested, and then became unavailable for commercial----
    Mr. Graves. Which, I think it is important to note that, 
based on the information I have seen, the data I have seen, the 
overfishing and the lopsidedness came from the commercial side, 
not the recreational side in regard to the fishing.
    Ms. Bittermann. Yes, sir. But I think that what you have 
seen with the red snapper is that the management of the fishery 
has worked. And, maybe, if they had had that management with 
red fish back in the late 1980s, then it would not have been 
over-harvested, and we would still be serving wild-caught red 
fish in our restaurants.
    Mr. Graves. Let me ask you a question. Under our bill, can 
the quotas or can the percentages--can the poundage for the 
commercial be increased, or can it only be decreased?
    Ms. Bittermann. I am sorry, sir. Are you asking me?
    Mr. Graves. Yes, I am.
    Ms. Bittermann. I do not think I can answer that question.
    Mr. Graves. Mr. DeLaCruz, can you answer that question?
    Mr. DeLaCruz. Yes. It could definitely be increased, if the 
stock assessment was there. But one of the things that keeps 
getting missed in this conversation, is the fact that most of 
the state data collection is the input into the stock 
assessment, and the stock assessment process happens with 
oversight from state biologists. The head of the FWC sits on 
the committee that does the stock assessment for red snapper. 
So our state is already vehemently involved. So, we are 
building a bill here that does not----
    Mr. Graves. Mr. DeLaCruz, we had hearings in this committee 
last year and the year before, where folks sat here and 
acknowledged that the surveys that were being used to inform 
the fisheries management did not even include survey 
assessments around reef structures.
    Mr. Cresson, would you care to comment on that? Also 
comment on the other earlier comment by Mr. DeLaCruz on the 
Council vote. All the accuracy to stock assessments.
    Mr. Cresson. Well, the fact is that the state science is 
light years better than the Federal science. And the Federal 
Government has acknowledged that. The states know it.
    So, back to the original--there was a comment earlier about 
how the state seasons may have affected our eventual Federal 
season. In Louisiana, for instance, in the lengthened state 
season, we still did not hit the projected catch that the 
Federal Government used to set our 9-day season.
    So, to your original--therefore, the state has now given us 
a few extra days in Louisiana because, even in 100-and-some-odd 
days, we did not get to the 800,000 pounds they projected we 
would catch in 9 days in Louisiana.
    The bottom line is that everybody recognizes that the data 
is bad, that the Federal science is no good. It is part of why 
the reallocation happened two meetings ago. It is not because 
anybody was begging for more fish, it is because they 
recognized themselves that it needed to be reallocated, because 
the data that they used to set it in the first place was wrong. 
And that is it.
    Mr. Graves. Thank you. Mr. Chairman, I want to thank you. 
In closing I just want to say this. What this bill does is it 
does exactly what is being allowed on the East Coast, it is 
being allowed in Alaska, it is being allowed on the West Coast. 
Louisiana is just as trustworthy--and I would actually say 
better resource managers, in some cases, than these other 
states are. To discriminate against the state of Louisiana is 
ridiculous.
    I want to say this. All of you sitting in the room, you 
have great ideas on how to do this, I told you. The protections 
we have in there for commercial, I made them up because I could 
not get any feedback from you. You have better ideas on how to 
do it? Door is wide open, the phone works. Give me a call, 
shoot me an email.
    We have the top commercial fisheries in the United States. 
We are one of the top tourist destinations. Your boss, Ralph 
Brennan, is a good friend of mine. I appointed him to a board 
when I was working for the state. I have no desire to shut down 
tourism or restaurants, or anything else.
    But, I will also say the current management regime for the 
recreational fishery is absolutely unacceptable. We can find a 
better balance, and we can tailor the management strategy among 
the five states in a way that benefits both sides.
    Thank you, Mr. Chairman.
    Dr. Fleming. OK. The gentleman yields back. I want to thank 
the witnesses----
    Mr. Graves. Can I ask unanimous consent that five letters 
from each of the five Gulf states endorsing the legislation be 
included in the record of the hearing?

    [No response.]
    Dr. Fleming. Without objection, so ordered.

    [The letters submitted by Mr. Graves for the record 
follow:]

                                  STATE OF ALABAMA,
        Department of Conservation and Natural Resources,  
                                  Montgomery, Alabama 36130

                                                 September 23, 2015

Hon. Garret Graves
U.S. House of Representatives
204 Cannon House Office Building
Washington, DC 20515

    Dear Representative Graves:

    On behalf of the Alabama Department of Conservation and Natural 
Resources (ADCNR), I am pleased to support H.R. 3094, the ``Gulf States 
Red Snapper Management Authority (GSRSMA) Act.''

    Red snapper is one of the most valuable recreational and commercial 
fisheries to the State of Alabama. Orange Beach, Alabama, is well-known 
as the ``Red Snapper Capital of the World.'' Even though Alabama has 
less than 5% of the Gulf of Mexico coastline, more than 30% of all red 
snapper caught in the Gulf of Mexico are landed in Alabama. The 
management of this most sought after species is of the utmost 
importance to our State. We have worked diligently through the Gulf of 
Mexico Fisheries Management Council and the National Marine Fisheries 
Service to sustainably manage red snapper. However, the current federal 
management system is not working.

    The federal data collection methods currently being utilized, as 
well as the red snapper stock assessments and management strategies, 
have resulted in shorter and shorter seasons at the time when our state 
scientists, fisheries managers and fishermen feel that the stock is 
recovered and growing. Along with our counterparts in Mississippi, 
Texas, Florida and Louisiana, Alabama is confident that the five Gulf 
states have the ability to provide the data collection and assessments 
needed to better manage this fishery and improve access for anglers 
while maintaining a viable commercial red snapper fishery. The Marine 
Resources Division of ADCNR is in close contact with the recreational, 
charter and commercial fishermen on our coast and can better assess the 
needs of the fishery and respond accordingly to ensure access while 
sustainably managing this most valuable fishery.
    Thank you for your work on this issue. I look forward to continuing 
to work with you, Representative Bradley Byrne from Alabama and the 
other members of Congress to provide relief to our fishermen and better 
sustainable management of the red snapper fishery.

            Sincerely,

                                        N. Gunter Guy, Jr.,
                                                      Commissioner.
 Florida Fish and Wildlife Conservation Commission,
                                       Tallahassee, Florida

                                                     August 6, 2015

Hon. Garret Graves
U.S. House of Representatives
204 Cannon House Office Building
Washington, DC 20515

    Dear Representative Graves:

    On behalf of the Florida Fish and Wildlife Conservation Commission 
(FWC), I am pleased to support H.R. 3094, the ``Gulf States Red Snapper 
Management Authority (GSRSMA) Act.''

    The Gulf of Mexico is one of America's great natural resources. 
Tourists from the United States and the rest of the world flock to the 
Gulf of Mexico to enjoy everything it has to offer: world-class 
fishing, beautiful beaches, great food, and diverse wildlife.

    Unfortunately, fishing for red snapper in the Gulf of Mexico is 
becoming more and more challenging for all parties involved because of 
the manner in which red snapper is being managed. This uncertainty and 
challenging environment is leading to increasingly more dissatisfaction 
for all.

    GSRSMA is a step in the right direction for anglers and 
conservationists. By joining together with our colleagues in Texas, 
Louisiana, Mississippi, and Alabama, FWC believes the five states in 
the Gulf of Mexico are better equipped to manage the red snapper 
fishery, to establish and meet conservation goals based on sound 
scientific data, and to respond faster to the needs of all anglers.

    Representative Graves, thank you for your leadership on this issue. 
FWC looks forward to working with you, Congressman Jeff Miller, your 
colleagues in Congress, and our colleagues along the Gulf to advance 
this legislation.

            Sincerely,

                                                Nick Wiley,
                                                Executive Director.

                                 ______
                                 

                                STATE OF LOUISIANA,
                    Department of Wildlife and Fisheries,  
                               Baton Rouge, Louisiana 70898

                                                     August 7, 2015

Hon. Garret Graves
U.S. House of Representatives
204 Cannon House Office Building
Washington, DC 20515

    Dear Representative Graves:

    On behalf of the Louisiana Department of Wildlife and Fisheries 
(LDWF), I am pleased to support H.R. 3094, the ``Gulf States Red 
Snapper Management Authority (GSRSMA) Act.''

    Red snapper is an iconic American fish--it is well-known and 
appreciated by both residents and visitors of Louisiana, whether it is 
on the end of an angler's line or on a diner's plate at one of our fine 
restaurants. Both recreational and commercial fisheries for red snapper 
are extremely important to our economy and way of life. We should take 
great care in managing these fisheries for the benefit of all users. We 
should strive to have sound data to guide our management decisions and 
seek out solutions to ensure our fisheries are ecologically and 
economically sustainable.

    As such, we are especially troubled with the current management of 
Gulf red snapper, namely management of the recreational fishery, as it 
continues to face challenges due to inadequate data and an inflexible, 
unresponsive management framework. The GSRSMA Act would address these 
challenges. Along with our colleagues in Texas, Mississippi, Alabama, 
and Florida, LDWF is confident the five Gulf states have the necessary 
tools to provide the data needed to better manage red snapper 
fisheries, improving access for recreational anglers while maintaining 
a viable commercial fishery. We are also more receptive and responsive 
to the wants and needs of our constituents while still addressing Gulf-
wide conservation goals.

    Representative Graves, we appreciate your leadership on this issue. 
LDWF looks forward to working with you, your co-sponsors and colleagues 
in Congress, and our colleagues along the Gulf to advance this 
legislation.

            Sincerely,

                                             Robert Barham,
                                                         Secretary.

                                 ______
                                 

                              STATE OF MISSISSIPPI,
              Mississippi Department of Marine Resources,  
                                  Biloxi, Mississippi 39530

                                                 September 24, 2015

Hon. Garret Graves
U.S. House of Representatives
204 Cannon House Office Building
Washington, DC 20515

    Dear Representative Graves:

    On behalf of the Mississippi Department of Marine Resources (MDMR), 
I am pleased to support H.R. 3094, the ``Gulf States Red Snapper 
Management Authority (GSRSMA) Act.''

    Red snapper is a valuable recreational and commercial fishery in 
Mississippi. We have worked diligently through the Gulf of Mexico 
Fisheries Management Council and the National Marine Fisheries Service 
to sustainably manage red snapper. However, the current federal 
management system is not working or at best working too slow.

    The federal data collection methods currently being utilized, as 
well as the red snapper stock assessments and management strategies, 
have resulted in shorter and shorter seasons at the time when our state 
scientists and fisheries managers believe the stock is recovered and 
growing. I am confident the five Gulf States have the ability to 
provide the data collection and assessments needed to manage this 
fishery and improve access for anglers while maintaining a viable 
commercial red snapper fishery. The MDMR hosted a Red Snapper Summit in 
May of 2014 and have remained in contact with the recreational, charter 
and commercial fishermen to ensure access while sustainably managing 
this most valuable fishery.

    Thank you for your work on this important issue. I look forward to 
continuing to work with you, Representative Steven Palazzo from 
Mississippi and the other members of Congress to provide our fishermen 
the best opportunities and access to this valuable fishery.

            Sincerely,

                                           Jamie M. Miller,
                                                Executive Director.
                            Texas Parks & Wildlife,
                                        Austin, Texas 78744

                                                   October 20, 2015

Hon. Garret Graves
U.S. House of Representatives
204 Cannon House Office Building
Washington, DC 20515

Re: H.R. 3094--Gulf States Red Snapper Management Authority Act

    Dear Congressman Graves:

    As Chairman of the Texas Parks and Wildlife Commission, I write to 
express my strong support for H.R. 3094, a proposed amendment to the 
Magnuson-Stevens Fishery Conservation and Management Act, for the 
purpose of transferring to the states of Alabama, Florida, Louisiana, 
Mississippi and Texas, the responsibility and authority to manage red 
snapper fisheries in the Gulf of Mexico.
    Recent history has demonstrated that management of red snapper 
fishing in federal waters has been uncertain, arbitrary and has not 
been based upon sound science. Although the numbers of red snapper have 
dramatically increased in recent years, federal management has led to 
inequities and has made it difficult for the states to manage state 
waters. There can be little question that the current system has failed 
and caused significant dissatisfaction among red snapper anglers.
    The proposed bill is a positive step that in my view, will be 
supported by conservationists interested in this fish. H.R. 3094 would 
require each of the five states to establish a science-based fishery 
management plan and then submit that plan for approval by each of the 
other four states. I believe that the state agencies who work with this 
fish in these waters are better equipped to manage the fishery and to 
establish and pursue conservation goals founded on scientific data. 
Each of the states is also able to move quickly when necessary to 
respond to any challenges that may arise in the fishery.
    I look forward to working with you and your colleagues in Congress 
and our counterparts in the other four Gulf states, regarding this 
important bill. The mission of the Texas Parks and Wildlife Department 
is to manage and conserve the natural and cultural resources of Texas 
and to provide hunting, fishing and outdoor recreation opportunities 
for the use and enjoyment of present and future generations. I am 
excited about this bill and believe that it provides the best assurance 
that present and future generations of snapper anglers will enjoy 
improved red snapper fishing in the future.

            Sincerely,

                                           T. Dan Friedkin,
                                                          Chairman.

                                 ______
                                 

    Dr. Fleming. I want to thank the witnesses today, and 
Members and staff.
    Look, folks, this is a controversial issue. It has been 
controversial for some time. There are certainly some points of 
agreement. Number one is that we all want sustainability of the 
species. We want good management. We want good science. These 
are things that we all agree with. I hope that we agree that we 
want to keep all three sectors strong: the private anglers, the 
recreational people; the charter boat people, they have to have 
a minimum number of days in order to stay viable, as a business 
model; and, of course, the commercial fishermen, who are 
supplying our restaurants, which is so important.
    Again, it is my hope, and certainly dream, for working as 
Subcommittee Chairman for a number of years now, that we can 
come together in a common solution.
    But I do thank you for the work. We have had plenty of 
hearings in the past, I am sure we will have more. You are 
welcome back any time. Under Committee Rule 4(a), the hearing 
record will be held open for 10 business days for any responses 
that you may have to additional questions that we may provide 
to you in writing.

    Therefore, without objection, we are adjourned.

    [Whereupon, at 5:25 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                          
                          
                          October 16, 2015

Hon. John Fleming, Chairman,
Hon. Jared Huffman, Ranking Member,
House Subcommittee on Water, Power and Oceans,
Washington, DC 20515.

    Dear Chairman Fleming and Ranking Member Huffman:

    The Fishing Community Coalition (FCC) is an association of 
community-based, small-boat commercial fishing groups, representing 
more than 1,000 independent fishermen and business owners from Maine to 
Alaska, who share a commitment to the sustainable management of 
America's fishery resources. The FCC was formed to strengthen and unify 
the individual voices of our member organizations.
    Our fishermen work tirelessly to promote marine stewardship and 
thriving commercial fisheries within their communities and the FCC 
seeks to translate these regional efforts into a cohesive approach to 
achieving sustainable fisheries nationwide under the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA). That's why the FCC 
strongly opposes H.R. 3094--the ``Gulf States Red Snapper Management 
Authority Act'' (Act)--as it would exempt this fishery from the science 
and conservation requirements of the MSA.
    All of our organizations have witnessed the successful recovery of 
fisheries in our own regions under the MSA, which requires managers to 
establish reasonable catch limits and accountability measure to prevent 
overfishing and ensure stocks rebuild in a timely manner. Under the MSA 
a total of 37 stocks have been successfully rebuilt and less than 10 
percent of the nation's assessed fish stocks are now subject to 
overfishing. These successes were achieved through a science-based, 
transparent process involving all stakeholders, including communities 
of fishermen. We understand that the future of our nation's fisheries, 
as well as the fishermen and businesses they support, depends on 
maintaining commitments to end overfishing and rebuilding depleted 
stocks.
    H.R. 3094 is a short-sighted and misguided effort to eliminate 
community participation in management decisions in order to prioritize 
near-term gains over the long-term success of the fishery. The plan 
undermines existing successful management plans for the commercial and 
charter sectors, and fails to provide sufficient detail on how the 
fishery would be better managed by the Gulf states and what measures 
would be taken to prevent sufficient transparency and end overfishing 
in the future. In fact, H.R. 3094 would allow nearly 10% of the 
commercial fishery to be eliminated each year, and while the Act 
proposes to keep commercial red snapper shares ``intact'' it does 
nothing to protect the commercial allocation upon which the shares are 
based. This uncertainty threatens the sustainability of the stock as 
well as the livelihoods of the fishermen and communities that depend on 
access to this fishery.
    Adoption of H.R. 3094 would also set a dangerous precedent for 
fisheries management across the nation by allowing a group of states to 
circumvent the core national conservation principles of the MSA in 
order to placate a single interest group. Nationwide, our organizations 
have worked constructively with sport and charter fishermen to ensure 
sustainable access for all fishermen and that fish stocks are not 
overfished because all fishermen, fishing communities and fishing 
business depend on robust fisheries.
    As members of the FCC, we urge you to oppose this blatant effort to 
place one user group's interests over all others. The MSA established 
an open, inclusive management process to balance the interests of all 
user groups in allocation decisions. The law requires that decisions be 
fair and equitable so as not to disadvantage any particular group. H.R. 
3094 is anything but fair and equitable as we believe it will result in 
significant harm and would open the door for complete elimination of 
the commercial red snapper fishery in the coming years.
    Thank you for your consideration. We appreciate your show of 
support for fishing dependent communities nationwide by opposing this 
ill-conceived plan.

            Sincerely,

                          The Fishing Communities Coalition

        Linda Behnken                 John Pappalardo
        Executive Director            Chief Executive Officer
        Alaska Longline Fishermen's 
        Association                   Cape Cod Commercial Fishermen's 
                                      Alliance

        Ben Martens                   Shannon Carroll
        Executive Director            Fisheries Policy Director
        Maine Coast Fishermen's 
        Association                   Alaska Marine Conservation 
                                      Council

        Eric Brazer
        Deputy Director
        Gulf of Mexico Reef Fish 
        Shareholders' Alliance

                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
   
   October 19, 2015

Hon. John Fleming, Chairman,
Hon. Jared Huffman, Ranking Member,
House Subcommittee on Water, Power and Oceans,
Washington, DC 20515.

    Dear Chairman Fleming and Ranking Member Huffman:

    The Gulf of Mexico Reef Fish Shareholders' Alliance (Shareholders' 
Alliance) is a non-profit organization that represents the interests of 
commercial reef fish fishermen and other stakeholders in the Gulf of 
Mexico. By working closely with regional managers, state agencies, and 
federal representatives, we strive to stabilize and improve fishery 
management to ensure that we can continue to provide the American 
public with a sustainable source of domestically-caught Gulf of Mexico 
seafood. Everything we do is founded in our belief that conservation 
and stewardship protect fish populations and fishermen's businesses.
    On behalf of the Shareholders' Alliance, please accept the attached 
documents that showcase our strong opposition to H.R. 3094--Gulf States 
Red Snapper Management Authority Act:

  1.  A July 2015 press statement from the Shareholders' Alliance 
            opposing the multiple proposals attempting to legislate 
            state management of red snapper in the Gulf of Mexico.

  2.  An April 2015 press release from the Shareholders' Alliance 
            opposing this concept as it was announced.

  3.  An April 2015 commercial fishing organization sign-on letter 
            coordinated by the Shareholders' Alliance with over 40 
            commercial fishing organizations from throughout the United 
            States opposing this move and the federal precedent it 
            sets.

    H.R. 3094 is a threat to our fishing businesses, fishery jobs, and 
the fishing communities of the Gulf of Mexico. We also believe H.R. 
3094 will jeopardize the strong rebuilding we've seen in the red 
snapper fishery in recent years. It creates loopholes that will 
undermine our businesses to the point where the commercial fishery 
could actually be eliminated, and raises questions of transparency, 
accountability, enforcement, and funding. The Gulf states do not have 
the best long term interests of commercial fishermen or seafood 
suppliers at heart, and we therefore ask to remain under federal 
management. Please do not advance this controversial, ill-advised, and 
precedent-setting proposal.

    Thank you for your consideration of our position.

            Sincerely,

                               Eric Brazer, Deputy Director
                    Gulf of Mexico Reef Fish Shareholders' Alliance

Attachments

                                 *****

                              Attachment 1

   Official Statement of the Gulf of Mexico Reef Fish Shareholder's 
                                Alliance

       State Management of the Gulf of Mexico Red Snapper Fishery

The Gulf of Mexico Reef Fish Shareholders' Alliance (Shareholders' 
Alliance) and the commercial fishermen and women we represent stand 
strong in supporting the sustainable federal management of our nation's 
commercial red snapper fishery. We are able to build stable, long-term 
business plans; we live within sustainable limits; and we can provide 
the American seafood consumer with sustainable, fresh, Gulf of Mexico 
red snapper. The commercial red snapper management plan is working.

That's why we cannot support any legislative attempt to strip the 
commercial red snapper fishery away from federal mangers and turn it 
over to the Gulf states. This plan, developed by the fishery directors 
of the five Gulf states in a secret backdoor meeting without any 
fishermen allowed in the room, threatens to eliminate the commercial 
red snapper fishery and the of tens of thousands jobs it supports in 
order to bring fresh red snapper to your plates.

Our federal fisheries law, the Magnuson-Stevens Conservation and 
Management Act (MSA), requires that sustainable fishing limits be 
identified and adhered to, conservation be promoted and that unhealthy 
fish stocks be rebuilt to healthy levels. It is these protections that 
have helped bring red snapper back to some of the highest levels in 
recent history. Turning the commercial red snapper fishery over to the 
Gulf states through an act of legislation will allow them to undermine 
our federal fisheries law and sidestep these conservation protections. 
Over forty commercial fishing organizations from throughout the Nation, 
representing thousands of commercial fishermen and tens of millions of 
pounds of commercially important seafood, support us as we work to 
protect our businesses and consumer access to red snapper.

Legislating state management, whether in the form of Congressman 
Graves' proposed amendment to the MSA reauthorization (H.R. 1335), 
Congressman Graves' stand-alone amendment, Senator Vitter's ``Gulf 
States Red Snapper Management Authority'' Act (S. 105), or any other 
similar acts of lawmaking, is the wrong answer for fish and fishermen 
in the Gulf. We have an existing process for developing fishery 
solutions in the Gulf of Mexico and that's done with a Congressionally-
approved, stakeholder-driven, transparent Gulf of Mexico Fishery 
Management Council (Gulf Council). In fact, the Gulf Council is working 
on a state management plan right now, and the five Gulf states fishery 
directors are members of this Gulf Council. Let's create regulations 
where they're intended to be created--through a transparent, public, 
and accountable process; not behind closed doors and then imposed by 
politicians.

If state management is the right solution for private anglers, it 
should be established under federal law, promote conservation, and 
refrain from destabilizing our commercial businesses. Helping private 
recreational red snapper fishermen doesn't have to come at the expense 
of hurting hard working commercial fishermen and our families.

        The Gulf of Mexico Reef Fish Shareholders' Alliance is a non-
        profit organization that represents the interests of commercial 
        reef fish fishermen and other stakeholders in the Gulf of 
        Mexico. We work hard to maintain accountability and 
        conservation-based management for our region's fisheries for 
        today and future generations. By working closely with regional 
        managers, state agencies, and federal representatives, we 
        strive to stabilize and improve fishery management to ensure 
        that we can continue to provide the American public with a 
        sustainable source of domestically-caught Gulf of Mexico 
        seafood. Everything we do is founded in our belief that 
        conservation and stewardship protect fish populations and 
        fishermen's businesses.

                      www.shareholdersalliance.org

For press inquiries, please contact: Eric Brazer, Deputy Director
Gulf of Mexico Reef Fish Shareholders' Alliance
(919) 451-1971/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aecbdcc7cdeeddc6cfdccbc6c1c2cacbdcddcfc2c2c7cfc0cdcb80c1dcc9">[email&#160;protected]</a>

                                 *****

                              Attachment 2

FOR IMMEDIATE RELEASE
April 28, 2015

Commercial Fishermen Throughout the U.S. Oppose Gulf States Red Snapper 
                                Takeover

(Galveston, TX): Commercial fishermen throughout the United States have 
stood up and opposed the plan by the Gulf of Mexico state managers to 
take over red snapper management and eliminate the commercial quota 
system.

``It's incredible the response we've gotten,'' said Buddy Guindon, 
Executive Director of the Gulf of Mexico Reef Fish Shareholders' 
Alliance based in Galveston, TX. ``From Alaska to Maine, California to 
South Carolina, our brother and sister commercial fishermen have united 
around this issue and see it for what it is--a precedent-setting 
backdoor means by the recreational lobby to reallocate this fishery, 
undermine federal laws, and take fish away from seafood consumers.''

Forty-two commercial fishing organizations, representing thousands of 
commercial fishermen and tens of millions of pounds of commercially 
important seafood, signed onto a letter drafted by the Shareholders' 
Alliance which states, ``The implications of such a takeover are far-
reaching and set a dangerous precedent for our region and others--over 
97% of the more than 300,000 million Americans get their access to fish 
and shellfish by purchasing it in restaurants, grocery stores, and fish 
markets that we supply. We cannot support this plan in the Gulf because 
we would not support it at home.''

``This isn't just a Gulf issue, it has national implications,'' said 
John Pappalardo, CEO of the Cape Cod Commercial Fishermen's Alliance 
based in Chatham, MA. ``We stand with the Gulf fishermen and oppose 
this dangerous plan that will destroy small American `mom and pop' 
businesses.''

According to an announcement, representatives from the five Gulf States 
met in a closed-door off-the-books meeting in New Orleans where they 
developed a plan to take over management of red snapper in the Gulf of 
Mexico and eliminate the commercial individual fishing quota (IFQ) 
system. The management responsibility, currently held by the Gulf of 
Mexico Fishery Management Council and National Marine Fisheries 
Service, would be turned over to a yet-to-be-developed group called the 
Gulf States Red Snapper Management Authority, and would consist of 5 
individuals, one from each Gulf State, that propose to operate outside 
of U.S. federal fisheries laws and sustainability policies. Each Gulf 
State would be responsible for management of their own waters out to 
200 nautical miles, and would be in charge of creating the science and 
data to use for their management. Funding for this program would be 
siphoned from existing federal programs.

For press inquiries, please contact: Eric Brazer, Deputy Director
Gulf of Mexico Reef Fish Shareholders' Alliance
(919) 451-1971/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcd9ced5dffccfd4ddced9d4d3d0d8d9cecfddd0d0d5ddd2dfd992d3cedb">[email&#160;protected]</a>
Website: www.shareholdersalliance.org

                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        
        
        
        October 20, 2015

Hon. John Fleming, Chairman,
Hon. Jared Huffman, Ranking Member,
House Subcommittee on Water, Power and Oceans,
Washington, DC 20515.

    Dear Chairman Fleming and Ranking Member Huffman:

    We represent commercial and charter fishermen in the Gulf of Mexico 
and throughout the United States, and write to you today to voice our 
unified opposition to H.R. 3094 (Gulf States Red Snapper Management 
Authority Act).
    Every year tens-of-millions of Americans enjoy fresh caught seafood 
from their favorite restaurants and grocery stores, and millions of 
tourists travel to the coasts for a day of fishing on charter boats. 
Fish and shellfish are public resources, and our four fishing industry 
organizations work hard to provide your constituents and the rest of 
the American public with sustainable access to the bounty of the Gulf 
of Mexico and other coastal regions of the nation. Here's who we are:

    <bullet> The Charter Fisherman's Association (Corpus Christi, TX) 
            represents charter captains from Texas to Florida that 
            works to ensure American public access to fishing, to 
            engage and represent the Charter for Hire industry, and to 
            ensure long-term sustainability of our fisheries.

    <bullet> The Gulf Fishermen's Association (Clearwater, FL) is the 
            largest organization of offshore fishermen in the 
            Southeastern U.S., with members in Texas and Florida, that 
            strives to put healthy, sustainable seafood on America's 
            table.

    <bullet> The Gulf of Mexico Reef Fish Shareholders' Alliance 
            (Galveston, TX) is an organization of commercial reef fish 
            fishermen and other stakeholders from Texas to Florida that 
            strives to stabilize and improve fishery management to 
            ensure that we can continue to provide the American public 
            with a sustainable source of domestically caught Gulf of 
            Mexico seafood. Everything we do is founded in our belief 
            that conservation and stewardship protect fish populations 
            and fishermen's businesses.

    <bullet> The Seafood Harvesters of America (Washington, DC) is a 
            broadly based national organization that represents 17 
            commercial fishing organizations from the Gulf of Alaska to 
            the Gulf of Maine south to the Gulf of Mexico. The 
            Harvesters strive for accountability in our fisheries, 
            encourage others to do the same, and speak out on issues of 
            common concern that affect the U.S. commercial fishing 
            industry, the stewardship of our public resources and the 
            many millions of Americans who enjoy seafood.

    Together, our organizations and the thousands of fishermen we 
represent have embraced science and management tools that promote 
conservation and sustainable fishing practices, reduce wasteful 
bycatch, operate safer and more stable small businesses, and protect 
fishing and shoreside jobs. We strive for sustainability, 
accountability, and access to some of the world's best seafood; and we 
do so through active and progressive campaigns that bring fishermen, 
stakeholders, and regulators together to solve problems.
    H.R. 3094 poses a clear and imminent threat to our jobs, our 
fishing communities, and the red snapper resource that we have helped 
rebuild to some of the highest levels on record. Here's why we cannot 
support H.R. 3094 and any other similar legislation:

    <bullet> H.R. 3094 creates loopholes that will erode the commercial 
            red snapper fishery and access to red snapper by millions 
            of American consumers. Commercial management of red snapper 
            in the Gulf is a success story--overfishing was stopped, 
            wasteful discarding was all-but-eliminated, and fishing 
            businesses and jobs are profitable and stable. This is all 
            due to the core conservation and management protections 
            that are afforded to us under federal law (the Magnuson-
            Stevens Conservation and Management Act). Turning this 
            fishery over to the Gulf states strips us of these 
            protections and we have unanimously opposed this proposal 
            every time it appears. We want to also point out that H.R. 
            3094 allows the Gulf states to take away nearly 10% of the 
            commercial quota every year without conferring with the 
            Congressionally approved and stakeholder-comprised Gulf of 
            Mexico Fishery Management Council (Gulf Council). This 
            doesn't just hurt commercial fishermen, it impacts the 
            public because commercial fishermen don't keep what they 
            catch--it goes to American seafood consumers who purchase 
            red snapper from restaurants and grocery stores. To add 
            insult to injury, H.R. 3094 deceives the public by claiming 
            it will not change the individual fishing quota (IFQ) 
            shares in this fishery. However, those who developed this 
            language fail to point out that the ``shares'' are a 
            percentage of the whole commercial allocation, and that any 
            reduction in commercial allocation will reduce the quota 
            associated with the shares.

    <bullet> H.R. 3094 undermines the management of the charter fishery 
            and access to red snapper by millions of recreational 
            fishermen who don't own a boat. Charter fishermen strive to 
            run successful small businesses and have spent years 
            working toward management solutions with the Gulf Council 
            that give them stability and the flexibility they need 
            under federal fishery laws and conservation guidelines. 
            These federally-permitted vessels operate in federal 
            waters, and have been near-unanimous in their vocal support 
            for federal management--they do not want to be managed by 
            the Gulf states. They have worked too hard to build a 
            better federal management system for their sector to have 
            the rug pulled out from under them by H.R. 3094.

    <bullet> H.R. 3094 removes essential transparency and public input, 
            and fails to provide necessary information. The language in 
            this bill was hatched from a plan that was developed by the 
            five Gulf state fishery directors in a secret meeting with 
            no fishermen informed or present. Rather than run this 
            proposal through the Gulf Council--which is made up of 
            fishery stakeholders and is legally required to allow for 
            public input and review--the proposal is being imposed on 
            the fishermen by Congress. This sounds like government 
            overreach to us. In addition, through H.R. 3094, management 
            authority for red snapper caught between the beaches of the 
            Gulf of Mexico and the 200 nautical mile exclusive economic 
            zone would be concentrated into the hands of 3 Gulf state 
            fishery directors. Furthermore, H.R. 3094 only requires 
            this new body to report performance to the Secretary of 
            Commerce once every 5 years, whereas the current federally-
            managed commercial fishery can be publically evaluated 
            daily. H.R. 3094 also fails to explain how the fishery 
            would be enforced, how the public will be allowed to 
            participate, and how this plan would be funded.

    <bullet> H.R. 3094 fails to protect and continue to rebuild the red 
            snapper population. Federal law clearly lays out how 
            unhealthy fisheries must be rebuilt to healthy levels using 
            accountability measures and catch limits, and identifies 
            the timeline by which this should happen. H.R. 3094 fails 
            to explain how it will promote conservation and the long-
            term health of the red snapper resource. It only vaguely 
            refers to ``necessary measures'' and ``proper management'' 
            that would be implemented to rebuild the fishery.

    <bullet> Gulf of Mexico private recreational anglers have not 
            proposed management system improvements for their own 
            fishery that would extend their fishing season. Gulf 
            commercial and charter red snapper fishermen developed 
            alternative management and catch reporting systems that 
            have allowed them to extend their seasons without taking 
            red snapper allocations from other fishing sectors. Instead 
            of trying to steal red snapper allocations from the 
            commercial and charter fishing sectors, private 
            recreational anglers should develop their own management 
            and reporting alternatives that would allow them to extend 
            their season as well.

    <bullet> H.R. 3094 is a controversial, ill-advised, unfunded, and 
            precedent-setting measure that would ripple from the Gulf 
            of Mexico to Alaska and New England. Over 40 commercial 
            fishing organizations from throughout the U.S. have signed 
            on opposing this plan to sidestep federal fisheries law and 
            undermine the commercial red snapper fishery in the Gulf of 
            Mexico. This is about more than red snapper--it's about 
            protecting the small businesses that deliver our nation's 
            seafood to the American consumer and providing sustainable 
            access to this public resource to the millions of Americans 
            who don't own a boat. This Bill undermines the Magnuson-
            Stevens Act and could set a dangerous national precedent 
            that could unravel the successes of this landmark piece of 
            legislation.

    State management of red snapper is not the right solution for 
commercial and charter fishermen and they should not be forced into 
this form of regulation. If the private red snapper angler wants to be 
managed by the Gulf states, then let's do it the way it's supposed to 
be done--through the Congressionally approved Gulf Council, with a 
public and transparent stakeholder-driven process, under federal 
conservation requirements, and with the support of the private 
recreational fishermen themselves. H.R. 3094 is not the answer, and we 
hope you consider voting against this proposal.

    Thank you very much for your time and thoughtful consideration of 
our position.

            Sincerely,

        Shane Cantrell, Exec. 
        Director                      Buddy Guindon, Exec. Director
        Charter Fisherman's 
        Association                   Gulf of Mexico Reef Fish 
                                      Shareholder's Alliance

        Glen Brooks, President        Brett D. Veerhusen, Exec. 
                                      Director
        Gulf Fishermen's 
        Association                   Seafood Harvesters of America

                                 ______
                                 

Hon. John Fleming, Chairman
House Subcommittee on Water, Power and Oceans
1324 Longworth House Office Building
Washington, DC 20515

    Dear Chairman Fleming:

    We write to you today as a unified group of commercial fishing 
organizations and seafood suppliers from throughout the United States 
that are concerned with what we see unfolding in the Gulf of Mexico. 
Specifically, we strongly oppose the push by the five Gulf states to 
take possession of the red snapper fishery through a legislative 
exemption to the Magnuson Stevens Act. This action sets a dangerous 
precedent for fishermen like us throughout the United States and the 
conservation measures we need to protect our fisheries.

    According to the most recent report of fisheries economics of the 
United States, commercial fishermen in the U.S. harvested 9.6 billion 
pounds of finfish and shellfish in 2012, earning $5.1 billion for their 
catch. Additionally, commercial fishing contributes 1.3 million jobs 
and $141 billion in total sales to the economy of the U.S. The Gulf 
states' ploy directly threatens the seafood industry and our economic 
contribution to the nation by removing accountability to the Magnuson 
Stevens Act, failing to protect the commercial fishery, eliminating 
public involvement in the regulatory process, and prioritizing 
recreational fishing interests above all others.
    The Gulf states' fishery directors hold five seats on the Gulf of 
Mexico Fishery Management Council, the body that that oversees the 
implementation of the Magnuson Stevens Act. Time and time again these 
same individuals have voted against the interests of the commercial 
fishery. That, combined with their refusal to explain how they would 
manage the commercial fishery, and the admittance of at least one major 
private angler organization that the goal is to shut down the 
commercial red snapper fishery, should give every Member of Congress 
pause--it certainly raises concern with us.

    The Magnuson Stevens Act requires fishermen to be accountable for 
what they catch and for fishery management plans to prioritize 
conservation measures. Without these protections, healthy fisheries can 
return to an overfished state and fisheries that need protection may 
not get it. This will hurt fishing businesses like ours, cause the loss 
of our fishing and shoreside jobs, and harm our fishing communities 
that rely on healthy stocks to survive. American seafood consumers will 
feel the sting of this impact as their healthy and sustainable seafood 
choices become limited and replaced by cheap imports or are 
fraudulently mislabeled.

    The nation's supply of Gulf of Mexico red snapper will be 
threatened if the Gulf states take over the commercial red snapper 
fishery, exempt themselves from the Magnuson Stevens Act, and turn over 
this fishery to the recreational sector. The implications of such a 
takeover are far-reaching and set a dangerous precedent for our region 
and others--over 97% of the more than 300,000 million Americans get 
their access to fish and shellfish by purchasing it in restaurants, 
grocery stores, and fish markets that we supply. We cannot support this 
plan in the Gulf because we would not support it at home.

    Thank you for your consideration. We appreciate your help in 
protecting commercial fishermen, the seafood supply chain, and seafood 
consumers throughout the United States by opposing this ill-advised, 
precedent-setting plan.

        Alaska Bering Sea Crabbers    Alaska Independent Fishermen's 
                                      Marketing Association
        Mark Gleason, Executive 
        Director                      David Harsila, President
        Seattle, Washington           Seattle, Washington

        Alaska Independent 
        Tendermens Association        Alaska Longline Fishermen's 
                                      Association
        Lisa Terry, Executive 
        Director                      Linda Behnken, Executive Director
        Petersburg, Alaska            Sitka, Alaska

        Alaska Marine Conservation 
        Council                       Alaska Trollers Association
        Kelly Harrell, Executive 
        Director                      Dale Kelley, Executive Director
        Anchorage, Alaska             Juneau, Alaska

        Alaska Whitefish Trawlers 
        Association                   American Bluefin Tuna Association
        Bob Krueger, Executive 
        Director                      Rich Ruais, Executive Director
        Kodiak, Alaska                Norwell, Massachusetts

        Associated Fisheries of 
        Maine                         At Sea Processors Association
        Maggie Raymond, Executive 
        Director                      Stephanie Madsen, Exec. Director
        South Berwick, Maine          Seattle, Washington

        California Sea Urchin 
        Commission                    California Wetfish Producers 
                                      Association
        Dave Goldenberg, Executive 
        Director                      Diane Pleschner-Steele, Exec. 
                                      Dir.
        Folsom, California            Buellton, California

        Cape Cod Commercial 
        Fishermen's Alliance          Central Coast Seafood Marketing 
                                      Association
        John Pappalardo, CEO          Rob Seitz, Vice President
        Chatham, Massachusetts        Morro Bay, California
        Commercial Fishermen of 
        Santa Barbara                 Fish for America
        Chris Voss, President         Jim Zurbrick, Managing Director
        Santa Barbara, California     Steinhatchee, Florida

        Fishing Vessel Owners' 
        Association                   Florida Keys Commercial 
                                      Fishermen's Association
        Per Odegaard, President       Bill Kelly, Executive Director
        Seattle, Washington           Marathon, Florida

        Fort Bragg Groundfish 
        Association                   Georges Bank Cod Fixed Gear 
                                      Sector
        Michelle Norvell, Executive 
        Director                      Jim Nash, President
        Fort Bragg, California        Chatham, Massachusetts

        Gulf Coast Professional 
        Fishermen                     Gulf Fishermen's Association
        Wayne Werner, Co-Founder      Glen Brooks, President
        Alachua, Florida              Lecanto, Florida

        Gulf of Mexico Reef Fish 
        Shareholders' Alliance        Gulf Wild
        Bubba Cochrane, President     Jason DeLaCruz, President
        Galveston, Texas              St. Augustine, Florida

        Half Moon Bay Groundfish 
        Marketing Association         Half Moon Bay Seafood Marketing 
                                      Association
        Lisa Damrosch, Executive 
        Director                      Geoff Bettencourt, Vice President
        Half Moon Bay, California     Half Moon Bay, California

        Maine Coast Fishermen's 
        Association                   Maine Lobstermen's Association
        Ben Martens, Executive 
        Director                      Patrice McCarron, Exec. Director
        Topsham, Maine                Kennebunk, Maine

        Massachusetts Lobstermen's 
        Association                   Midwater Trawlers Cooperative
        Beth Casoni, Executive 
        Director                      Heather Mann, Executive Director
        Scituate, Massachusetts       Newport, Oregon

        North Pacific Fisheries 
        Association                   Northeast Fishery Sector 11
        Malcolm Milne, President      Jamie Hayward, President
        Homer, Alaska                 New Hampshire

        Northeast Seafood Coalition   Penobscot East Resource Center
        Jackie Odell, Executive 
        Director                      Kyle Molton, Policy Director
        Gloucester, Massachusetts     Stonington, Maine

        Purse Seine Vessel Owner's 
        Association                   Rhode Island Commercial 
                                      Fishermen's Association
        Bob Kehoe, Executive 
        Director                      Christopher Brown, Exec. Director
        Seattle, Washington           Wakefield, Rhode Island

        Small Boat Commercial 
        Salmon Fishermen's 
        Association                   South Atlantic Fishermen's 
                                      Association
        Don Marshall, President       Matt Ruby, President
        Grass Valley, California      Charleston, South Carolina
        Southeast Alaska 
        Fishermen's Alliance          Southern Offshore Fishing 
                                      Association
        Kathy Hansen, Executive 
        Director                      Bob Spaeth, Executive Director
        Juneau, Alaska                Madeira Beach, Florida

        United Catcher Boats          United Cook Inlet Drift 
                                      Association
        Brent Paine, Executive 
        Director                      David Martin, President
        Seattle, Washington           Soldotna, Alaska

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
